<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2011 
Commerce, Justice, Science, and Related Agencies Appropriations 
Act.]
 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                                Program
    For more than 30 years, the Regional Information Sharing Systems 
(RISS) Program has been a leader in providing the necessary tools and 
critical services for law enforcement as well as other criminal justice 
and public sector entities. RISS consists of six regional centers that 
support and serve the unique needs of their individual regions while 
working together on national-scope issues. RISS is a premier 
information sharing program, offering secure communications, access to 
intelligence databases, and investigative resources and services. The 
RISS Program respectfully requests that Congress appropriate $65 
million for fiscal year 2011.
    As the economy continues to struggle, criminal justice agencies are 
tightening budgets, decreasing resources, and limiting efforts. RISS 
serves as a force multiplier, offering a one-stop shop to effectively 
and efficiently aid agencies in tackling crime problems. Through RISS 
services, criminal justice agencies are provided secure information 
sharing capabilities and investigative support services that, in many 
cases, they would not otherwise receive.
    The RISS Centers provide investigative support services to more 
than 96,000 officers from more than 8,500 criminal justice agencies at 
the local, State, Federal, and tribal levels. RISS operates in all 50 
States, the District of Columbia, U.S. territories, Australia, Canada, 
and England. RISS links thousands of criminal justice agencies through 
secure communications and provides information sharing resources and 
investigative support to combat multijurisdictional crimes. RISS 
strives to enhance the ability of criminal justice agencies to 
identify, target, and remove criminal conspiracies and activities while 
promoting officer safety.
    The support provided by RISS has enabled law enforcement and public 
safety agencies to increase their success exponentially. Because of 
these successes, as well as the many remaining needs throughout the 
criminal justice community, RISS continues to experience an increased 
demand for its services. Continued and additional funding is needed in 
order to meet this demand and continue to build upon the Nation's 
information sharing environment. In addition to continuing its current 
services, RISS will utilize requested funds for the initiatives listed 
below.
  --Expand and continue to deploy the RISS Officer Safety Event 
        Deconfliction System (RISSafe) throughout the six RISS regions.
  --Enhance the RISSGang Program, develop gang training and 
        publications, and connect gang intelligence systems.
  --Enhance the RISS Secure Intranet (RISSNET) to improve 
        functionality, security, and resources and to expand agency 
        connectivity and officer/agency access.
  --Support border initiatives by developing training and providing 
        secure information sharing.
  --Continue to develop and enhance the Combat Meth Project.
  --Expand the RISS Automated Trusted Information Exchange (RISS ATIX) 
        by enhancing communications and developing an off-line 
        notification and alert capability.
  --Expand the Pawnshop Database nationwide.
  --Continue to participate in the Nationwide Suspicious Activity 
        Reporting Initiative (NSI).
  --Continue to support and expand fusion center partnerships and 
        connectivity.
    RISS is Federal funded but locally managed by its member agencies. 
The Bureau of Justice Assistance (BJA), Office of Justice Programs, 
U.S. Department of Justice, administers the RISS Program. The RISS 
Centers operate under the BJA Funding and Administration Guidelines of 
the RISS Program and the Criminal Intelligence Systems Operating 
Policies (28 Code of Federal Regulations [CFR] part 23). Each of the 
six RISS Centers has developed operating policies and procedures that 
comply with the Federal guidelines and regulations. The RISS Centers 
have adopted a privacy policy that fully complies with 28 CFR part 23.
    RISS developed and continues to operate RISSNET, which offers 
state-of-the-art technology to support law enforcement demand for rapid 
communications and information sharing nationwide. Through RISSNET, 
member agencies can securely exchange information and electronically 
access RISSNET resources, including the RISS Criminal Intelligence 
Databases (RISSIntel), RISSafe, the RISSGang Program, RISS ATIX, the 
RISS Investigative Leads Bulletin Board (RISSLeads), a data-
visualization and link-analysis tool (RISSLinks), the RISS Search 
Engine (RISSearch), the RISS Center Web sites, and secure e-mail.
    In fiscal year 2009, more than 3.4 million records were available 
in RISSIntel and more than 3.1 million inquiries were made to the 
system. RISSIntel has proved a successful tool to securely share 
criminal intelligence and connect law enforcement officers. In 
addition, member agencies have access to various State, regional, 
Federal, and specialized criminal justice intelligence systems 
connected to RISSNET. By connecting systems to RISSNET, rather than 
funding the build-out of infrastructure for new stand-alone information 
systems, hundreds of millions of dollars can be saved and millions of 
data records can be easily and quickly accessed by law enforcement. 
Currently, almost 100 agency systems are connected or pending 
connection to RISSNET, including 32 High Intensity Drug Trafficking 
Areas, 36 State agency systems, and 28 Federal and other systems. 
RISSNET offers the ability to select one or all connected systems and 
conduct a federated search.
    As part of the continued commitment to promote and enhance officer 
safety, RISS deployed RISSafe. RISSafe stores and maintains data on 
planned law enforcement events, with the goal of identifying and 
alerting affected agencies and officers of potential conflicts 
impacting law enforcement efforts. As of January 22, 2010, 152,265 
events were entered into RISSafe, resulting in 52,469 identified 
conflicts. Without this resource, law enforcement agencies might have 
interfered with each other's cases and officers might have been injured 
or killed.
    The RISSGang Program is a comprehensive investigative tool 
consisting of a criminal intelligence database, a Web site, 
informational resources, and secure communications to aid and support 
gang-related investigations. RISS ATIX is available to thousands of law 
enforcement and public safety agencies. RISS ATIX Participants include 
local, county, State, and tribal levels of emergency management, law 
enforcement, and government, as well as public and private utilities, 
transportation, chemical manufacturing, environmental protection, 
banking, and hospitality industries. RISS ATIX resources include Web 
pages that contain general and community-specific information, links to 
restricted and public Web sites, and other sources of terrorism and 
disaster-related information. The RISS ATIX Bulletin Board provides 
secure online conferences for users to collaborate and post 
information. The Document Library provides informational and 
educational materials. ATIX secure e-mail enables the distribution of 
alerts and sensitive but unclassified (SBU)/controlled unclassified 
information (CUI).
    Some law enforcement agencies do not have the personnel, training, 
or support to tackle complex multijurisdictional crimes. RISS not only 
provides secure communications and access to intelligence databases but 
also provides services to enhance and improve the ability to detect, 
apprehend, and successfully prosecute criminals. The following 
summarizes RISS's information and investigative support services.
  --Information Sharing.--Operation of RISSNET and its applications and 
        tools.
  --Analysis.--RISS analysts developed 35,655 products in fiscal year 
        2009 for investigators and prosecutors to help increase their 
        ability to identify, detect, and apprehend suspects as well as 
        enhance prosecutorial success. Products include flowcharts, 
        link-analysis charts, crime scene diagrams, telephone toll 
        analysis and financial analysis reports, digital forensics 
        analysis, and audiovisual enhancement services.
  --Investigative Support.--RISS intelligence research staff responded 
        to 96,293 requests in fiscal year 2009 to conduct database 
        searches and research numerous resources.
  --Equipment Loans.--Pools of highly specialized investigative and 
        surveillance equipment are available for loan to member 
        agencies for use in multijurisdictional investigations. In 
        fiscal year 2009, 5,669 pieces of equipment were borrowed.
  --Confidential Funds.--RISS provides funds to purchase contraband, 
        stolen property, and other items of an evidentiary nature or to 
        provide for other investigative expenses. RISS provided 
        $664,785 in confidential funds in fiscal year 2009.
  --Training.--RISS Centers sponsor or cosponsor training classes, 
        meetings, and conferences that build investigative expertise 
        for member agency personnel. In fiscal year 2009, 78,852 
        criminal justice professionals received RISS training.
  --Publications.--Each center develops and distributes publications, 
        bulletins, and reports focusing on local and national issues. 
        In fiscal year 2009, the centers distributed 255,798 copies of 
        documents to law enforcement personnel.
  --Field Services Support.--The integration of field services is 
        unique to RISS, whereby individuals regularly contact law 
        enforcement and public safety agencies to ensure that RISS is 
        meeting their needs. RISS field staff conducted 25,242 on-site 
        visits in fiscal year 2009 to train, support, and help 
        integrate RISS services. This one-on-one support has resulted 
        in trusted relationships and a program prized among its 
        members.
    Through the services and support provided by RISS, member agencies 
made 4,975 arrests in fiscal year 2009. In addition, seizures or 
recoveries of more than $27 million in narcotics, property, and 
currency resulted from member agency cases in which RISS services were 
used.
    RISS continues pursuing and refining partnerships and programs in 
order to leverage proven technology and expand information sharing. 
Some of these include connecting fusion centers to RISSNET, supporting 
NSI, partnering with the National Gang Intelligence Center, 
participating in the National Virtual Pointer System, enhancing gang 
investigators' ability to share intelligence data, and expanding the 
capabilities and resources of RISS ATIX.
    The National Criminal Intelligence Sharing Plan (NCISP) and the Law 
Enforcement Information Sharing Program (LEISP) Strategy were developed 
to focus on national parameters for information and intelligence 
sharing. RISS is noted in both documents as a mechanism to facilitate 
secure information sharing.
    There is a critical need to provide a seamless SBU/CUI solution. 
Local law enforcement officers/analysts need one single sign-on and 
access to an interoperable SBU/CUI environment, regardless of 
ownership. To accomplish this, interoperability requirements must be 
defined. RISSNET--along with the U.S. Department of Homeland Security's 
Homeland Security Information Network, FBI LEO, and the Intelligence 
Community's Intelink--have been identified by the Interagency Policy 
Committee (IPC) formed within the jurisdiction of the executive office 
of the President as the four SBU/CUI networks necessary to be involved 
in the interoperability initiative to ensure timely and effective 
information sharing among local, State, Federal, and tribal agencies. 
RISS will play a major role in this development process. RISS has made 
strides in this area, through the LEISP initiatives, to connect users 
via Federated Identity to the Federal Joint Automated Booking System 
(JABS). Currently, 89 RISSNET users are accessing JABS via Federated 
Identity, and 1,756 non-RISSNET users are accessing RISS resources via 
Federated Identity.
    In addition, each RISS Center has developed partnerships and 
programs to meet the needs of its unique region. Some examples include 
the Project Safe Neighborhoods Mapping and Analysis Program, the 
National Identity Crimes Law Enforcement Network, the Cold Case Locator 
System, the Metals Theft Initiative, the Master Telephone Index, the 
Pawnshop Database, the Combat Meth Project, and the Cold Hit Outcome 
Project.
    RISS is supported and endorsed by numerous groups, including the 
International Association of Chiefs of Police, the National Sheriffs' 
Association, the National Narcotic Officers' Associations' Coalition, 
and the National Alliance of Gang Investigators Associations.
    Without continued funding and support for RISS, law enforcement and 
public safety efforts will be severely hampered. Specifically, RISS and 
its users will experience the following:
  --Reduced expansion of RISSafe
  --Inability to effectively support RISS ATIX and RISSGang
  --Limited expansion of RISSNET and redundancy of system applications
  --Minimal enhancement of the RISSNET Portal
  --Limited support for border initiatives
  --No expansion of the Pawnshop Database
  --Decreased support services, limited analytical support, and fewer 
        training opportunities
  --Delayed and/or a lack of new connectivity among agencies and users
  --Limited support for information sharing initiatives
    It is respectfully requested that Congress appropriate $65 million 
for fiscal year 2011 to continue RISS's efforts. Local and State law 
enforcement depend on RISS for information sharing, investigative 
support, and technical assistance. It would be counterproductive to 
require local and State RISS members to self-fund match requirements, 
as well as to reduce the amount of BJA discretionary funding. Local and 
State agencies require more, not less, funding to fight the Nation's 
crime problem. RISS is unable to make up the decrease in funding that a 
match would cause, and it has no revenue source of its own. Cutting the 
RISS appropriation by requiring a match should not be imposed on the 
program.
    RISS operates one of the most important law enforcement information 
sharing programs in the Nation. RISS plays a part in ensuring that law 
enforcement and public safety have the information and resources 
necessary to secure our country. For additional information, please 
visit www.riss.net. RISS appreciates the support this subcommittee has 
continuously provided to the RISS Program and is grateful to provide 
this testimony.
                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
subcommittee in support of $44 million in funding for the Commerce 
Department's Public Telecommunications Facilities Program (PTFP) in 
fiscal year 2011. As the president and CEO of the National Federation 
of Community Broadcasters (NFCB), I speak on behalf of 250 community 
radio stations and related individuals and organizations across the 
country including many Low Power FM stations. NFCB is the sole national 
organization representing this group of stations, which provide 
independent local service in the smallest communities and the largest 
metropolitan areas of this country. Nearly one-half of NFCB's members 
are rural stations, and one-half are controlled by people of color.
    In summary, the points we wish to make to this subcommittee are:
  --PTFP funding is unique. It is the only funding source available to 
        help get new stations on the air and ensure that public 
        broadcasting is available everywhere in the United States.
  --In the current budget, a loss of PTFP will mean an irreplaceable 
        loss in new community radio stations because of an 
        unprecedented number of new licensees in the pipeline flowing 
        from a large number of radio stations granted new construction 
        permits by the Federal Communications Commission. This new 
        licensing opportunity will not come again.
  --PTFP is a targeted program carefully managed to replace necessary 
        equipment by leveraging public with private funds.
  --PTFP will help public and community radio stations prepare to 
        provide emergency information during natural or man-made 
        disasters.
  --PTFP will help fund for conversion of public radio to digital 
        broadcasting, which has only recently begun.
    PTFP is poised to fund new stations that have recently been granted 
construction permits by the Federal Communications Commission. PTFP is 
the only program available that supports new station construction. No 
alternate funding exists--the Corporation for Public Broadcasting does 
not support stations until they have been on the air for 1 year. The 
solid funding levels for CPB will not translate into production of new 
stations. The opportunity in this budget year is unique because of its 
timing. In 2007, the Federal Communications Commission opened up a new 
licensing window for new noncommercial radio stations. This was the 
first opportunity to apply for new radio stations in a decade. Because 
of the scarcity of radio spectrum, this is the last significant 
licensing windows for new public radio stations unless new spectrum is 
allocated to radio broadcasting. Community radio has put an immense 
effort into recruiting new and diverse applicants who are just now 
receiving their construction permits from the FCC and are able to apply 
for PTFP funding. With adequate funding and support, the new group of 
applicants has the potential to fund construction of 45 new community 
radio stations authorized by the FCC in its most recent licensing 
window and double the number of Native American radio stations in this 
country. Federal funding is particularly critical to stations 
broadcasting to rural and underserved audiences which have limited 
potential for fundraising due to sparse populations, limited number of 
local businesses, and low income levels. In addition, PTFP often funds 
translator stations to expand the geographic coverage of an existing 
station.
    PTFP is a targeted program carefully managed to replace necessary 
equipment by leveraging public with private funds. Funding from PTFP 
has been essential to keep public radio stations on the air by funding 
the replacement of equipment, often items that have been in use for 20 
or more years. The program is administered carefully to be certain that 
stations are acquiring the most appropriate type of equipment. They 
also determine that equipment is being properly maintained and will not 
fund the replacement of equipment before an appropriate period of time 
in use. Even so, PTFP funding is a matching program, so Federal money 
is leveraged with a local commitment of funds. This program is a strong 
motivating factor in raising the significant money necessary to 
replace, upgrade and purchase expensive broadcast equipment.
    PTFP will help public and community radio stations prepare to 
provide emergency information during natural or man-made disasters. As 
we saw during the severe storms and devastating hurricanes of the last 
few years, radio is the most effective medium for informing a community 
of weather forecasts, traffic issues, services available, evacuations, 
and other emergency conditions. Since everyone has access to a radio 
and they are portable and battery operated, a radio is the first source 
for this critical information. Radio stations therefore must have 
emergency power at both their studios and their transmitter in order to 
provide this service.
    We support $44 million in funding to ensure that both the ongoing 
program will be continued, and hope that that there will be additional 
financial resources available to help cover the cost of improving the 
emergency infrastructure of public broadcasting stations. This 
additional funding is considered an urgent need if community stations 
are to withstand and continue broadcasting through extreme weather or 
other emergency situations. At a time when local service is being 
abandoned by commercial radio, PTFP aids communities developing their 
own stations which provide local information and emergency 
notifications.
    The National Federation of Community Broadcasters supports PTFP 
funding to help public radio to convert to digital to provide more 
public service and keep up with the market. While television's digital 
conversion was completed last year, radio is also converting to 
digital. Commercial radio stations are converting to digital 
transmission, and public radio should not be left behind. The digital 
standard for radio has been approved by the Federal Communications 
Commission, and over 400 public radio transmitters have been converted. 
Public digital radio signals will provide more public service. Most 
exciting to public radio is that stations can broadcast two or more 
high quality signals, even while they continue to provide the analog 
signal. Additional digital audio channels will potentially more than 
double the service that public radio can provide, particularly to 
unserved and underserved communities. For example, public radio will be 
able to add services in languages other than English, or will be able 
to add distinctive cultural, music, or news programming.
    In sum, community radio supports $44 million in funding for the 
Public Telecommunications Facilities Program in fiscal year 2011. PTFP 
funding is unique. It is the only funding source available to help get 
new stations on the air and ensure that public broadcasting is 
available everywhere in the United States. Federal funding distributed 
through the PTFP is essential to continuing and expanding the public 
broadcasting service throughout the United States. PTFP funding is 
critical to ensuring public radio's readiness to provide life-saving 
information to communities in the event of local disasters, as we have 
seen during weather emergencies in the past few years. With the advent 
of digital broadcasting, PTFP funding is helping with the conversion to 
this new technology. It is particularly critical for rural stations and 
those serving low income communities. PTFP funds new stations, 
expanding the reach of public broadcasting to rural areas and to 
audiences that are not served by existing stations. Finally, it 
replaces obsolete and worn out equipment so that existing public 
stations can continue to broadcast high quality programming in a 
carefully targeted, fiscally responsible manner.
    Public radio is the most vibrant part of the radio dial, bringing a 
diverse spectrum of news, information and entertainment to millions of 
listeners every day. PTFP will give us an unprecedented opportunity to 
be sure that radio is providing local news and journalism, enhancing 
local culture, and bringing new communities into the information age.
    Thank you for your consideration of our testimony.
                                 ______
                                 
   Prepared Statement of the Institute of Makers of Explosives (IME)

    Dear Madam Chairman: On behalf of the Institute of Makers of 
Explosives (IME), I am submitting a statement for inclusion in the 
subcommittee's hearing record regarding the proposed fiscal year 2011 
budget for the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF) Arson and Explosives (A&E) program.

                          INTEREST OF THE IME

    The IME is the safety and security association of the commercial 
explosives industry. The production, distribution, storage and use of 
explosives are highly regulated. ATF is one of the agencies that play a 
primary role in assuring that explosives are identified, tracked, and 
stored only by authorized persons. The ability to manufacture, 
distribute and use these products safely and securely is critical to 
this industry. We have carefully reviewed the administration's fiscal 
year 2011 budget request for ATF, and have the following comments about 
its impact on the commercial explosives industry.

                  ATF'S EXPLOSIVES REGULATORY PROGRAM

    The administration's fiscal year 2011 budget request proposes to 
support ATF's regulation and oversight of explosives industries at a 
level that will sustain current services. In fiscal year 2010, this 
program was increased by 9 FTE to 383 FTE.
    The Bureau's Explosives Industry Programs Branch has embraced the 
Obama administration's pledge to be more transparent and accountable. 
To help us do our job better, data about theft and diversion of 
commercial explosives is being shared on an annual basis. ATF is 
continuing efforts to enhance data capabilities. These efforts should 
be supported.
    We are pleased to report that the $200,000 set-aside provided the 
Bureau in fiscal year 2009 to begin addressing its pending regulatory 
backlog has borne fruit. In January, ATF finalized its rule on the 
storage of shock tube with detonators.\1\ By statute, ATF is supposed 
to ``take into consideration . . . the standards of safety and security 
recognized in the explosives industry'' when issuing rules and 
requirements.\2\ We believe ATF followed this directive in issuing the 
shock tube final rule. Four other rulemakings of importance to IME are 
still pending; the oldest dating to 2001. We hope to continue to see 
progress in this area. We are grateful to Congress for its oversight of 
this issue.
---------------------------------------------------------------------------
    \1\ 75 FR 3160 (January 20, 2010).
    \2\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
    In the absence of rulemaking that is capable of keeping up with new 
developments and practices, industry must rely on interpretive guidance 
and variances from rules to conduct business. While we appreciate the 
Bureau's accommodations, these stop-gap measures do not afford the 
protections that rulemaking would provide the regulated community, nor 
allow the oversight necessary to ensure that all parties are being held 
to the same standard of compliance. These regulatory tasks are critical 
to the lawful conduct of the commercial enterprises that the bureau 
controls.

                           INDUSTRY STANDARDS

    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements. We have endeavored to fulfill this obligation through the 
development of industry best practices for safety and security, 
participation in relevant standard-setting organizations, and forums 
for training. We have offered ATF recommendations that we believe will 
enhance safety and security through participation in the rulemaking 
process, in the Bureau's research efforts, and in other standard 
setting activities.
    In this regard, IME has spent years developing and validating a 
credible alternative to strict interpretation of quantity-distance 
tables used to determine safe setback distances from explosives. IME 
collaborated with the Department of Defense Explosives Safety Board and 
Canadian and U.S. regulatory agencies, including ATF. The result is a 
windows-based computer model for assessing the risk from a variety of 
commercial explosives activities called IMESAFR.\3\ Not only can 
IMESAFR determine the amount of risk presented, but it can also 
determine what factors drive the overall risk and what actions would 
lower risk, if necessary. The probability of events for the activities 
were based on the last 20 years experience in the United States and 
Canada and can be adjusted to account for different explosive 
sensitivities, additional security threats, and other factors that 
increase or decrease the base value. Following this effort, ATF is 
starting to recognize this powerful assessment tool as a potential 
alternative for the regulated community to meet quantity-distance 
limitations. ATF has taken advantage of opportunities to partner with 
IME and is deliberating whether to accept this or any other risk-based 
approach to explosives safety. ATF should be encouraged to recognize 
the benefits of risk-based modeling and develop policy that would allow 
the use of such models to meet regulatory mandates.
---------------------------------------------------------------------------
    \3\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities.
---------------------------------------------------------------------------
                    PERFORMANCE MEASURE IMPROVEMENTS

    We have expressed concern at the drop in the performance of the 
Bureau's A&E programs as measured by the Program Assessment Rating Tool 
(PART).\4\ During assessment year 2004, the A&E program was rated 
``moderately effective.'' By 2008, the rating of the A&E program had 
fallen to ``adequate.'' The program's scores fell in all categories:
---------------------------------------------------------------------------
    \4\ http://www.whitehouse.gov/omb/expectmore/detail/
10002202.2008.html. PART was developed by OMB to assess and improve 
program performance of the Federal Government. ATF's A&E programs are 
measured together because A&E investigators are cross trained and only 
32 percent of the ATF A&E budget goes to explosives regulatory 
activities.

------------------------------------------------------------------------
                                            Score--2004     Score--2008
                 Section                     (percent)       (percent)
------------------------------------------------------------------------
Program Purpose & Design................             100              80
Strategic Planning......................              88              75
Program Management......................             100              43
Program Results/Accountability..........              67              40
------------------------------------------------------------------------

    As a result, ATF developed improvement plans to be implemented in 
the arson and explosives program: \5\
---------------------------------------------------------------------------
    \5\ Fiscal Year 2011 ATF Budget Submission, page 63.
---------------------------------------------------------------------------
  --ATF will continue to work with the FBI to implement the provisions 
        of a Memorandum of Understanding between the two agencies.
  --ATF will establish a performance measure based on in-depth 
        evaluation of the application of select training it provides.
    While these are worthy goals, we question whether they are 
sufficient to address all programmatic shortfalls. For a number of 
years, IME has expressed concern about the lack of appropriate measures 
to assess the ATF's performance as a regulator of the commercial 
explosives industry.\6\ Instead of adding such performance indicators, 
however, ATF has discontinued all prior performance measures and 
outcomes and replaced them with three metrics, of which only one 
applies to the Bureau's explosives regulatory program.\7\ The ``outcome 
measure'' for the explosives regulatory program is ``improve public 
safety by increasing compliance with Federal laws and regulations by 
explosives industry members.'' \8\ While a laudable objective, the 
Bureau provides no metrics to assess whether this objective has been 
achieved.\9\ Absent information of this type, it is unclear how 
Congress can effectively oversee ATF's handling of its responsibilities 
toward the regulated community or determine the adequacy of its budget 
request.
---------------------------------------------------------------------------
    \6\ IME has requested performance measures such as the percent of 
perfected explosives applications acted on within 90 days; the number 
of background checks that ATF has performed, within what average 
timeframe, and of those, how many individuals failed to receive 
clearance, and of those, how many appealed the Bureau's findings; the 
number of rulemakings outstanding and their priority; and turnover 
rates among agents and inspectors.
    \7\ Fiscal Year 2011 ATF Budget Submission, pages 57-61.
    \8\ Fiscal Year 2011 ATF Budget Submission, pages 58 and 60.
    \9\ Other Federal Government agencies have such metrics. For 
example, see the fiscal year 2011 budget submission for the U.S. 
Department of Transportation's Pipeline and Hazardous Materials 
program.
---------------------------------------------------------------------------
    ATF states that in fiscal year 2009, it received a ``clean audit 
opinion.'' \10\ However, the measures or scores used in the audit are 
not disclosed so there is no way to determine where progress has been 
made relative to the PART assessments. Anecdotally, we believe that 
ATF's arson and explosives program is more responsive. However, we 
would welcome an independent audit of the program to corroborate that 
the Bureau has reversed the trend reflected in the last two PART 
reviews with regard to its ``resource utilization, strategic planning, 
program management, and program results.'' \11\ We believe that the 
timing for such an audit is consistent with the administration's pledge 
of transparency and accountability.
---------------------------------------------------------------------------
    \10\ Fiscal Year 2011 ATF Budget Submission, page 63.
    \11\ Fiscal Year 2011 ATF Budget Submission, page 63.
---------------------------------------------------------------------------
                               LEADERSHIP

    The resolution of these issues may have to wait the appointment of 
a new director. The ATF has been without a director since August 2006. 
We hope that an appointment will soon be announced. The Bureau has been 
too long without permanent leadership.

                               CONCLUSION

    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the important 
role played by ATF in helping our industry achieve and maintain safe 
and secure workplaces. Industry and the public trust that ATF has the 
resources to fulfill its regulatory responsibilities. It is up to 
Congress and, in particular, this subcommittee to ensure that ATF has 
the resources it needs. We strongly recommend full funding for ATF's 
explosives program.
                                 ______
                                 
         Prepared Statement of the Coastal States Organization

    The Coastal States Organization (CSO) is a nonpartisan, nonprofit 
organization that represents the interests of the Governors of the 35 
coastal States, territories and commonwealths in Washington, DC. 
Established in 1970, CSO focuses on legislative and policy issues 
relating to the sound management of coastal, Great Lakes, and ocean 
resources and is recognized as the trusted representative of the 
collective interests of the coastal States on coastal and ocean 
management. For fiscal year 2011, CSO supports the following coastal 
programs and funding levels within the National Oceanic and Atmospheric 
Administration (NOAA):
    Coastal Zone Management Program (Sec. Sec. 306/306A/309)--$88 
million
    Coastal and Estuarine Land Conservation Program--$60 million
    CZM and Stewardship $12.5--million
    Every American, regardless of where he or she lives, is 
fundamentally connected to our coasts, oceans, and Great Lakes. These 
valuable resources are a critical framework for commerce, recreation, 
energy, environment, and quality of life. The U.S. economy is an ocean 
and coastal economy: though Federal investment does not reflect it, the 
oceans and coasts provide an irreplaceable contribution to our Nation's 
economy and quality of life. With sectors including marine 
transportation, tourism, marine construction, aquaculture, ship and 
boat building, mineral extraction, and living marine resources, the 
U.S. ocean-based sector alone provides $138 billion to U.S. GDP and 
over 2.3 million jobs to our citizens. In addition, the annual 
contribution of coastal counties is in the trillions of dollars, from 
ports and fishing to recreation and tourism. In 2007, our Nation's 
coastal counties provided $5.7 trillion to the economy and were home to 
108.3 million people on only 18 percent of the U.S. land area. If these 
counties were their own country, they would have the world's second 
largest economy. Coasts and oceans also add to the quality of life of 
nearly one-half of all Americans who visit the seashore each year; the 
non-market value of recreation alone is estimated at over $100 billion.
    Today, our Nation's coasts are as vital for our future as they are 
vulnerable. As a result of their increasing draw and economic vitality, 
we are exerting more pressure on our coastal and ocean resources. This 
demand, combined with an increase in natural hazards such as sea level 
rise, hurricanes and other flooding events, can be proven to show that 
the country is in danger of losing these invaluable assets. Despite the 
difficult budgetary times, we need to provide more funding and support 
for the key programs that are on the front lines of this daily battle, 
the programs utilizing the advances in coastal and ocean science, 
research, and technology to manage our coastal and ocean resources for 
future generations.
    Programs that are engaged in these important efforts and working to 
balance the protection of coastal and ocean resources with the need for 
sustainable development include the Coastal Zone Management Program and 
the Coastal and Estuarine Land Protection Program. These programs 
reside within the National Oceanic and Atmospheric Administration 
(NOAA) and provide direct funding or services to the States and 
territories, which account for a small portion of the total NOAA 
Federal budget. The funding for these programs is very cost-effective, 
as these grants are matched by the States and are used to leverage 
significantly more private and local investment in our Nation's coasts. 
Increased funding for these programs that provide on-the-ground 
services to our local communities and citizens is well worth the 
investment.

        COASTAL ZONE MANAGEMENT PROGRAM (SEC. SEC. 306/306A/309)

    CSO requests that these grants be funded at a level of $88 million, 
an amount that will be shared among the 34 States and territories that 
have approved coastal zone management programs. Pursuant to the Coastal 
Zone Management Act (CZMA), NOAA and the States partner to implement 
coastal zone management programs designed to balance protection of 
coastal and ocean resources with the need for sustainable development 
of coastal communities. States have the flexibility to develop 
programs, policies and strategies that are targeted to their State 
priorities while advancing national goals. Under the CZMA program, the 
States receive grants from NOAA that are matched by the States and are 
used to leverage significantly more private and local investment in our 
Nation's coastal areas. These grants have been used to reduce 
environmental impacts of coastal development, resolve conflicts between 
competing coastal uses, and provide critical assistance to local 
communities in coastal planning and resource protection.
    The CZMA State grants have essentially remained level-funded for 9 
years, resulting in a decreased capacity in the State coastal zone 
management programs and less funding being granted out to local 
communities. An increase in funding to $88 million provides an 
additional $300,000-$800,000 for each State and territory based on a 
Federal formula that takes into account coastal population and 
shoreline mileage. With the additional funding, States and territories 
could focus on near-term activities that would prepare their coastal 
communities to adapt to climate change, develop renewable energy 
sources, and conserve and restore habitat and working waterfronts. The 
following is a representative list of activities that the States and 
territories could pursue with the increased funding:
  --Acquire high resolution topography and bathymetry mapping data (for 
        example, LIDAR, shallow water-penetrating LIDAR) and/or 
        integrate these and existing datasets for consistent statewide 
        coverage and public dissemination;
  --Invest in research, mapping and modeling to enable decisionmaking 
        for renewable energy development;
  --Host workshops to assist local officials to assess resources and 
        identify strategies to integrate climate change adaptation 
        measures into local policies, regulations and programs;
  --Conserve and restore coastal habitat for storm protection, water-
        filtering benefits, fish nurseries, and recreation and preserve 
        waterfront property for businesses dependant on access to the 
        water to flourish;
  --Foster coordinated permitting review and siting guidance among 
        State and Federal agencies for offshore renewable energy 
        development;
  --Work to implement new or modify existing State and local policies, 
        regulations and programs to address climate change impacts, 
        including those related to building design and construction, 
        wetland conservation and restoration, stormwater systems and 
        roadways, shore protection, and general public infrastructure; 
        and
  --Support outreach and extension activities related to science and 
        public education with partners such as the National Estuarine 
        Research Reserves and Sea Grant College Programs.
    Under the current level of funding, most States and territories 
receive between $850,000 and $2 million to carry out their coastal 
management programs based on a formula accounting for shoreline miles 
and coastal population. Appropriate at the time, a cap of $2 million 
was instituted years ago to allow for funding to spread more evenly 
across the States and territories, so as to prevent most of the funding 
from going entirely to the larger, more heavily populated States. But, 
now, over one-half of the States have met the cap and no longer receive 
an increase in funding, despite increased overall funding for CZMA 
State grants. Therefore, CSO requests that language be included in the 
appropriations bill declaring that each State will receive no less than 
1 percent and no more than 5 percent of the additional funds over and 
above previous appropriations. As was provided for in fiscal year 2010, 
CSO requests that language be included in the appropriations bill that 
directs NOAA to refrain from charging administrative costs to these 
grants. This is to prevent any undue administrative fees from NOAA from 
being levied on grants intended for States.

            COASTAL AND ESTUARINE LAND CONSERVATION PROGRAM

    CSO requests $60 million for the Coastal and Estuarine Land 
Conservation Program (CELCP). Authorized by Congress in 2002, CELCP 
protects ``those coastal and estuarine areas with significant 
conservation, recreation, ecological, historical, or aesthetic values, 
or that are threatened by conversion from their natural or recreation 
states to other uses.'' To date, Congress has appropriated nearly $260 
million for CELCP. This funding has allowed for the completion of over 
125 conservation projects, with more in progress. CELCP projects in 27 
of the Nation's 35 coastal States have already helped preserve 
approximately 45,000 acres of the Nation's coastal treasures. All 
Federal funding has been leveraged by at least an equal amount of 
State, local, and private investments, demonstrating the broad support 
of the program, the importance of coastal protection throughout the 
Nation, and the critical role of Federal funding to its success.
    The preservation of coastal and estuarine areas is critical to both 
humans and the environment. These areas shield us from storms, protect 
us from the effects of sea-level rise, filter pollutants to maintain 
water quality, provide shelter, nesting and nursery grounds for fish 
and wildlife, protect rare and endangered species and provide access to 
beaches and waterfront areas. CELCP is the only program entirely 
dedicated to the conservation of these vital coastal areas.
    The demand for CELCP funding far outstrips what has been available 
in recent years. In the last 3 years, NOAA, in partnership with the 
States, has identified over $270 million of vetted and ranked projects. 
As demand for CELCP funding has grown, the funding has not kept pace. 
Adequate funding is needed to meet the demand of the increasingly high-
quality projects developed by the States and submitted to NOAA.
    This March, the CELCP program was formally authorized as part of 
H.R. 146, the Omnibus Public Lands Management Act of 2009, once again 
showing the broad, bi-partisan support for coastal and estuarine land 
conservation. In recognition of the significant demand for CELCP 
projects, H.R. 146 authorized the program at $60 million annually.

                          CZM AND STEWARDSHIP

    CSO requests $12.5 million for CZM and Stewardship under NOAA's 
Office of Ocean and Coastal Resources Management (OCRM). OCRM provides 
support to the States and territories by providing program liaisons, 
and processing grants and program changes for the Coastal Zone 
Management Program, as well as leading the development of NOAA's 
Coastal Strategy. It also administers the Coastal and Estuarine Land 
Conservation Program (CELCP), leads coral reef conservation activities, 
and manages the development of a National System of Marine Protected 
Areas. With all of these vested responsibilities, and to administer all 
of its programs adequately, OCRM needs this funding to be the best 
possible partner to the States and territories.
    CSO greatly appreciates the support the subcommittee has provided 
in the past. Its support has assisted these programs in working 
together to protect our coasts and sustain our local communities. Thank 
you for taking our requests into consideration as you move forward in 
the fiscal year 2011 appropriations process.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Summary of GLIFWC's Fiscal Year 2011 Testimony.--GLIFWC supports 
the administration's fiscal year 2011 proposal to increase tribal COPS 
funding to $67 million but not the $15 million reduction in the Tribal 
Resources Grant Program (TRGP). The administration's proposal to set 
aside tribal funding within the Universal Hiring Program (UHP) is 
timely given the great need in Indian country. However, the proposed 
decrease of $15 million for the Tribal Resources Grant Program (TRGP) 
is an unwise trade-off that will undercut the effectiveness of tribal 
law enforcement. Not only must new officers be trained and equipped, 
something which cannot be done with UHP funding, but fully-staffed 
agencies still need the logistical support that the TRGP provides. The 
TRGP has enabled GLIFWC to solidify its communications, training, and 
equipment requirements, essential elements that help ensure the safety 
of GLIFWC officers and their role in the proper functioning of 
interjurisdictional emergency mutual assistance networks in the treaty 
ceded territories.
    Ceded Territory Treaty Rights and GLIFWC's Role.--GLIFWC was 
established in 1984 as a ``tribal organization'' within the meaning of 
the Indian Self-Determination Act (Public Law 93-638). It exercises 
authority delegated by its member tribes to implement Federal court 
orders and various interjurisdictional agreements related to their 
treaty rights. GLIFWC assists its member tribes in:
  --Securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --Cooperatively managing and protecting ceded territory natural 
        resources and their habitats.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    For over 25 years, Congress and various administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific Federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the Federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 U.S. Supreme Court case, 
affirming the treaty rights of GLIFWC's member tribes. GLIFWC serves as 
a cost efficient agency to conserve natural resources, to effectively 
regulate harvests of natural resources shared among treaty signatory 
tribes, to develop cooperative partnerships with other Government 
agencies, educational institutions, and non-governmental organizations, 
and to work with its member tribes to protect and conserve ceded 
territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.
    Community-based Policing.--GLIFWC's officers carry out their duties 
through a community-based policing program. The underlying premise is 
that effective detection and deterrence of illegal activities, as well 
as education of the regulated constituents, are best accomplished if 
the officers work within tribal communities that they primarily serve. 
The officers are based in reservation communities of the following 
member tribes: in Wisconsin--Bad River, Lac Courte Oreilles, Lac du 
Flambeau, Red Cliff, Sokaogon Chippewa (Mole Lake) and St. Croix; in 
Minnesota--Mille Lacs; and in Michigan--Bay Mills, Keweenaw Bay and Lac 
Vieux Desert. To develop mutual trust between GLIFWC officers and 
tribal communities, officers provide outdoor skills workshops and 
safety classes (hunter, boater, snowmobile, ATV) to 300 tribal youth in 
grades 4-8 annually. Recently GLIFWC officers worked to support drug 
and alcohol prevention efforts in the Lac du Flambeau school system by 
sponsoring a snowshoe making workshop for tribal youth.
    Interaction With Law Enforcement Agencies.--GLIFWC's officers are 
integral members of regional emergency services networks in Minnesota, 
Michigan and Wisconsin. They not only enforce the tribes' conservation 
codes, but are fully certified officers who work cooperatively with 
surrounding authorities when they detect violations of State or Federal 
criminal and conservation laws. These partnerships evolved from the 
inter-governmental cooperation required to combat the violence 
experienced during the early implementation of treaty rights in 
Wisconsin. As time passed, GLIFWC's professional officers continued to 
provide a bridge between local law enforcement and many rural Indian 
communities.
    GLIFWC remains at this forefront, using DOJ funding to develop 
interjurisdictional legal training attended by GLIFWC officers, tribal 
police and conservation officers, tribal judges, tribal and county 
prosecutors, and State and Federal agency law enforcement staff. DOJ 
funding has also enabled GLIFWC to certify its officers as medical 
emergency first responders trained in the use of defibrillators, and to 
train them in search and rescue, particularly in cold water rescue 
techniques. When a crime is in progress or emergencies occur, local, 
State, and Federal law enforcement agencies look to GLIFWC's officers 
as part of the mutual assistance networks of the ceded territories. In 
fact, the role of GLIFWC's officers in these networks was further 
legitimized in 2007 by the passage of Wisconsin Act 27. This law 
affords GLIFWC wardens the same statutory safeguards and protections 
that are afforded to their DNR counterparts. GLIFWC wardens will now 
have access to the criminal history database and other information to 
identify whom they are encountering in the field so that they can 
determine whether they are about to face a fugitive or some other 
dangerous individual.
    DOJ has acknowledged that, ``[t]he officer-to-population ratio 
still remains lower on Indian reservations than in other jurisdictions 
across the country . . . tribal law enforcement has a unique challenge 
of patrolling large areas of sparsely populated land'' (DOJ 2011 budget 
summary). GLIFWC's participation in mutual assistance networks located 
throughout a 60,000 square mile region directly addresses this problem 
in an effective and cost efficient manner.
    GLIFWC Programs Funded by DOJ.--GLIFWC recognizes that adequate 
communications, training, and equipment are essential both for the 
safety of its officers and for the role that GLIFWC's officers play in 
the proper functioning of interjurisdictional emergency mutual 
assistance networks in the ceded territories. GLIFWC's COPS grants have 
provided a critical foundation for achieving these goals. Significant 
accomplishments with Tribal Resources Grant Program funds include:
  --Increased Versatility and Homeland Security.--In 2007, GLIFWC used 
        COPS funding to obtain a 22-foot boat to expand patrol 
        capabilities and coverage on Lake Superior. This boat also 
        provides greater versatility than GLIFWC's larger patrol boat 
        to access bays and harbors in the Lake. In 2008, GLIFWC used 
        COPS funding to purchase an incident command center trailer 
        that will be used to provide a base for enforcement activities 
        and to improve response to incidents that trigger joint law 
        enforcement actions.
  --Emergency Response Equipment and Training.--Each GLIFWC officer has 
        completed and maintains certification as a First Responder and 
        in the use of life saving portable defibrillators. Since 2003, 
        GLIFWC officers have carried First Responder kits and portable 
        defibrillators during their patrol of around 275,000 miles per 
        year throughout the ceded territories. In remote, rural areas 
        the ability of GLIFWC officers to respond to emergencies 
        provides critical support of mutual aid agreements with 
        Federal, State, and local law enforcement agencies.
  --Ice Rescue Capabilities.--Each GLIFWC officer maintains 
        certification in ice rescue techniques and was provided a Coast 
        Guard approved ice rescue suit. In addition, each of the patrol 
        areas was provided a snowmobile and an ice rescue sled to 
        participate in interagency ice rescue operations with county 
        sheriffs departments and local fire departments.
  --Wilderness Search and Rescue Capabilities.--Each GLIFWC officer has 
        completed Wilderness Search and Rescue training. The COPS 
        Tribal Resources Grant Program also enabled GLIFWC to replace a 
        number of vehicles that were purchased over a decade ago, 
        including 10 ATV's and 16 patrol boats and the GPS navigation 
        system on its 31-foot Lake Superior Patrol Boat. These vehicles 
        are used for field patrol, cooperative law enforcement 
        activities, and emergency response in the 1836, 1837 and 1842 
        ceded territories. GLIFWC officers also utilize these vehicles 
        for boater, ATV, and snowmobile safety classes taught on 
        reservations as part of the Commission's Community Policing 
        Strategy, providing critical outreach to tribal youth.
    Consistent with numerous other Federal court rulings on the 
Chippewa treaties, the United States Supreme Court re-affirmed the 
existence of the Chippewa's treaty-guaranteed usufructuary rights in 
Minnesota v. Mille Lacs Band, 526 U.S. 172 (1999). As tribes have re-
affirmed rights to harvest resources in the 1837 ceded territory of 
Minnesota, workloads have increased. In addition, a consent decree 
signed in 2007 will govern the exercise of treaty rights in inland 
portions of the 1836 ceded territory in Michigan, where one of GLIFWC's 
member tribes exercises treaty rights.
    But for GLIFWC's COPS grants, this expanded workload, combined with 
staff shortages would have limited GLIFWC's effective participation in 
regional emergency services networks in Minnesota, Michigan and 
Wisconsin. The effectiveness of these mutual assistance networks is 
more critical than ever given: (1) national homeland security concerns; 
(2) State and local governmental fiscal shortfalls; (3) staffing 
shortages experienced by local police, fire, and ambulance departments 
due to the call up of National Guard and military reserve units; and 
(4) the need to cooperatively combat the spread of methamphetamine 
production in rural areas patrolled by GLIFWC conservation officers. 
Examples of the types of assistance provided by GLIFWC officers follow:
  --As trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories) and provide sheriffs' 
        departments valuable assistance with natural disasters (e.g. 
        floods in Ashland County and a tornado in Siren, Wisconsin).
  --Search and rescue for lost hunters, fishermen, hikers, children, 
        and the elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        Counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        Counties in Michigan).
  --Being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett, and Polk 
        Counties in Wisconsin) and responding to weapons incidents 
        (Ashland, Bayfield, Burnett, Sawyer, and Vilas Counties in 
        Wisconsin).
  --Use of a thermal imaging camera (purchased through the TRGP) to 
        track an individual fleeing the scene of an accident (Sawyer 
        County, Wisconsin).
  --Completing snowmobile death investigations in cooperation with 
        other agencies using skills learned through investigation 
        training funded through the TRGP program (Vilas County),
  --Organizing and participating in search and rescues of ice fishermen 
        on Lake Superior (Ashland and Bayfield Counties in Wisconsin), 
        Lake Superior boats (Baraga County in Michigan and with the 
        U.S. Coast Guard in other parts of western Lake Superior), and 
        kayakers (Bayfield County in Wisconsin).
    In 2010, GLIFWC proposes to utilize DOJ TRGP funding to provide: 
(1) training to maintain law enforcement, first aid, and emergency 
rescue certifications; (2) specialized training in human tracking to 
support cooperative efforts with newly stationed Lake Superior border 
patrol agents and other agencies; (3) the capability to issue 
electronic tickets (e-tickets); and (4) equipment necessary to maintain 
officer safety and efficiency. TRGP resources will allow GLIFWC 
conservation officers to conduct essential cooperative conservation, 
law enforcement, and emergency response activities. We ask Congress to 
support a restoration of the DOJ COPS TRGP program to its fiscal year 
2010 level.
                                 ______
                                 
              Prepared Statement of the Innocence Project

    On behalf of the Innocence Project, thank you for allowing me to 
submit testimony to the Senate Committee on Appropriations Subcommittee 
on Commerce, Justice, Science, and Related Agencies as it considers 
budget requests for fiscal year 2011. I write to request the continued 
funding of the following programs at the following levels:
  --Paul Coverdell Forensic Science Improvement Grant Program (the 
        ``Coverdell Program'') at $35 million through the National 
        Institute of Justice (the ``NIJ'');
  --Kirk Bloodsworth Postconviction DNA Testing Program (the 
        ``Bloodsworth Program'') at $5 million through the NIJ;
  --The Capital Litigation Improvement Grant Program at its current 
        level of $5.5 million, so that the Wrongful Conviction Review 
        Program may continue to be funded at its current level, $3.0 
        million, through the Bureau of Justice Assistance (the 
        ``BJA''); and
  --The National Institute for Standards and Technology Preservation of 
        Evidence Working Group (the ``NIST Preservation Working 
        Group'') at $350,000 through the NIJ.
    Further, I will discuss a concern with regard to block-granting 
these important programs.
    As you may know, the Innocence Project represents convicted persons 
who seek to prove their innocence through post-conviction DNA testing. 
To date, 252 men and women have been exonerated by such testing 
nationwide. The mission of the Innocence Project is to free innocent 
people and prevent wrongful convictions through reform. Yet it is very 
important to note that this work has tremendous benefit for the publics 
safety. There are two aspects to this. First, every time DNA identifies 
a wrongful conviction, it enables the identification of the real 
perpetrator of those crimes. Indeed, the true perpetrators have been 
identified in 106 of the DNA exoneration cases. What's more, the 
reforms that can prevent wrongful convictions are simply measures to 
enhance the accuracy of criminal investigations and prosecutions, and 
thus have the effect of enhancing criminal investigations and 
strengthening criminal prosecutions.
    We recognize, through our work with Congress, that these dual 
benefits are well recognized by this body, and it has been our great 
pleasure to work closely with many of you on the very programs we're 
supporting in this testimony. I am writing to underscore the value of 
these programs to both safety and justice, and to request the continued 
funding of each of these critical programs in fiscal year 2011.

                           COVERDELL PROGRAM

    Recognizing the need for independent Government investigations in 
the wake of forensic scandals, Congress created the forensic oversight 
provisions of the Coverdell Program, which provides State and local 
crime laboratories and other forensic facilities with much needed 
Federal funds.
    The Innocence Project views the Congressional mandate under the 
Coverdell Program as a crucial step toward ensuring the integrity of 
forensic evidence. Unfortunately, however, because of administration 
problems at its outset, the Coverdell Program is only now beginning to 
reach its potential as a rigorous oversight mechanism. And now, more 
than ever, as forensic science budgets find themselves on the chopping 
block in State legislatures all over the country, their very survival 
may be dependent upon these Federal funds. With such import and 
capacity for positive change, we ask that you continue to fund the 
Coverdell Program at, in the very least, its current level of $35 
million.

                          BLOODSWORTH PROGRAM

    The Bloodsworth Program provides hope to inmates who might 
otherwise have none by helping States more actively pursue post-
conviction DNA testing for those who claim innocence. Tied to funding 
are those ``innocence incentive'' requirements discussed above. As we 
have testified to the House and Senate Judiciary Committees in the 
past, under President Bush, the NIJ moved very slowly and hesitantly on 
implementation of the Bloodsworth Program. Despite its authorization 
for 5 years, these monies were only disbursed in two of those years. 
The good news is that once these program funds began flowing, they had 
a solidly positive impact that led to even more success in the 
subsequent offering. Many organizational members of the national 
Innocence Network partnered with State agencies that have received 
Bloodsworth funding.\1\ According to the Innocence Network's President, 
Keith Findley, the Bloodsworth Program will dramatically improve the 
ability of Innocence Network members to meet the tremendous need for 
post-conviction DNA testing. Many of the projects funded under the 
Bloodsworth Program will enable projects in various States to 
proactively search for and identify forcible rape, murder and non-
negligent manslaughter cases in which DNA testing can prove guilt or 
innocence, but which are otherwise overlooked or hidden.\2\
---------------------------------------------------------------------------
    \1\ The Innocence Network is an affiliation of organizations 
dedicated to providing pro bono legal and investigative services to 
individuals seeking to prove innocence of crimes for which they have 
been convicted and working to redress the causes of wrongful 
convictions.
    \2\ Strengthening Our Criminal Justice System: Extending the 
Innocence Protection Act. 111th Cong., 1st Sess., 10 (2009) (testimony 
of Keith Findley, President of the Innocence Network).
---------------------------------------------------------------------------
    It is worth noting that the Bloodsworth Program does not fund the 
work of Innocence Projects directly. In fact, the Office of Justice 
Programs has encouraged State applicants to draft proposals that fund a 
range of entities involved in settling innocence claims, from law 
enforcement agencies to crime laboratories. Additionally, the 
Bloodsworth Program has fostered the cooperation of innocence projects 
and State agencies. For example, with the $1,386,699 that Arizona was 
awarded for fiscal year 2008, the Arizona Justice Project, in 
conjunction with the Arizona Attorney General's Office, began the Post-
Conviction DNA Testing Project. Together, they have canvassed the 
Arizona inmate population, reviewed cases, worked to locate evidence 
and filed joint requests with the court to have evidence released for 
DNA testing. In addition to identifying the innocent, Arizona Attorney 
General Terry Goddard has noted that the ``grant enables [his] office 
to support local prosecutors and ensure that those who have committed 
violent crimes are identified and behind bars.'' \3\ Such joint efforts 
have followed in Connecticut, Louisiana, Minnesota, North Carolina and 
Wisconsin.
---------------------------------------------------------------------------
    \3\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-receives-federal-DNA-grant.htm 
(last visited Mar. 17, 2010).
---------------------------------------------------------------------------
    The Bloodsworth Program will continue to be vital to States' work 
in providing meaningful post-conviction review of innocence claims. As 
such, we ask that you continue to fund the Bloodsworth Program at its 
current funding level of $5 million.

                   WRONGFUL CONVICTION REVIEW PROGRAM

    Particularly when DNA isn't available, or when it alone isn't 
enough to prove innocence, those innocents languishing behind bars 
require expert representation to help navigate the complex issues that 
invariably arise in their bids for post-conviction relief. And the need 
for such representation is enormous when only a small fraction of cases 
involve evidence that could be subjected to DNA testing (for example, 
it is estimated that even among murders, only 10 percent of cases have 
the kind of evidence that could be DNA tested). Realizing the 
imperative presented by such cases, the BJA carved-out of its Capital 
Case Litigation Initiative funding to create the Wrongful Prosecution 
Review (now the Wrongful Conviction Review) discretionary grant 
program.\4\ The program provides applicants--non-profits and public 
defender offices dedicated to exonerating the innocent--with funds 
geared toward providing high quality and efficient representation for 
potentially wrongfully convicted defendants in post-conviction claims 
of innocence. Eleven offices in 10 States received a total of 
$2,475,285 for fiscal year 2009.
---------------------------------------------------------------------------
    \4\ Reauthorization of the Innocence Protection Act. 111th Cong., 
1st Sess., 8 (2009) (testimony of Lynn Overmann, Senior Advisor, Office 
of Justice Programs).
---------------------------------------------------------------------------
    The program's goals, in addition to exonerating the innocent, are 
significant: to alleviate burdens placed on the criminal justice system 
through costly and prolonged post-conviction litigation and to 
identify, whenever possible, the actual perpetrator of the crime. Above 
all, though, this program forms a considerable piece of the 
comprehensive Federal package of innocence protection measures created 
in recent years; without it, a great deal of innocence claims might 
otherwise fall through the cracks. Accordingly, we urge you to re-
appropriate the Capital Litigation Improvement Grant Program at its 
current level of $5.5 million, so that the Wrongful Conviction Review 
Program may continue to be funded at its current level through the BJA.

                    NIST PRESERVATION WORKING GROUP

    The need for the NIST Preservation Working Group is particularly 
pressing as outdated policies and practices still fail to consider the 
power of DNA in biological evidence. And, while many State legislators 
have expressed a desire to more effectively and efficiently preserve 
evidence to harness the probative power of DNA, they find themselves 
unable to secure the information necessary to do so. Failures in 
preservation practice can frustrate even the most aggressive efforts to 
solve active cases and cold cases or the quests of the wrongfully 
convicted to prove their innocence.
    With funds recently disbursed by the NIJ, the NIST Preservation 
Working Group is currently being formed. Its first meeting is 
tentatively scheduled for June 2010, when the group will gather to 
begin its critical work toward identifying and recommending best 
practices for the preservation of biological evidence. According to Sue 
Ballou of NIST, generally, $60,000 covers a meeting of 25 attendees. 
The $250,000 will cover labor costs as well as travel, per diem and 
other costs for all invitees to the year's meetings, which will number 
at least three. However, Ms. Ballou estimates that $350,000 would 
enable the group to more quickly and thoroughly complete its critically 
important mandate of educating the States on the proper preservation of 
evidence. As such, we ask that Congress provide funding to the NIJ 
sufficient for the disbursement of $350,000 for fiscal year 2011 so 
that the NIST Preservation Working Group may carry on with its work--so 
that ``the discovery of preserved biological evidence--to protect the 
innocent and the public at large--will no longer have to rely on 
serendipity and happenstance.'' \5\
---------------------------------------------------------------------------
    \5\ Reauthorization and Improvement of DNA Initiatives of the 
Justice for All Act of 2004. 110th Cong., 2d Sess., 27 (2008) 
(testimony of Peter Neufeld, Esq.).
---------------------------------------------------------------------------
an additional note on the department of justice's requested budget for 
                            fiscal year 2011
    The Department of Justice's fiscal year 2011 budget request appears 
to do away with many of the above programs as separate programs; 
instead, it seems to advocate providing a blanket $150 million for what 
is termed ``DNA Initiative.'' \6\
---------------------------------------------------------------------------
    \6\ U.S. Department of Justice, fiscal year 2011 Budget Request 
Factsheet, pp. 13, 15. http://www.justice.gov/jmd/2011factsheets/pdf/
law-enforcement.pdf.
---------------------------------------------------------------------------
    We are particularly concerned about the impact that block-granting 
the above programs will have on the requirement incentives that the 
Bloodsworth Program and the Wrongful Conviction Review Program 
currently provide for States to prevent wrongful convictions and 
otherwise ensure the integrity of evidence.\7\ These incentives have 
proven significant for the advancement of State policies to prevent 
wrongful convictions.
---------------------------------------------------------------------------
    \7\ We have previously advocated for the reauthorization and 
appropriation of all programs originally intended to be tied to the 
post-conviction DNA testing access and preservation of evidence 
requirements under section 413 of the JFAA. Congress, in doing so, will 
only add to the incentives discussed above.
---------------------------------------------------------------------------
    To the extent these incentives would no longer exist, or be 
diminished, if delivered in block grant form, the Innocence Project 
would recommend that they not be so delivered and that Congress 
maintain and fund the individual programs in order to preserve their 
important incentive and performance requirements. Doing away with these 
requirements would thwart the original intent of the JFAA, which was to 
provide funding only to States that demonstrate a commitment to 
preventing wrongful convictions in those areas. Should these innocence 
protection requirements of the above programs remain in full force and 
in all instances despite a change to block grants, however, this 
specific issue will no longer be of concern.

                               CONCLUSION

    Thank you for your time and consideration of these important 
programs, and the opportunity to submit testimony. We look forward to 
working with the subcommittee this year.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Madam Chairman and members of the subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2011 funding for 
the National Fish and Wildlife Foundation (Foundation). The 
Foundation's fiscal year 2011 funding request is fully authorized and 
each Federal dollar appropriated will be matched by a minimum of one 
non-Federal dollar. We respectfully request your approval of funding 
through the National Oceanic and Atmospheric Administration (NOAA) at 
the following levels:
  --Three million dollars to help fishing communities in the transition 
        to catch share programs--National Marine Fisheries Service's 
        (NMFS) Operations, Research and Facilities appropriation; and
  --Two million dollars to foster coordination between NOAA, State, 
        tribal, and local partners in comprehensive marine spatial 
        planning--National Ocean Service's (NOS) Ocean and Coastal 
        Management appropriation.
    Since its inception, the Foundation has leveraged $500 million in 
Federal funds into more than $1.6 billion in on-the-ground and in-the-
water conservation with less than 5 percent aggregate overhead to the 
Federal Government and fewer than 90 staff nationwide.
    The Foundation was established by Congress in 1984 to foster 
public-private partnerships to conserve fish, wildlife and their 
habitats. The Foundation is required by law to match each Federal-
appropriated dollar with a minimum of one non-Federal dollar. We 
consistently exceed this requirement by leveraging Federal funds at a 
3:1 average ratio while building consensus and emphasizing 
accountability, measurable results, and sustainable conservation 
outcomes. fiscal year 2011 funds will allow the Foundation to uphold 
our mission and expand our successful partnership with NOAA.

                 SUSTAINABLE FISHERIES AND CATCH SHARES

    This $3 million NOAA-NMFS request will support the Foundation's 
Fisheries Innovation Fund which is a grant program to assist fishing 
communities in the design and implementation of catch shares. This new 
initiative is a priority for the Foundation in fiscal year 2011 and 
closely aligned with NOAA's budget priorities. The purpose of the Fund 
is to partner with NOAA, private partners, and local communities to 
catalyze the development and implementation of limited access privilege 
programs (``LAPPs''), or catch shares, for the Nation's marine 
fisheries. The Foundation will build on our successful grant-making 
partnerships in gear modification/exchange, bycatch reduction, and 
marine debris prevention to implement this grant-making and technical 
assistance program. Private partners have already committed to support 
the Fund and leverage Federal funds with their own matching 
contributions.
    It is notable that the administration's fiscal year 2011 request 
includes $54 million to initiate a National Catch Share Program. This 
is an important step and the Foundation is committed to helping NOAA 
implement this program consistent with the Federal Catch Share Policy. 
As a neutral consensus builder with a proven track record of success, 
the Foundation has a unique role to play as a non-regulatory partner in 
NOAA's efforts to implement catch share programs.
    The Draft Catch Share Policy states that NOAA will ``encourage 
public-private partnerships and facilitate collaboration with State and 
local governments, regional economic development districts, public and 
private nonprofit organizations, and tribal entities to help 
communities address problems associated with long-term fishery and 
community sustainability.'' The Foundation is well-positioned to help 
NOAA implement this particular aspect of the policy by serving as a 
conduit to members of the fishing community in the design of catch 
share programs. The Foundation's role will be to build trust and 
effective partnerships within local communities and, among other 
things, provide grants to improve their capacity to participate in the 
catch share design process.
    As an example, we have recently made an investment in the State of 
Maryland to build a sustainable blue crab fishery in the Chesapeake Bay 
through development of catch shares. Our role was to help build trust 
between the regulators and the fishermen by promoting fishermen-to-
fishermen learning opportunities about catch shares.
    In the Gulf of Mexico, we have provided grants to enable fishermen 
to meet regulatory requirements to convert their fishing gear, free of 
charge, to avoid bycatch. We operated similar gear conversion programs 
for New England lobsterman. The Fishing for Energy Program, established 
in 2008 with NOAA, Covanta Energy, and Schnitzer Steel allows fishermen 
to dispose of derelict gear, free of charge, that Covanta converts to 
create energy. This successful partnership has benefited fishermen 
through collection and disposal of over 250 tons of derelict fishing 
gear from 18 ports in the United States.
    The Foundation looks forward to working with NOAA as a funding 
partner in fiscal year 2011 to develop catch share programs that are 
well-designed and thoughtfully prepared to foster healthy, profitable 
fisheries that are sustainable and beneficial to coastal communities.

           MARINE SPATIAL PLANNING AND MARINE PROTECTED AREAS

    This $2 million NOAA-NOS request will support the Foundation's 
Marine Protected Areas (MPAs) Fund which is a grant program focused on 
the implementation of marine spatial planning conservation priorities. 
The Fund was established in 2009 in partnership with NOAA's MPA Center 
to provide grants that will foster collaboration at all levels of 
government to work together at regional, national and international 
levels to strengthen the management, protection, and conservation of 
MPAs.
    MPA's play a critical role in the conservation of marine and 
coastal resources and span a range of habitats including open ocean, 
estuaries and inter-tidal zones. There are a variety of MPA programs at 
the Federal, State, tribal and local level that make up the new 
National System of MPAs. The Interagency Ocean Policy Task Force 
Framework for Effective Coastal and Marine Spatial Planning identifies 
MPAs as a primary tool for conservation of the marine environment. The 
Foundation's MPA Fund can deliver tangible results that contribute to 
the marine spatial planning conservation goals of the Interagency Ocean 
Policy Task Force by enhancing coordination of Federal, State, tribal, 
and local MPAs.
    With fiscal year 2011 funding, the Foundation will continue grant-
making to support effective management, including strengthening of 
technical, scientific and enforcement capacity, and facilitating 
participation of stakeholders in planning efforts needed to ensure the 
success of the National System of MPAs. Further, the Fund will help to: 
(1) enhance the protection of U.S. marine resources by providing new 
opportunities for regional and national cooperation; (2) support the 
national economy by helping to sustain fisheries and maintain healthy 
marine ecosystems for tourism and recreation businesses; and (3) 
promote public participation in MPA decisionmaking by improving access 
to public policy information.
    The administration's fiscal year 2011 budget request recognizes the 
need and importance of marine spatial planning and ocean governance. To 
that end, we respectfully ask for your support of the Foundation's MPAs 
Fund in fiscal year 2011.

                               CONCLUSION

    As the congressionally-chartered Foundation for NOAA, the 
Foundation is uniquely positioned to help the agency implement priority 
programs and leverage Federal investments to support our shared 
conservation objectives. Direct appropriations through NOAA in fiscal 
year 2011 will accelerate our collective efforts to fully implement the 
Fisheries Innovation Fund and the Marine Protected Areas Fund. NOAA 
appropriations of $5 million in fiscal year 2011 would be matched at a 
minimum by an additional $5 million from non-Federal sources. As a 
trusted, neutral consensus builder, the Foundation stands ready to 
assist NOAA with implementation of these Federal programs by catalyzing 
effective local partnerships to protect marine and coastal resources 
while ensuring continued economic benefits for local communities.
    Madam Chairman, we greatly appreciate your continued support and 
hope the subcommittee will approve funding for the Foundation in fiscal 
year 2011.
                                 ______
                                 
    Prepared Statement of the ASME Technical Communities' National 
        Institute of Standards and Technology (NIST) Task Force

    The ASME Technical Communities' National Institute of Standards and 
Technology (NIST) Task Force is pleased to have this opportunity to 
provide comments on the fiscal year 2011 budget request for NIST. The 
NIST Task Force and ASME Standards & Certification have a long-standing 
relationship with NIST and thus recognize NIST as a key Government 
agency that contributes significantly to the development and 
application of technology.
    In the President's fiscal year 2011 budget request, the Task Force 
supports the proposed increases for NIST programs, which are consistent 
with the doubling path by fiscal year 2017 identified by the 
administration as a goal for NIST.

              INTRODUCTION TO ASME AND THE NIST TASK FORCE

    Founded in 1880 as the American Society of Mechanical Engineers, 
ASME is a worldwide engineering society of over 127,000 members focused 
on technical, educational and research issues. ASME conducts one of the 
world's largest technical publishing operations, holds approximately 30 
technical conferences and 200 professional development courses each 
year, and sets many industry and manufacturing standards.
    Mechanical engineers play a key role in the research, technology 
development, and innovation that influence the economic well being of 
the Nation. ASME has supported the mission of NIST since it was founded 
in 1901, as the National Bureau of Standards. In fact, ASME was 
instrumental in establishing the Department of Commerce, NIST's parent 
agency. The technical programs of NIST are unique in that they foster 
Government and industry cooperation through cost-sharing partnerships 
that create long-term investments based on engineering and technology. 
These programs are aimed at providing the technical support so vital to 
our Nation's future economic health.

           OVERVIEW OF NIST'S FISCAL YEAR 2011 BUDGET REQUEST

    The administration's budget request for NIST in fiscal year 2011 is 
$918.9 million. This represents a $62.3 million increase over the 
fiscal year 2010 appropriated amount and is on target to reach the 
doubling goal by fiscal year 2017, as identified by the administration 
for this agency.
    This budget includes $584.6 million for the Scientific and 
Technical Research and Services (STRS), NIST laboratory research and 
$9.9 million for the Baldrige National Quality Program. A large portion 
of the NIST budget is devoted to the Industrial Technology Services 
programs, which consist of the Technology Innovation Program (TIP) as 
well as the Hollings Manufacturing Extension Partnership (MEP). This 
budget requests $79.9 million for TIP, a $10 million increase over the 
fiscal year 2010 appropriated amount. Additionally, it requests $129.7 
million for the Hollings Manufacturing Extension Partnership (MEP), a 
$4.6 million increase over the fiscal year 2010 appropriated amount.
    The NIST laboratories are critical to the economic health and 
national security of the United States as outlined in the President's 
Innovation Agenda, inspired, in part, by the bipartisan ``America 
COMPETES Act of 2007'' (Public Law 110-69), which authorizes the 
doubling of funding at key Federal agencies, including NIST. Therefore, 
the NIST Task Force will be very anxious to learn more about NIST 
Director Dr. Gallagher's proposal for reconfiguring the NIST 
laboratories to better reflect technological innovations in 
manufacturing and product development. Additionally, the important work 
of NIST in the area of standards, including serving as the U.S. inquiry 
point for the World Trade Organization (WTO) Technical Barriers to 
Trade (TBT) Agreement, is vital to ensuring that U.S. technology and 
products are not unduly handicapped in the global market.

                        NIST'S STANDARDS MISSION

    Part of the mission of NIST is to promote the use of American codes 
and standards in countries and industries around the world as a means 
of enhancing U.S. competitiveness. Standards provide technical 
definitions and guidelines for design and manufacturing. They serve as 
a common global language, define quality and establish safety criteria. 
In the United States, standards are developed by private-sector 
organizations such as ASME in close collaboration with representatives 
from industry, Government and academia. These standards are used by 
industry and are frequently adopted by Government agencies as a means 
of establishing regulatory requirements. They are vital to the economic 
health of many industries, and--more important--they help to ensure the 
health and safety of the American people and of citizens in countless 
nations around the world.
    The Department of Commerce and NIST have an indispensable role in 
ensuring acceptance by other nations of U.S.-developed standards that 
incorporate technological advances and that meet changing industry, 
regulatory, and public safety needs. Congress should be aware that, 
unlike in the United States where standards development is largely the 
province of private sector organizations, standards development in many 
other countries is undertaken with strong government support. The 
governments of many of our key trading partners invest significant 
resources--in the millions of dollars--to promote acceptance of 
competing standards (developed by organizations in those countries) in 
the global marketplace. It is therefore essential that the U.S. 
Government, in partnership with private sector standards development 
organizations, strengthen its commitment to ensuring adequate 
representation of U.S. interests in international standards 
negotiations.
    Enabling U.S. manufacturers to design and build to one standard or 
set of standards increases their competitiveness in the world market. 
The ability of NIST to assist U.S. domiciled standards developers in 
their negotiations with international and national standards 
organizations is important to the U.S. business community. The United 
States must be a full participant in global standards development if 
our industries are to compete effectively in a world market. Decisions 
made in standards bodies outside the United States have a profound 
impact on the ability of U.S. companies to compete in foreign markets.

                          TASK FORCE POSITION

    In the President's fiscal year 2011 budget request, the Task Force 
supports the increases for TIP and MEP. The Task Force is tentatively 
supportive, pending a detailed plan from the NIST Director, of the 
recent announcement to undertake a restructuring of the NIST 
laboratories. These laboratories conduct critical research in areas 
like high-technology manufacturing and nanotechnology which have the 
potential to establish new industries and keep the U.S. manufacturing 
base strong.
    The erosion of U.S. manufacturing jobs has become a key issue for 
the MEP to develop sustainable practices for the industry. The MEP 
incorporates competitive business practices and technologies into 
small- to medium-sized enterprises--companies that create a significant 
number of jobs. The administrations request of $129.7 million reflects 
the importance of NIST as a part of the administration's goals for 
innovation, as well as harkens to the bipartisan ``America COMPETES 
Act.''
    The Task Force is pleased by the robust funding increase requested 
for the TIP. The TIP provides cost-shared funding to industry for high-
risk research and development projects with potentially broad-based 
economic benefits for the United States. One key difference between the 
TIP program, versus its predecessor the Advanced Technology Program 
(ATP) is the inclusion of universities to draw upon the technical 
talents housed in these institutions for breakthroughs in ``high risk, 
high reward'' research for manufacturing. The Task Force supports the 
funding request for TIP to serve as an initial down payment to 
investing in high-risk research and development.
    The Task Force firmly believes that TIP and the MEP are critical to 
the Nation's future economic well-being and the health of the U.S. 
science, engineering, and technology base. These programs hold the 
potential to improve the transfer of new discoveries and developments 
in science and engineering to innovative technologies, global quality 
practice, and profitable manufacturing capabilities on the shop floor. 
The NIST Task Force has long supported MEP and TIP as a catalyst of 
technological innovation and is pleased to see the administration's 
support for these two critical programs as NIST seeks to facilitate the 
development of new industries that will catalyze manufacturing and 
industrial practices in the United States.
    The Task Force is in full support of the $584.6 million proposed 
funding for the Scientific and Technical Research and Services (STRS) 
directorate in the fiscal year 2011 budget. This funding will help 
support building and fire research, information technology, and 
manufacturing engineering laboratories.

                               CONCLUSION

    Despite the proposed freeze on discretionary funding for the next 
three fiscal years, the administration has demonstrated a willingness 
to support increases for key NIST initiatives for fiscal year 2011. 
Accordingly, the Task Force remains strongly supportive of these 
initiatives as well as the underlying goals of NIST as it related to 
advanced manufacturing and technological innovation.
                                 ______
                                 
        Prepared Statement of The American Physiological Society

                  NATIONAL SCIENCE FOUNDATION AND NASA

    The American Physiological Society (APS) thanks the subcommittee 
for its sustained support of science at the National Science Foundation 
(NSF) and NASA. The scientific research and technology development 
programs supported by these two agencies are critical to the future 
technological excellence and economic stability of the United States. 
In this testimony, the APS offers its recommendations for the fiscal 
year 2011 budgets for the NSF and NASA.
  --The APS recommends that Congress fund the fiscal year 2011 NSF 
        budget at a level of $7.68 billion.
  --The APS urges Congress to restore cuts to NASA's life sciences 
        research budgets and make every effort to fully fund the 
        proposed 42 percent increase in the Human Research Program.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. The Society was 
founded in 1887 and now has nearly 10,000 members who do research and 
teach at public and private research institutions across the country, 
including colleges, universities, medical and veterinary schools. Many 
of our members conduct physiology research that is supported by funds 
allocated through the NSF and NASA.

           MOMENTUM FROM ARRA SHOULD BE MAINTAINED AT THE NSF

    With passage of the America COMPETES Act of 2007, Congress 
authorized a doubling of the agency's budget over several years. 
Unfortunately, the NSF budget failed to grow at the authorized levels 
in subsequent years and fell behind the doubling goal significantly. 
Congress remedied this in the American Recovery and Reinvestment Act of 
2009 (ARRA), which provided an additional $3 billion in fiscal year 
2009 and 2010. This additional funding has allowed the NSF to 
significantly expand its efforts to fund cutting edge research and 
support the scientific enterprise. To date, the ARRA investment has 
provided funding for 4,599 competitive awards, supporting more than 
6,700 investigators, including 2,352 new investigators.\1\ In order to 
maintain the momentum generated by the ARRA investment and sustain the 
agency's research capacity, the APS recommends that Congress fund the 
fiscal year 2011 NSF budget at a level of $7.68 billion.
---------------------------------------------------------------------------
    \1\ NSF fiscal year 2011 Budget Request to Congress http://
www.nsf.gov/about/budget/fy2011/pdf/01-Overview_fy2011.pdf.
---------------------------------------------------------------------------
    The basic science initiatives funded by the NSF are driven by the 
most fundamental principles of scientific inquiry. The agency provides 
support for approximately 20 percent of Federal funded basic science 
and is the major source of support (68 percent) for non-medical biology 
research, including integrative, comparative, and evolutionary biology, 
as well as interdisciplinary biological research. It has been shown 
time and again that the knowledge gained through basic biological 
research is the foundation for more applied studies that lead to 
improvements in the lives of humans, animals and ecosystems.
    The majority of the funding NSF provides is awarded through 
competitive, merit-based peer review, which ensures that the best 
possible projects are supported. NSF has an excellent record of 
accomplishment in terms of funding research endeavors that have 
produced results with far-reaching potential. Listed below are just a 
few recent advances in biological research that were supported by the 
NSF.
  --Using three-dimensional computational models, researchers 
        investigating the design and functionality of stents used to 
        open blocked blood vessels showed that appropriate sizing of 
        stents is necessary to prevent disturbances in blood flow and 
        mechanical stress on the blood vessel wall. These processes 
        contribute to blood vessels becoming re-blocked over time, 
        leading to the need for additional treatment.\2\
---------------------------------------------------------------------------
    \2\ H. Y. Chen et al., J Appl Physiol 106, 1686-91 (May, 2009).
---------------------------------------------------------------------------
  --Researchers studying how inhaled particles, such as nanoparticles, 
        pass from the lung into the rest of the body compared how well 
        natural barriers blocked such particles in developing versus 
        adult lungs. They found that developing lungs were more 
        susceptible to allowing the passage of particles than adult 
        lungs.\3\
---------------------------------------------------------------------------
    \3\ R. Dickie, M. Cormack, M. Semmler-Behnke, W. G. Kreyling, A 
Tsuda, J Appl Physiol 107, 859-63 (Sep, 2009).
---------------------------------------------------------------------------
  --Researchers studying factors contributing to birth weight 
        demonstrated that at high altitudes, babies born to mothers of 
        Andean descent had higher birth weights than those born to 
        mothers of European descent. They hypothesize that genetic 
        factors in the Andean mothers contributed to increased blood 
        flow and oxygen delivery to the developing fetus, resulting in 
        more rapid growth late in pregnancy.\4\
---------------------------------------------------------------------------
    \4\ C. G. Julian et al., Am J Physiol Regul Integr Comp Physio, 
296, R1564-75 (May, 2009).
---------------------------------------------------------------------------
    In addition to funding innovative research in labs around the 
country, the NSF also fosters the next generation of scientists through 
education programs. The APS is proud to have partnered with NSF in this 
program to provide training opportunities and career development 
activities to enhance the participation of underrepresented minorities 
in science. The APS was recognized for these efforts in 2003 with a 
Presidential Award for Excellence in Science, Mathematics and 
Engineering Mentoring (PAESMEM), funding for which was provided by NSF 
and was reinvested in our education programs. We believe that NSF is 
uniquely suited to administer science education programs of the highest 
quality, and we recommend that Congress continue to provide Federal 
funds for science education through the NSF.
    The America COMPETES Act and the ARRA demonstrate the strong 
support of Congress for the NSF because of its highly-regarded research 
and education programs. The APS thanks Congress for these votes of 
confidence in the NSF and joins the Federation of American Societies 
for Experimental Biology to recommend that the agency be funded at a 
level of $7.68 billion in fiscal year 2011.

   SUPPORT FOR LIFE SCIENCES RESEARCH AND THE HUMAN RESEARCH PROGRAM 
                      SHOULD BE INCREASED AT NASA

    NASA sponsors research across a broad range of the basic and 
applied life sciences, including gravitational biology, biomedical 
research and the Human Research Program (HRP). The gravitational 
biology and biomedical research programs explore fundamental scientific 
questions through research carried out both on Earth and aboard the 
space shuttle and International Space Station, environments that offer 
the unique ability to conduct experiments in the space environment. The 
HRP at NASA conducts research and develops countermeasures with the 
goal of enabling safe and productive human space exploration.
    During prolonged space flight, the physiological changes that occur 
due to microgravity, increased exposure to radiation, confined living 
quarters, and alterations in eating and sleeping patterns can lead to 
health problems and reduced ability to perform tasks. APS scientists 
are actively engaged in research that explores the physiological basis 
of these problems with the goal of contributing to the development of 
countermeasures. The knowledge gained from this research is not only 
relevant to humans traveling in space, but is also directly applicable 
to human health on Earth. For example, some of the muscle and bone 
changes observed in astronauts after prolonged space flight are similar 
to those seen in patients confined to bed rest. Some recent advances 
made by NASA funded physiologists are below.
  --Scientists studying the effects of exercise on astronauts who spent 
        6 months aboard the International Space Station found that 
        despite regular exercise, they still experienced a decrease in 
        muscle mass. This indicates the need to determine how to 
        improve the effectiveness of such exercise programs.\5\
---------------------------------------------------------------------------
    \5\ S. Trappe et al., J Appl Physiol 106, 1159-68 (Apr, 2009).
---------------------------------------------------------------------------
  --Researchers investigating how breathing changes during space flight 
        showed that during certain stages of sleep, astronauts showed 
        differences in their breathing patterns.\6\
---------------------------------------------------------------------------
    \6\ R. C. Sa, G. K. Prisk, M. Paiva, J Appl Physiol 107, 1406-12 
(Nov, 2009).
---------------------------------------------------------------------------
    NASA is the only agency whose mission addresses the biomedical 
challenges of manned space exploration. Recently the amount of money 
available for conducting this kind of research at NASA has dwindled. 
The overall number of projects and investigators supported by NASA 
through the HRP, National Space Biomedical Research Institute and 
Exploration and Technology Development program has decreased markedly 
over the last 5 years, falling from more than 900 projects funded in 
fiscal year 2005 to only 336 in fiscal year 2009.\7\ In the past, 
appropriations legislation specified funding levels for biomedical 
research and gravitational biology, but recent internal reorganizations 
at NASA have made it difficult to understand how much money is being 
spent on these programs from year to year. The APS recommends that 
funding streams for these important fundamental research programs be 
clearly identified and tracked within the NASA budget.
---------------------------------------------------------------------------
    \7\ Advanced Capabilities Division Research and Technology Task 
Book http://peer1.nasaprs.com.
---------------------------------------------------------------------------
    The fiscal year 2011 budget request to Congress includes a planned 
42 percent increase in the HRP budget. We applaud this proposal and 
urge Congress to make every effort to fully fund that request. The APS 
also calls on Congress and NASA to restore cuts to peer-reviewed life 
sciences research.
    As highlighted above, investment in the basic sciences is critical 
to our Nation's technological and economic future. The APS urges you to 
make every effort to provide these agencies with increased funding for 
fiscal year 2011.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities in 49 States (all but 
Hawaii). Collectively, public power utilities deliver electricity to 1 
of every 7 electric consumers (approximately 45 million people), 
serving some of the Nation's largest cities. However, the vast majority 
of APPA's members serve communities with populations of 10,000 people 
or less.
    The Department of Justice's (DOJ) Antitrust Division and the 
Federal Trade Commission (FTC) play critical roles in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the repeal of the Public Utility Holding Company Act (PUHCA) included 
in the Energy Policy Act of 2005, the electric utility industry has 
experienced an increase in mergers that could result in increased 
market power in certain regions. This development, coupled with the 
volatility and uncertainty continuing to occur in wholesale electricity 
markets run by regional transmission organizations, makes the oversight 
provided by DOJ and the FTC more critical than ever.
    APPA supports adequate funding for staffing antitrust enforcement 
and oversight at the FTC and DOJ. For the FTC's fiscal year 2011 
budget, we support the President's budget request of $314 million. We 
were pleased with the fiscal year 2011 funding level of $167 million 
for the DOJ Antitrust Division, which is a slight increase from the 
previous year.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2011 funding priorities within the Commerce, Justice 
and Science Subcommittee's jurisdiction.
                                 ______
                                 
            Prepared Statement of the Pew Environment Group

    The Pew Environment Group (PEG) appreciates the opportunity to 
provide testimony on the National Oceanic and Atmospheric 
Administration's (NOAA) fiscal year 2011 budget request. Specifically, 
we would like to comment on the fisheries data collection and analysis 
request of the National Marine Fisheries Service (NMFS). In order to 
meet critical new fisheries management requirements, we request a total 
of $380.9 million for data collection and analysis, which is an 
increase of $58.4 million over the President's fiscal year 2011 budget 
request.
    In 2006, Congress reauthorized and amended the Magnuson-Stevens 
Fishery Conservation and Management Act to finally put an end to 
overfishing, i.e., taking fish from the ocean faster than they can 
reproduce. To achieve that objective, Congress required Federal fishery 
managers to establish science-based annual catch limits (ACLs) that do 
not allow overfishing for all U.S. ocean fisheries. As these ACLs are 
developed, it is imperative that Congress appropriate the funding 
necessary to continue providing and improving the scientific 
information fisheries managers need to guide decisions that will 
sustain our fisheries. ACLs must be based on science, not politics, to 
ending overfishing and rebuild depleted fisheries.
    Improvements in data collection and analysis will enable fishery 
managers to better achieve the goal of the 2006 amendments, ending 
overfishing. The following core data collection and monitoring programs 
should be increased by a total of $58.4 million over the President's 
fiscal year 2011 budget request. This represents an increase of $35.5 
million over fiscal year 2010 enacted funding levels, for a total of 
$380.9 million. This increase is broken down into specific budget 
categories below.
    Fisheries Research and Management Programs: +$11.4 Million Over the 
President's Request, for a Total of $190.9 Million, an Amount Equal to 
the Fiscal Year 2010 Enacted Level.--Fisheries research and management 
programs provide accurate and timely information and analysis on the 
biology and population status of managed fish as well as the 
socioeconomics of the fisheries that depend on those populations. Such 
information is critical for the development of fisheries management 
measures to ensure that they end overfishing. In NOAA's fiscal year 
2011 budget request, $11.4 million is transferred from the Fisheries 
Research and Management Programs line item into the National Catch 
Share Program line item. We believe that any increases for catch share 
programs should be made with new money, not transferred from existing 
general research programs that should be available for all fisheries. 
Because of their vital role in ending overfishing, Fisheries Research 
and Management Programs should be funded at no less than the fiscal 
year 2010 enacted level of $190.9 million. Additionally, no funds from 
the line item should be transferred to the National Catch Share 
Program, because those funds would become permanently unavailable to 
fund research and management programs for the vast majority of Federal 
managed fisheries that are not currently in a catch share program, and 
may not be included in one in the future.
    Expand Annual Stock Assessments: +$10 Million Over the President's 
Request, for a Total of $61.7 Million, an Increase of $10.7 Million 
Over the Fiscal Year 2010 Enacted Level.--Stock assessments are the 
basic scientific tool that scientists use to determine the health of 
fisheries. A stock assessment provides estimates of population size and 
the amount of fishing that the population can sustainably support. The 
President's budget request of $51.7 million would only provide the 
capability to assess 57 percent of the 230 commercially and 
recreationally important fish stocks managed by the Federal 
Government.\1\ However, NMFS's goal is to assess all major fish stocks 
and conduct annual baseline monitoring for all Federal-managed fish 
species.\2\ Using funds appropriated under this budget line, NMFS plans 
to update fish stock assessments, support the implementation of ACLs, 
support fishery independent surveys, expand fishery dependent sampling, 
and improve ACL forecasting through enhanced modeling. Increased 
funding for data collection and monitoring will increase certainty in 
determining fish population sizes and the amount of fishing these 
populations can sustain, thus enabling managers to increase fishing 
opportunities.
---------------------------------------------------------------------------
    \1\ National Oceanic and Atmospheric Administration, Budget 
Estimate for fiscal year 2010, Exhibit 13, p. 217.
    \2\ National Oceanic and Atmospheric Administration, ``NOAA's 
National Marine Fisheries Service Requirements for Improved and 
Integrated Conservation of Fisheries, Protected Resources and 
Habitat,'' January 2003.
---------------------------------------------------------------------------
    Cooperative Research: +$10 Million Over the President's Request, 
for a Total of $17.1 Million, a Decrease of $500,000 Below the Fiscal 
Year 2010 Enacted Level.--Cooperative research programs pay fishermen, 
operating under the direction of Federal scientists, to collect 
fisheries data, and test new more sustainable fishing gear and 
practices. In addition to the information collected, cooperative 
research programs build partnerships among scientists and fishermen. 
They are also an effective way to provide financial relief for 
struggling fishermen, while also creating a more transparent process 
and providing a cost-effective way to improve the data upon which 
fisheries management decisions are made.
    In 2003, NMFS estimated that it would need $25.5 million for 
cooperative research by fiscal year 2009.\3\ The President's fiscal 
year 2011 budget request transfers $6 million out of the cooperative 
research line item and into the National Catch Share Program line item. 
Although NMFS asserts that the $6 million will be used for cooperative 
research in catch share fisheries, there is no guarantee that it will 
continue to be used for cooperative research in the future. In 
addition, taking funds from general cooperative research, where it 
would be available for all fisheries, and restricting it to only catch 
share fisheries, short changes the vast majority of fisheries that are 
not catch share fisheries. Moreover, the President's budget request 
decreases funding for cooperative research an additional $4.565 
million. Therefore, NMFS proposes to cut the cooperative research 
funding available to all fisheries by $10.5 million, in other words a 
60 percent decrease in funding available to all fisheries from fiscal 
year 2010 enacted levels. We request an increase of $10 million, for 
general cooperative research funding available to all fisheries, for a 
total of $17.1 million, close to fiscal year 2010 enacted levels.
---------------------------------------------------------------------------
    \3\ Id. NMFS 2003 5 year assessment estimated the need for 
cooperative research to be $22.75 million above fiscal year 2003 levels 
by fiscal year 2009, for a total of $25.50 million.
---------------------------------------------------------------------------
    Survey and Monitoring Projects: +$6 Million Over the President's 
Request, for a Total of $30 Million, an Increase of $6.2 Million Over 
the Fiscal Year 2010 Enacted Level.--NOAA has stated that ``many 
fisheries lack adequate and timely monitoring of catch and fishing 
effort.'' \4\ Survey and monitoring projects provide critical support 
for implementation of the new ACL requirement. Increased funding will 
improve that accuracy of ACLs and will increase the percentage of 
stocks with assessments. Two of the most important needs overall are 
research vessel surveys to collect fishery independent information on 
abundance and distribution of fish populations.\5\ Additional funding 
for fishery-independent surveys, monitoring, and research will improve 
estimates of ecosystem change, fishing mortality, and population size.
---------------------------------------------------------------------------
    \4\ Id. at 166.
    \5\ Marine Fisheries Stock Assessment Improvement Plan: Report of 
the National Marine Fisheries Service National Task Force for Improving 
Fish Stock Assessments. October 2001. NOAA Technical Memorandum NMFS-F/
SPO-56.
---------------------------------------------------------------------------
    Fisheries Statistics: +$11 Million Over the President's Request, 
for a Total of $32.4 Million, an Increase of $11.3 Million Over the 
Fiscal Year 2010 Enacted Level.--Given the fact that there are great 
data collection needs in the south Atlantic, and Gulf of Mexico 
recreational fisheries, PEG recommends that the entire $11 million 
increase go toward the Marine Recreational Information Program (MRIP), 
a new saltwater recreational fishing data collection program that is 
partially included in the Fisheries Statistics line. MRIP funding 
should total $20 million, an increase of $11 million over the fiscal 
year 2010 enacted level of $9 million. Increased funding will improve 
data on recreational fishing catch (both landed and released fish) and 
participation. One promising new technology is electronic reporting, 
which could improve the timeliness and accuracy of recreational data. 
Additional resources could be used to develop and deploy such new 
systems. Better quality data on marine recreational fishing, which 
contributes roughly $80 billion annually to the U.S. economy,\6\ will 
allow scientists to better estimate fishing mortality and set ACLs more 
accurately, thus reducing the risk of overfishing. In addition, 
improving the timeliness of recreational data will allow managers to 
take action before an ACL is exceeded. This will lead to less 
restrictive management decisions and more fishing opportunities.
---------------------------------------------------------------------------
    \6\ NOAA, Saltwater Recreational Fishing Factsheet, 2009. Available 
at http://www.nmfs.noaa.gov/sfa/PartnershipsCommunications/
rec_fishing_facts.pdf.
---------------------------------------------------------------------------
    Observers/Training: +$10 million over the President's Request, for 
a Total of $48.8 million, an Increase of $7.7 Million Over the Fiscal 
Year 2010 Enacted Level.--NMFS has been required by law to establish a 
standardized bycatch (incidental catch of non-target ocean wildlife) 
reporting system since 1996. Fishery observers (trained biologists who 
go to sea on commercial fishing vessels) collect close to real-time 
commercial fishing catch and bycatch data and important information on 
fishing practices, gear use, where and when fishing occurs, compliance, 
and biological samples not available from dockside sampling. Observer 
programs are ``often the best means to gather current information on 
fisheries status'' and enable effective management, even though 
currently only 40 fisheries have observer programs.\7\ Additional 
funding for observer coverage will improve the quality and quantity of 
fisheries data, especially estimates of bycatch mortality, information 
that is critical to estimating populations size and sustainable fishing 
levels.
---------------------------------------------------------------------------
    \7\ National Oceanic and Atmospheric Administration, Budget 
Estimate for fiscal year 2011, p. 191.
---------------------------------------------------------------------------
    In 2003, NMFS recommended that the National Observer Program be 
funded at $104 million by fiscal year 2009. The increased funding would 
have been used for research and development into innovative fishing 
gear to reduce bycatch, implementation of bycatch reduction strategies, 
and implementation of statistically valid observer coverage in all 
fisheries. Unfortunately, in the President's fiscal year 2011 budget 
request, Observers/Training suffers more than $3 million in 
terminations, resulting in a request of $38.8 million. Increasing that 
request to $48.8 million would be a down payment on fully funding the 
observer program.

                               CONCLUSION

    NMFS data indicates that 37 of the 190 assessed commercially and 
recreationally important fish stocks (about 20 percent) are subject to 
overfishing. It is essential to increase funding to support research, 
data collection and assessment activities necessary to put an end to 
this overfishing. Congress established the legal tool to accomplish 
this in 2006 by requiring the implementation of science-based ACLs that 
end and prevent overfishing for U.S. fisheries. Now it must provide the 
funding to collect and analyze the information necessary to continue 
meeting that requirement and sustaining healthy fisheries. Increasing 
funding for data collection and analysis will significantly improve the 
Federal Government's efforts to maintain viable fisheries and healthy 
marine ecosystems.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

    On behalf of this Nation's 36 Tribal Colleges and Universities 
(TCUs), which compose the American Indian Higher Education Consortium 
(AIHEC), thank you for the opportunity to express our views and 
recommendations regarding the National Science Foundation's Tribal 
Colleges and Universities Program (NSF-TCUP) for fiscal year 2011.

                           SUMMARY OF REQUEST

    National Science Foundation (NSF)--Education and Human Resources 
Directorate (EHR).--Since fiscal year 2001, a TCU initiative has been 
funded and administered under the NSF-EHR. This competitive grants 
program enables Tribal Colleges and Universities to enhance the quality 
of their science, technology, engineering and mathematics (STEM) 
instructional and outreach programs. TCUs that have been awarded an 
NSF-TCUP grant have done comprehensive institutional needs analysis and 
developed plans for how to address their institutional and NSF goals, 
with primary institutional goals being significant and sustainable 
expansion and improvements to STEM programs. We strongly urge the 
subcommittee to reject the recommendation included in the President's 
fiscal year 2011 budget proposal to combine the NSF minority serving 
institutions programs into a consolidated minority undergraduates in 
STEM program. If all funds are competed as a single program there is no 
recognition of the uniqueness of these various communities or an 
assurance that these communities will be served equitably. We further 
request that the subcommittee support funding the separate TCU Program, 
at a minimum of $15.5 million.

                               BACKGROUND

    Tribal Colleges and Universities are accredited by independent, 
regional accreditation agencies and like all U.S. institutions of 
higher education, must undergo stringent performance reviews on a 
periodic basis to retain their accreditation status. TCUs fulfill 
additional roles within their respective reservation communities 
functioning as community centers, libraries, tribal archives, career 
and business centers, economic development centers, public meeting 
places, and child and elder care centers. Each TCU is committed to 
improving the lives of its students through higher education and to 
moving American Indians toward self-sufficiency.
    TCUs have advanced American Indian higher education significantly 
since we first began four decades ago, but many challenges remain. 
Tribal Colleges and Universities are poor institutions. In fact, TCUs 
are the most poorly funded institutions of higher education in the 
country.
    First, while Tribal Colleges and Universities are public they are 
not State institutions. Consequently, our institutions receive little 
or no State funding. In fact, very few States provide operating support 
to our institutions for the non-Indian students attending TCUs, which 
account for about 21 percent of our enrollments. However, if these 
students attended a State institution, the State would be required to 
provide the institution with operational support for them. This is 
something we are trying to rectify through education and public policy 
change at both the State and local levels.
    Second, the tribal governments that have chartered TCUs are not 
among the handful of wealthy gaming tribes located near major urban 
areas. Rather, they are some of the poorest governments in the Nation. 
In fact, 3 of the 10 poorest counties in America are home to Tribal 
Colleges.
    Finally, the Federal Government, despite its trust responsibility 
and treaty obligations, has never fully funded our primary 
institutional operations source, the Tribally Controlled Colleges & 
Universities Assistance Act of 1978. Today, TCUs are appropriated 
$5,784 per full-time Indian student, which is still considerably less 
than the authorized level of $8,000 per Indian student. In fact, if you 
factor in inflation, the buying power of the current appropriation is 
$965 less per Indian student than it was when it was initially funded 
almost 30 years ago, when the appropriation was $2,831 per Indian 
student.
    TCUs effectively blend traditional teachings with conventional 
postsecondary curricula. They have developed innovative ways to address 
the needs of tribal populations and are overcoming long-standing 
barriers to success in higher education for American Indians. Since the 
first TCU was established on the Navajo Nation in 1968, these vital 
institutions have come to represent the most significant development in 
the history of American Indian higher education, providing access to, 
and promoting achievement among, students who may otherwise never have 
known postsecondary education success.

                             JUSTIFICATIONS

National Science Foundation/Education and Human Resources Directorate
    American Indian students have the highest high school drop-out 
rates in the country. On average, more than 75 percent of all TCU 
students must take at least one developmental course, most often 
precollege mathematics. Of these students, our data indicates that many 
do not successfully complete the course in 1 year. Without question, a 
tremendous amount of the TCUs' already limited resources are spent 
addressing the failings of K-12 education systems.
    To help address this, our institutions have developed strong 
partnerships with our K-12 feeder schools and are vigorously working, 
often through NSF-TCU programs, to actively and consistently engage 
young students in community and culturally relevant science and math 
programs.
    Beginning in fiscal year 2001, NSF-TCUP made essential capacity 
building assistance and resources available to TCUs, either through 
direct funding or by leveraging funding from other sources. In the less 
than 10 years since the program began, NSF-TCUP has become the primary 
Federal program for building STEM capacity at the Nation's TCUs. NSF-
TCUP has served as a catalyst for capacity building and positive change 
at TCUs and the program can be credited with many success stories. 
American Indians are more aware of the importance of STEM to their 
long-term survival, particularly in areas such as climate change. 
Partnerships between TCUs and major research institutions are emerging 
in areas of education and research, including pre-engineering.
    A goal stated in the President's fiscal year 2011 budget proposal 
with regard to NSF-EHR is ``increasing participation of students from 
groups traditionally underrepresented in STEM.'' Though consolidating 
the various minority serving institutions' (MSIs) undergraduate 
programs in the NSF Undergraduate/Graduate Student Support budget line 
may seem like a step toward streamlining funding and administration of 
duplicative Federal programs and enhancing participation of minority 
students in STEM, the result will likely be quite the opposite, for the 
following reasons:
  --Each of the MSI specific programs is designed to address the unique 
        challenges and issues facing the communities served by the 
        respective groups of MSIs, including Historically Black 
        Colleges and Universities (HBCUs), Hispanic Serving 
        Institutions (HSIs), and TCUs; and perhaps of the greatest 
        significance, TCUs are extensions of the Federal recognized 
        tribes that charter them and as such are subject to the unique 
        government-to-government relationship. Consolidating TCU 
        programs with other programs simply because they too target a 
        minority population disregards tribal sovereignty.
  --MSIs are not able to compete for funding at the same level not to 
        mention the majority institutions that would now be eligible. 
        Those institutions that are able to employ a professional grant 
        writing staff will be successful in competing for the proposed 
        universal pool of limited funding. Therefore, the consolidation 
        of MSI-STEM programs may bolster participation of some minority 
        student groups, but it will come at the expense of others.
  --The President's budget proposal would: (1) consolidate three 
        currently active undergraduate programs, and (2) add to the 
        pool of eligible applicants at least 226 HSIs, heretofore not 
        funded under Undergraduate/Graduate Student Support budget line 
        as well as majority institutions that produce underrepresented 
        STEM graduates. The proposed increase of $13 million to the new 
        program is undoubtedly inadequate to accommodate the vastly 
        enlarged pool of eligible applicants.
    The NSF-TCU program, administered by the Education and Human 
Resources Directorate, is a competitive grants program that enables 
TCUs to develop and expand critically needed science and math education 
and research programs relevant to their respective communities. Through 
this program, Tribal Colleges and Universities that have been awarded 
an NSF-TCUP grant have been able to enhance their STEM instructional 
offerings, workforce development, and outreach programs. At Navajo 
Technical College (NTC), for example, STEM enrollment has increased by 
32.5 percent over just the past year and a total of 52.6 percent over 
the past 6 years. Outreach programs at NTC include the Internet to the 
Hogan project, which has increased the college's high performance 
computing capacity and brought heretofore nonexistent broadband access 
to the surrounding community. Unfortunately, not all of the TCUs have 
been able to benefit from this program; yet, funding for this vital 
program has been static, and the percentage of proposals funded has 
declined each year since 2004. We strongly urge the subcommittee to 
resist the recommendation to combine programs for minority institutions 
and to recognize tribal sovereignty and support retaining the separate 
NSF-TCU program at a minimum of $15.5 million, to help ensure that much 
needed undergraduate programs and community services are expanded and 
continued in the communities served by the Nation's Tribal Colleges and 
Universities.

                  PRESIDENT'S FISCAL YEAR 2011 BUDGET

    The President's fiscal year 2011 budget proposal proposes merging 
separate programs that serve unique minority constituencies into a 
consolidated program for minority undergraduates in STEM fields. We 
request that the subcommittee reject the budget recommendation and 
continue to support separate funding for each of the affected programs, 
namely: Tribal Colleges and Universities Program (TCUP); Historically 
Black Colleges and Universities Undergraduate (HBCUUP); Louis Stokes 
Alliances of Minority Participation (LSAMP); and the new program 
Hispanic Serving Institutions.

                               CONCLUSION

    We respectfully request that in fiscal year 2011, Congress 
recognize the unique nature of each of the minority communities and the 
capacity of the various minority serving institutions and their 
contributions to their respective communities and retain the following 
separate programs: NSF TCU program; HBCUU program; and LSAMP program; 
and fund the newly established Hispanic Serving Institutions program. 
Thank you for your continued support of TCUs and for your consideration 
of our fiscal year 2011 Commerce, Justice, Science and Related Agencies 
(NSF) appropriations request.
                                 ______
                                 
    Prepared Statement of the American Shore and Beach Preservation 
                          Association (ASBPA)

    Dear Chairman Mikulski and Ranking Member Shelby: I am writing on 
behalf of the American Shore and Beach Preservation Association, a 
group dedicated to preserving, protecting and enhancing the beaches, 
shores and other coastal resources of America. It is impossible to deny 
the financial, social and environmental benefits of maintaining and 
protecting our valuable coastal resources. There are many agencies 
involved in this important work; however I would like to highlight some 
programs and services administered by the National Oceanic and 
Atmospheric Administration (NOAA). The work being done by NOAA is 
critical to the protection of these important national treasures, 
however the current level of funding to support these programs and 
services is severely lacking. Without an increase in Federal funding, 
these programs will not be able to function properly, if at all. 
Increased financial support for NOAA is needed to strengthen the 
scientific research that underlies management and policy decisions, 
such as fisheries management, and to improve ocean and coastal 
stewardship. Specifically, we request your support for the following 
programs in the fiscal year 2011 Commerce, Justice and Science 
appropriations bill. These programs will continue to strengthen and 
support our economy.
    Integrated Ocean Observing System (IOOS).--Enacted in 2009, the 
IOOS is a valuable tool in data distribution through a partnership 
between the Federal and local government. This data is used 
consistently by local officials to support their decisionmaking process 
in policy formation as it related to marine issues. Not only is this 
information used to promote efficiency and safety of day to day marine 
operations, it also is used to sustain and protect healthy ecosystems, 
strengthen the predications of potential coastal hazards and to 
stimulate local and national economic development.
    We are asking for an investment of $53 million in funding for 
fiscal year 2011, to include $33 million for regional IOOS programs. 
This funding would be used to provide new observing, modeling, and 
visualization technologies, support observing platforms for deploying 
sensors, and establish regional data information centers. NOAA will use 
a competitive process to allocate funding to regional associations, 
thereby ensuring that the American public receives the greatest return 
for its investment in the form of a nationally consistent system for 
critical ocean information, forecasts and timely warnings.
    National Sea Grant Program.--The National Sea Grant Program is a 
partnership between NOAA and 32 university-based programs that 
addresses national, regional, and local coastal, ocean, and Great Lakes 
issues. The result of this critical partnership is a further 
understanding and better stewardship and management of ocean, coastal 
and Great Lakes resources.
    Additionally, the program supports local communities and industries 
with sound data to be used in decisionmaking as well as to support the 
connection of the two often competing interests. We request $79.5 
million for the National Sea Grant Program in fiscal year 2011, the 
amount authorized in the National Sea Grant College Program Amendments 
Act of 2008.
    Coastal Zone Management Program (CZMP).--Coastal regions are vital 
to the national economy, to include tourism, industry and 
transportation of goods. Though our coastal region is 17 percent of the 
land area of the United States, it is home to more than one-half of its 
population. The Coastal Zone Management Program (CZMP) is used to 
safeguard against common threats to coastal areas, to include poorly 
designed and planned development, hurricanes and flooding, as well as 
threats that we are still trying to understand, such as sea level rise.
    This Federal-State partnership designed to balance the protection 
of our coastal and ocean resources with the need for sustainable 
development of coastal communities. The program helps reduce 
environmental impacts of coastal development, resolve conflicts between 
competing coastal uses, and provide critical assistance to local 
communities in coastal planning and resource protection. Without an 
increase in funding of CZMP grants, States and territories are unable 
to keep up with the increasing complex coastal challenges. We request 
$112.4 million for the CZMP in fiscal year 2011.
    We recognize and understand the fiscal constraints facing the 
subcommittee in crafting the fiscal year 2011 Commerce, Justice, 
Science, and Related Agencies appropriations bill. However, we feel 
that these are valuable investments in our oceans and coasts, and we 
feel that these would benefit not only these areas, but our Nation as a 
whole. Thank you for your consideration and please feel free to contact 
me with any questions.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
      Society of America, and the Soil Science Society of America

     FISCAL YEAR 2011 APPROPRIATIONS--SUPPORT FOR NATIONAL SCIENCE 
                               FOUNDATION

    Dear Chairman Mikulski, Ranking Member Shelby, and members of the 
subcommittee: The American Society of Agronomy, Crop Science Society of 
America, and Soil Science Society of America (ASA, CSSA, and SSSA) are 
pleased to submit the following funding recommendations for the 
National Science Foundation (NSF) for fiscal year 2011. ASA, CSSA, and 
SSSA understand the challenges the Senate Commerce, Justice, Science, 
and Related Agencies Appropriations Subcommittee faces with the tight 
science budget for fiscal year 2011. We also recognize that the 
Commerce, Justice, and Science Appropriations bill has many valuable 
and necessary components, and we applaud the efforts of the 
subcommittee to fund critical research through the National Science 
Foundation (NSF). ASA, CSSA, and SSSA recommend that the Subcommittee 
on Commerce, Justice, Science, and Related Agencies increase the fiscal 
year 2011 funding level for NSF to $7.424 billion, the level requested 
by the administration. This strong level of funding will enable NSF to 
continue to fund worthy projects that promote transformational and 
multidisciplinary research, provide needed scientific infrastructure, 
and contribute to preparing a globally engaged science, technology, 
engineering, and mathematics workforce.
    With more than 25,000 members and practicing professionals, ASA, 
CSSA, and SSSA are the largest life science professional societies in 
the United States dedicated to the agronomic, crop and soil sciences. 
ASA, CSSA, and SSSA play a major role in promoting progress in these 
sciences through the publication of quality journals and books, 
convening meetings and workshops, developing educational, training, and 
public information programs, providing scientific advice to inform 
public policy, and promoting ethical conduct among practitioners of 
agronomy and crop and soil sciences.

                    BIOLOGICAL SCIENCES DIRECTORATE

Molecular and Cellular Biosciences (MCB)
    The Molecular and Cellular Biosciences division of the NSF Biology 
Directorate provides funding for critical research that contributes to 
the fundamental understanding of life processes at the molecular, 
subcellular, and cellular levels. Programs such as the Microbial 
Observatories and Microbial Interactions and Processes program increase 
the understanding of microbial distribution in a variety of 
ecosystems--a primary step in evaluating microbial impact on ecosystem 
function. Furthermore, while we agree that considerable advances 
investigating interactions between microbial communities and plants 
have been made, critical gaps remain requiring additional study to 
understand the complex, dynamic relationships existing between plant 
and microbial communities.

Biological Infrastructure (DBI)
    The emergence of a bioeconomy requires greater reliance on plants 
and crops, further expanding their use into the energy sector. To meet 
the increased demands and develop more robust crops, additional 
fundamental understanding regarding the basic biology of these crops is 
needed. The Plant Genome Research Program (PGRP) accomplishes these 
objectives by supporting key NSF projects. The Developing Country 
Collaborations in Plant Genome Research program links U.S. researchers 
with partners from developing countries to solve problems of mutual 
interest in agriculture and energy and the environment. Additionally, 
in collaboration with the U.S. Department of Energy and the U.S. 
Department of Agriculture, the Plant Genome Research Program has 
financed the Maize Genome Sequencing Project--a sequencing project for 
one of the most important crops grown globally. Finally, the 
International Rice Genome Sequencing Project published in 2005 the 
finished DNA blueprint for rice, a crop fundamental to populations 
worldwide. To continue the discovery of new innovative ways to enhance 
crop production for a growing population, sustained funding is needed 
for similar projects. Finally the PGRP and the Bill and Melinda Gates 
Foundation co-fund the Basic Research to Enable Agricultural 
Development (BREAD) program. This program supports basic research to 
allow academic and industrial researchers to expand the breeders' 
toolkit and exploit the diversity of agronomically useful traits in 
wild and domesticated crop plants and to accelerate the development of 
new plant varieties through marker-assisted breeding specifically to 
accommodate the needs of developing countries. ASA, CSSA, and SSSA are 
very supportive of this program.

                    GEOLOGICAL SCIENCES DIRECTORATE

Atmospheric Sciences (ATM)
    Changes in terrestrial systems will have great impact on 
biogeochemical cycling rates. The Atmospheric Sciences Division funds 
critical programs, such as Atmospheric Chemistry, that increase 
understanding of biogeochemical cycles. Soils and plants make up one of 
the largest sinks and sources for several environmentally important 
elements.

Earth Sciences (EAR)
    The Earth Sciences Division supports research emphasizing improved 
understanding of the structure, composition, and evolution of the 
Earth, the life it supports, and the processes that govern the 
formation behavior of the Earth's materials. EAR supports theoretical 
research, including the biological and geosciences, the hydrologic 
sciences, and the study of natural hazards. An important program funded 
within this division is the Critical Zone Observatories which focuses 
on watershed scale studies that advance understanding of the 
integration and coupling of Earth surface processes as mediated by the 
presence and flux of fresh water.
    We also support the premise that was laid out in the BIO/GEO Dear 
Colleague Letter: ``Update: Emerging Topics in Biogeochemical Cycles 
(ETBC)''. The letter encourages advancement in quantitative and/or 
mechanistic understanding of biogeochemical cycles, including the water 
cycle and suggests that interdisciplinary proposals are put forth that 
address biogeochemical processes and dynamics within and/or across 
terrasphere, hydrosphere, or atmosphere. We find that these types of 
interdisciplinary endeavors are critical to solving many of the 
pressing issues that we, as a society, face today. We also support 
efforts made in collaboration with the Directorate for Social, 
Behavioral, and Economic Sciences (SBE) to encourage productive 
interdisciplinary collaborations between the geosciences and the 
social, behavioral, and economic sciences.

                        ENGINEERING DIRECTORATE

Chemical, Bioengineering, Environmental and Transport Systems (CBET)
    The Environmental Engineering and Sustainability program and its 
Energy for Sustainability sub-program support fundamental research and 
education in energy production, conversion, and storage and is focused 
on energy sources that are environmentally friendly and renewable. Most 
world energy needs are currently met through the combustion of fossil 
fuels. With projected increases in global energy needs, more 
sustainable methods for energy production will need to be developed, 
and production of greenhouse gases will need to be reduced.

             DIRECTORATE FOR EDUCATION AND HUMAN RESOURCES

Division of Graduate Education
    ASA, CSSA, and SSSA are dedicated to the enhancement of education, 
and concerned about recent declines in enrollment for many sciences. To 
remain competitive, scientific fields need to find new, innovative ways 
to reach students. The programs offered in the Education and Human 
Resource Directorate accomplish this goal. The Graduate Teaching 
Fellows in K-12 Education program offers graduate students interested 
in teaching an opportunity to get into the classroom and teach 
utilizing new innovative methods. Graduate students are the next crop 
of scientists, therefore opportunities for study must be increased with 
the ever-increasing demands of science. Global problems rely on 
scientific discovery for their amelioration; it is critical that the 
U.S. continue to be a leader in graduate education. ASA, CSSA, and SSSA 
recommend strong support for the Integrative Graduate Education and 
Research Traineeships (IGERT) program.
    Because education is the key for our future competitiveness, it is 
essential that sustainable, long-term support for these and other 
educational programs be made.

Division of Undergraduate Education
    Advanced Technological Education (ATE) program focuses on the 
education of technicians for the high-technology fields that drive our 
Nation's economy. We support continued, strong funding for this 
program. The program involves partnerships between academic 
institutions and employers to promote improvement in the education of 
science and engineering technicians at the undergraduate and secondary 
school levels.

                           NSF WIDE PROGRAMS

Cyberlearning Transforming Education (CTE)
    ASA, CSSA, and SSSA fully support the cross-cutting program in NSF 
on cyberlearning for transforming education. The program will establish 
a new multidisciplinary research which will fully capture the 
transformative potential of advanced learning technologies across the 
education enterprise. We are excited about the opportunities that CTE 
holds to better communicate and transfer information about basic 
science performed by our members. Recruiting the next generation of 
high quality scientists is one of the main focuses of our membership 
and new information on how we can communicate and train these students 
using technologies available through cyberlearning will help propel our 
sciences into the future. In addition to the educational benefits, 
cyberlearning may also help us better understand how to coordinate and 
communicate science even within our community of researchers.

National Nanotechnology Initiative (NNI)
    Regarding the Environmental, Health and Safety program under the 
NNI, we find that the President's request of $33.01 million, to be well 
justified in order to support a rapidly growing field of science that 
presents both new opportunities for human health, the environment, 
agricultural science, but also unprecedented risks if not well 
researched and reviewed to identify appropriate safety measures. We are 
excited that the Environmental Protection Agency (EPA), the U.S. 
Department of Agriculture (USDA), and the European Union (EU) will 
collaborate on implementation of a joint solicitation for nano 
environmental health and safety protocol.

Science, Engineering, and Education for Sustainability
    To create a more sustainable future, ASA, CSSA, and SSSA strongly 
believe that more students must be trained as scientists to bring new 
and revolutionary approaches to environmental and agroecosystem 
science. Economic incentives and misconceptions steer students in the 
basic sciences away from careers in the agronomic, crop, and soil 
sciences. If current trends continue, our workforce will lack the 
highly trained agronomists, soil scientists, plant breeders, 
pathologists, entomologists and weed scientists necessary to make the 
technical advances essential to meet future production and 
sustainability challenges, let alone control new, emerging invasive 
weed and insect species and pathogens that will continue to threaten 
agricultural systems. Thus, we applaud the efforts put forth by the 
administration to make investments in this area.

U.S. Global Change Research Program
    The U.S. Global Change Research Program (USGCRP) seeks to better 
understand how the interplay between natural factors and human 
activities affects the climate system. The USGCRP engages 13 U.S. 
agencies in a concerted interagency program of basic research, 
comprehensive observations, integrative modeling, and development of 
products for decisionmakers. NSF provides support for a broad range of 
fundamental research activities that provide a sound scientific basis 
for climate-related policy and decisions. ASA, CSSA, and SSSA support 
an appropriation for the U.S. Global Change Research Program at $370 
million as the President requests in the fiscal year 2011 budget.
    Biological systems are critical to mitigating the impacts and 
effects of climate change. Additional research is needed to examine 
potential crop systems, plant traits, wetland properties, and other 
ecosystem adaptations to help manage climate change. The basic sciences 
of agroecosystems, plant improvement, soils, and riparian and wetland 
ecology need support as well.
    As you lead the Senate in deliberation on funding levels for the 
National Science Foundation, please consider American Society of 
Agronomy, Crop Science Society of America, Soil Science Society of 
America as supportive resources. We hope you will call on our 
membership and scientific expertise whenever the need arises.
    Thank you for your thoughtful consideration of our requests.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History

                                OVERVIEW

    Recognizing its potential to support NASA in its goals to pioneer 
the future in space exploration, scientific discovery, and aeronautics 
research; to develop a balanced overall program of science, 
exploration, and aeronautics; and to establish new and innovative 
programs to enhance understanding of our Earth, other planets, 
asteroids, and comets in our solar system, as well as the search for 
life around other stars, the American Museum of Natural History (AMNH) 
seeks $3.5 million to contribute its unique science, education, and 
technological capacity to helping the agency to meet these goals.

              ABOUT THE AMERICAN MUSEUM OF NATURAL HISTORY

    The American Museum of Natural History (AMNH) is one of the 
Nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its joint 
mission of science and public education. It is renowned for its 
exhibitions and collections of more than 32 million natural specimens 
and cultural artifacts. With some 4 million annual on-site visitors--
approximately one-half of them children--it is one of the largest and 
most diverse museums in the country. Museum scientists conduct 
groundbreaking research in fields ranging from all branches of zoology, 
comparative genomics, and informatics to Earth science, biodiversity 
conservation, and astrophysics. Their work forms the basis for all the 
Museum's activities that seek to explain complex issues and help people 
to understand the events and processes that created and continue to 
shape the Earth, life and civilization on this planet, and the universe 
beyond.

           COMMON GOALS AND ACCOMPLISHMENTS OF AMNH AND NASA

    For many years, NASA and AMNH have shared a joint commitment to 
advancing scientific research and to integrating that research into 
unique educational tools and resources. Over the years, the Museum has 
successfully pursued a number of competitive opportunities, has 
cultivated rich relationships with NASA divisions such as the Science 
Mission Directorate's Heliophysics division and the Informal Education 
program, and has worked with the agency to develop innovative 
technologies and resources that reach audiences of millions in New 
York, across the country, and around the world.
    The Museum's educational mission is fueled by and reflects cutting-
edge science, including the work of our scientists in collaboration 
with NASA centers and researchers. In keeping with that mission, the 
Museum has built a set of singular national resources that bring 
current science and integrated NASA content to total audiences of more 
than 16 million in New York City, across the country, and around the 
world. One such resource, Science Bulletins--immersive multimedia 
science encounters, presenting science news and discoveries in various, 
flexible formats--is already on view in nearly 40 locations across the 
country (including eight NASA visitor centers), with more being added. 
In the New York area alone, the Museum reaches nearly 4 million annual 
on-site visitors, including more than 450,000 children in school 
groups, with millions more visiting online.
    In fiscal year 2011, AMNH seeks to build on the sustained successes 
of these collaborations by reaching even larger audiences with a 
program to communicate current science content--about NASA science and 
missions in particular--to diverse national audiences. The program 
encompasses:

     PRESENTING CURRENT SCIENCE IN PUBLIC SPACES--SCIENCE BULLETINS

    Science Bulletins is a nationally distributed, multi-media science 
exhibition program designed to address the need of informal science 
institutions to communicate and interpret current science by informing 
the public about ongoing scientific exploration and recent discoveries. 
Presenting the latest science news in a variety of high-definition 
formats--including laboratory and field footage, 3-D animation, and 
data visualization, all co-developed and vetted for scientific rigor by 
PhD scientists--the Bulletins program is at the leading edge of 
research and education. We propose the following activities:
  --Increasing Science Bulletins Dissemination.--In addition to AMNH, 
        Bulletins are currently on view at 38 subscribing venues across 
        the country (including 8 NASA visitor centers), with annual 
        audiences of more than 13 million. To increase the program's 
        reach and impact, and to make the it more accessible to a wider 
        variety of institutions and audiences, AMNH will undertake a 
        graphical redesign and technical innovation of the program that 
        will increase the Bulletins' flexibility for use in a variety 
        of live, auto-run, and interactive programs. These innovations, 
        which will make the program more user-friendly, customizable, 
        and affordable, will enable AMNH to extend the reach of 
        Bulletins to new and diverse audiences.
  --R&D and Program Delivery.--AMNH will develop new visualization 
        methods to advance the communication of current science, and 
        will utilize them in developing and distributing the Bulletins 
        program. AMNH will release approximately 26 bi-weekly updates, 
        create 6 new feature documentaries, and increase Web site 
        visits in the Bulletins focused on the earth, space, and 
        biosphere. Science Bulletins DVDs will also be distributed in 
        New York City schools.
  --Science Bulletins on the Web.--AMNH will continue to promote the 
        Bulletins Web site as a resource for formal education and 
        educators, providing materials online to facilitate classroom 
        use.

Visualizing and Disseminating Current Science Data
    Visualization of real, large scale datasets into digital 
planetarium shows marks one of the Museum's signature achievements in 
the new era of digital dome technologies. AMNH proposes to draw on its 
unique expertise and capacity in visualizing astrophysics data from 
NASA and other sources to create a new digital space show that will 
engage children, families, and general audiences worldwide.
    The Museum has very successfully leveraged past NASA investments 
with funds from other Government and private sources, and will support 
the present project with funds from non-Federal as well as Federal 
sources. The Museum looks forward to continuing to contribute its 
unique resources and capacity to helping the agency meet its goals.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                           Mathematics (SIAM)

    Summary.--This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the National Science Foundation (NSF) in 
fiscal year 2011 by providing NSF with $7.424 billion, a 7.2 percent 
increase over NSF's fiscal year 2010 appropriated level. In particular, 
we urge you to provide at least the request level for key applied 
mathematics and computational science programs in the Division of 
Mathematical Sciences and the Office of Cyberinfrastructure.

                           WRITTEN TESTIMONY

    My name is Douglas Arnold, and I am the President of the Society 
for Industrial and Applied Mathematics (SIAM). I am submitting this 
written testimony for the record to the Subcommittee on Commerce, 
Justice, Science, and Related Agencies of the Committee on 
Appropriations of the U.S. Senate.
    SIAM has approximately 13,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has over 400 institutional members--colleges, universities, 
corporations, and research organizations.
    First, I would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the National Science Foundation (NSF) and its support for 
mathematics, science, and engineering in enabling a strong U.S. 
economy, workforce, and society. In particular, we thank you and your 
colleagues for the significant increases in funding provided for NSF in 
the fiscal year 2010 Consolidated Appropriations bill.
    Today, I submit this testimony to ask you to continue your support 
of NSF in fiscal year 2011 and beyond. In particular, we request that 
you provide NSF with $7.424 billion, the level requested by the 
President for this agency in his fiscal year 2011 budget. This 
represents a 7.2 percent increase over NSF's fiscal year 2010 
appropriated level and would continue the effort to double funding at 
NSF, as endorsed by Congress in the America COMPETES Act and by the 
President in his fiscal year 2011 budget request.
    As we are reminded every day, our Nation's economic strength, 
national security, and public health and welfare are being challenged 
in profound and unprecedented ways. Addressing these challenges 
requires that we confront fundamental scientific questions. 
Computational and applied mathematical sciences, the scientific 
disciplines that occupy SIAM members, are particularly critical to 
addressing U.S. competitiveness and security challenges across a broad 
array of fields: medicine, engineering, technology, biology, computer 
science, and others.
    Other countries have observed the success of the U.S. model and are 
investing in research and education. Without sufficiently increasing 
support for science, engineering, and mathematics, the U.S. pre-
eminence in innovation will be compromised.

                      NATIONAL SCIENCE FOUNDATION

    The National Science Foundation (NSF) provides essential Federal 
support of applied mathematics and computational science, including 
more than 60 percent of all Federal support for basic academic research 
in the mathematical sciences. Of particular importance to SIAM, NSF 
funding supports the development of new mathematical models and 
computational algorithms, which are critical to making substantial 
advances in such fields as climate modeling, energy technologies, 
genomics, analysis and control of risk, and nanotechnology. In 
addition, new techniques developed in mathematics and computing 
research often have direct application in industry. NSF also supports 
mathematics education at all levels, ensuring that the next generation 
of the U.S. workforce is appropriately trained to participate in 
cutting-edge technological sectors and that students are attracted to 
careers in mathematics and computing.
    I will now briefly highlight the main budgetary and programmatic 
components at NSF that support applied mathematics and computational 
science.

                 NSF DIVISION OF MATHEMATICAL SCIENCES

    The NSF's Division of Mathematical Sciences (DMS) provides the core 
support for all mathematical sciences, including areas such as 
analysis, applied mathematics, combinatorics, computational 
mathematics, probability, and statistics. In addition, DMS supports 
national mathematical science research institutes; infrastructure, 
including workshops, conferences, and equipment; and postdoctoral, 
graduate, and undergraduate training opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, global climate change, software for military applications, 
the human body, and energy efficient building systems. SIAM strongly 
urges you to provide DMS with at least the budget request level of 
$253.46 million to enable sustained investment by NSF in critical 
mathematical research and related mathematical education and workforce 
development programs.
    In particular, investment in DMS is critical because of the 
foundational and cross-cutting role that mathematics and computational 
science play in sustaining the Nation's economic competitiveness and 
national security, and in making substantial advances on societal 
challenges such as energy, the environment, and public health. DMS has 
traditionally played a central role in cross-NSF interdisciplinary 
efforts that bear on these challenges, with programs supporting the 
interface of mathematics with a variety of other fields.
    SIAM deeply appreciates DMS's role in enabling interdisciplinary 
work and supports the expansion of this work in fiscal year 2011. In 
particular, the proposed increase within DMS for the NSF-wide Science, 
Engineering, and Education for Sustainability initiative would support 
the development of potentially transformative mathematical, 
statistical, and computational methods needed for analysis and 
simulation of climate models and increase DMS investment in an existing 
program on solar energy. In addition, the proposed establishment of a 
new Life Sciences Interface initiative involving DMS and other NSF 
units is particularly timely in light of the challenges outlined in the 
recent National Research Council report on ``A New Biology for the 21st 
Century,'' which emphasizes the need for development of new information 
sciences and new education programs in order to create a quantitative 
approach in biological sciences to tackle key challenges in food, 
environment, energy, and health.

                   NSF OFFICE OF CYBERINFRASTRUCTURE

    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Office of 
Cyberinfrastructure (OCI) focus on providing research communities 
access to advanced computing capabilities to convert data to knowledge 
and increase our understanding through computational simulation and 
prediction.
    SIAM strongly urges you to provide OCI with at least the budget 
request level of $228.1 million to invest in the computational 
resources and science needed to solve complex science and engineering 
problems. In addition, SIAM strongly endorses OCI's efforts to take on 
the role of steward for computational science across NSF, strengthening 
NSF support for relevant activities and driving universities to improve 
their research and education programs in this interdisciplinary area.
    The programs in OCI that support work on software and applications 
for the next generation of supercomputers and other cyberinfrastructure 
systems are very important to enable effective use of advances in 
hardware, to facilitate applications that tackle key scientific 
questions, and to better understand increasingly complex software 
systems. SIAM strongly supports the proposed fiscal year 2011 increase 
in funding for OCI software activities, particularly the proposed new 
Software Institutes program, aimed at supporting a community of 
partnerships among academia, government laboratories, and industry for 
the development and stewardship (expansion, hardening, and maintenance) 
of sustainable end-to-end software systems. SIAM also supports the 
proposed increase in OCI data activities. The explosion in data 
available to scientists from advances in experimental equipment, 
simulation techniques, and computer power is well known, and applied 
mathematics has an important role to play in developing the methods and 
tools to translate this shower of numbers into new knowledge.

        SUPPORTING THE PIPELINE OF MATHEMATICIANS AND SCIENTISTS

    Investing in the education and development of young scientists and 
engineers is a critical role of NSF and a major step that the Federal 
Government can take to ensure the future prosperity and welfare of the 
United States. Currently, the economic situation is negatively 
affecting the job opportunities for young mathematicians--at 
universities, companies, and other research organizations. It is not 
only the young mathematicians who are not being hired who will suffer 
from these cutbacks. The research community at large will suffer from 
the loss of ideas and energy that these graduate students, postdoctoral 
fellows, and early career researchers bring to the field, and the 
country will suffer from the lost innovation.
    In light of this situation, SIAM strongly supports NSF's proposed 
fiscal year 2011 increases in the Graduate Research Fellowship (GRF) 
program and the Faculty Early Career Development (CAREER) program. We 
also strongly endorses OCI's participation in these programs as part of 
efforts to create opportunities in the interdisciplinary area of 
computational science and engineering and nurture the development of 
young researchers in this emerging field.

         MATHEMATICS AND INTERNATIONAL SCIENCE AND ENGINEERING

    Science knows no borders, and nowhere is this more true than in 
mathematics. Mathematical research typically advances through the close 
collaboration of small groups of researchers, without the need for 
expensive equipment and using universal mathematical notation to 
minimize language obstacles. In addition, mathematics, as an enabling 
discipline for all of science and technology, and as a foundation for 
science education, plays a key role in addressing many of the most 
challenging problems that the world faces, such as climate change, 
infectious disease, and sustainable energy generation. International 
scientific cooperation is not just good science; it can also aid in 
promoting United States international policy goals by building 
relationships and trust with other countries, enhancing the global 
image of America, and spurring global development.
    SIAM believes strongly in the Federal Government's support of 
international science and technology initiatives, including cooperative 
research programs that further scientific knowledge applicable to major 
societal challenges, promote development of research and education 
capabilities abroad, and introduce U.S. students to global issues and 
collaborative relationships.

                               CONCLUSION

    SIAM is aware of the significant fiscal constraints facing the 
administration and Congress this year, but we note that, in the face of 
economic peril, Federal investments in mathematics, science, and 
engineering create and preserve good jobs; stimulate economic activity; 
and help to maintain U.S. pre-eminence in innovation, upon which our 
economy depends.
    I would like to conclude by thanking you again for your ongoing 
support of NSF and actions you have already taken to enable NSF and the 
research and education communities it supports, including thousands of 
SIAM members, to undertake the activities that contribute to the 
health, security, and economic strength of the U.S. NSF needs sustained 
annual funding to maintain our competitive edge in science and 
technology, and therefore we respectfully ask that you continue your 
robust support of these critical programs into the future, starting 
with providing $7.424 billion for NSF for fiscal year 2011.
    I appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM and look forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2011 appropriations process.
                                 ______
                                 
  Prepared Statement of the National Council of EEOC Locals, No. 216, 
                              AFGE/AFL-CIO

    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee, my name is Gabrielle Martin and I am the president of the 
National Council of EEOC Locals, No. 216, AFGE/AFL-CIO. The Council is 
the exclusive representative of the bargaining unit employees at the 
Equal Employment Opportunity Commission (EEOC), including 
investigators, attorneys, administrative judges, mediators, paralegals, 
and support staff located in offices in 53 cities around the country. I 
want to thank you for the opportunity to submit testimony on the 
proposed fiscal year 2011 budget for the EEOC. Our number one ``ask'' 
is that this subcommittee support the fiscal year 2011 budget request 
to increase EEOC's funding from $367 million to $385 million. The 
request is in line with the amount that this subcommittee included in 
its fiscal year 2008 report language, which was passed by the Senate. 
We understand that you will receive testimony from many well deserving 
programs. Nevertheless, the Council can confirm from the perspective of 
EEOC's frontline workers that the increase is absolutely necessary and 
justified. Moreover, the budget request should be considered a 
restoration of funds after several years of frozen budgets. Service 
today at the EEOC is still impacted by the loss of 25 percent of EEOC's 
frontline staff since fiscal year 2001. To ensure that EEOC can 
effectively enforce workplace discrimination laws that help Americans 
get and keep jobs, the Council urges the inclusion of bill and report 
language which: (1) adopts the fiscal year 2011 budget request for 
EEOC, increasing funding to $385 million; (2) raises the staffing to 
3,000 FTEs, i.e., the same level as 1994, the last time that EEOC's 
charge receipts were close to the record high levels of recent years; 
(3) maintains oversight of headquarters and field restructuring, 
including the Office of Federal Operations; and (4) directs EEOC to 
implement the Full-service Intake Plan to provide real help to the 
public and reduce the backlog.
    Introduction.--The EEOC's mission is to enforce this Nation's laws, 
which protect against discrimination in employment based on race, 
color, religion, sex, national origin, age, and disability. As of 2009, 
EEOC is also responsible for enforcing the Americans with Disabilities 
Act Amendments Act (ADAAA), the Genetics Information Nondiscrimination 
Act (GINA), and the Lilly Ledbetter Act. The fiscal year 2011 budget 
request is needed so that EEOC's dedicated employees have the resources 
to keep discrimination out of the workplace so Americans can stay on 
the job.
    Thank you to This Subcommittee for Fiscal Year 2010 Funding and to 
Senator Mikulski for Statements at the Recent Help Hearing Regarding 
Backlog and Need for Confirmation of EEOC Nominees.--The Council first 
wishes to thank this subcommittee supporting the fiscal year 2010 
budget request increasing EEOC's funding to $367 million. Also, the 
fiscal year 2010 Omnibus conference report language called for 
oversight of agency staffing and Federal sector changes. It also 
directed EEOC that its workload projections account for a Federal 
Arbitrator's decision regarding the agency's illegal overtime 
practices.\1\ Finally, the Omnibus Act bill language retained 
oversight, which prevents EEOC from taking any action to restructure 
without first coming to the subcommittee. The Council also wishes to 
extend a special thank you to Chairwoman Mikulski for her continued 
advocacy for EEOC. Most recently at the March 11, 2010 HELP Hearing on 
Pay Equity, Senator Mikulski raised the critical issue of EEOC backlog 
and pressed for confirmation of permanent leadership. The Council is 
grateful for your efforts and looks forward to working with EEOC's new 
leadership.
---------------------------------------------------------------------------
    \1\ The damages phase of the case remains ongoing unless a 
settlement can be reached.
---------------------------------------------------------------------------
    Adopt the Fiscal Year 2011 Budget Request to Increase EEOC's Budget 
From $367 Million to $385 Million.--While this subcommittee has 
increased EEOC's budget, EEOC is still playing catch-up from 5 years of 
level funding. EEOC's workload has never been higher, even as staffing 
levels remain inadequate. The chart included with this testimony 
illustrates EEOC's troubling customer service trends from fiscal year 
2001 through fiscal year 2010. If EEOC is to break these trends, so 
that it more effectively can enforce the laws on the books, it needs to 
be funded at no less than the fiscal year 2011 budget request.
    More Frontline Staff is Needed to Offer Timely Assistance and 
Tackle a Giant Backlog.--After losing 25 percent of its staff since 
fiscal year 2001, EEOC took steps to ``rebuild'' in fiscal year 2009, 
but the gains barely kept pace with attrition.\2\ The EEOC ended fiscal 
year 2009 with 2,192 FTEs, a minimal increase from fiscal year 2008's 
2,174 FTEs.
---------------------------------------------------------------------------
    \2\ ``EEOC will have 42 percent of its employees eligible for 
retirement between fiscal years 2007 and 2012, which includes 46 
percent of its investigators and 24 percent of its attorneys.'' OIG 
Semiannual Report, 10/30/07. Additional attrition has occurred in the 
ranks of the hearing officers (administrative judges), who are often 
selected for higher paid administrative law judges at Social Security, 
where they have the subpoena power and support staff that they are 
lacking at EEOC. According to the GAO, the EEOC has 13 percent fewer 
administrative judges than it did in fiscal year 2005.
---------------------------------------------------------------------------
    The inevitable result when EEOC's slashed workforce cannot keep up 
with the increased workload is that the backlog goes from bad to worse. 
According to EEOC's budget justification, the backlog is anticipated to 
rise to 96,865 cases in fiscal year 2010 and 105,203 cases in fiscal 
year 2011.\3\ Thus, roughly an entire year's incoming inventory is 
getting shelved in order to process the previous year's complaints. 
Moreover, since fiscal year 2006, charge filings at EEOC have exceeded 
resolutions, with the trend expected to continue at least through 
fiscal year 2013. (See chart and Budget Justification).
---------------------------------------------------------------------------
    \3\ The White House fiscal year 2011 budget request projected that 
the backlog would grow even higher, i.e., 104,450 in fiscal year 2010 
and 122,452 in fiscal year 2011. The EEOC fiscal year 2011 budget 
justification that followed contained these slightly lower figures.
---------------------------------------------------------------------------
    These unreasonably high workloads of 250 cases do not allow 
investigators to do an effective and timely job of interviewing 
witness, reviewing documents, attempting conciliation, etc. Quick 
resolutions could mean saving the jobs of the applicants and workers 
who file these charges. But, landing in EEOC's backlog puts off 
assistance for 294 days, i.e., over 9 months. Justice delayed is 
justice denied for these workers.
    In order to effectively enforce its mission and reduce the backlog, 
the Council requests that Congress raise EEOC's staffing to 3,000 FTEs, 
i.e., the same level as 1994, the last time that EEOC's charge receipts 
were close to the current record high numbers. The Council supports 
maintaining report language directing EEOC to submit ``quarterly 
reports on projected and actual agency staffing levels so that the 
subcommittee can better monitor EEOC's personnel resources.'' However, 
to ensure hiring keeps up with attrition, it is suggested that the 
report language also include benchmarks for where actual frontline 
staffing should be at the end of each quarter.\4\ Finally, report 
language should be maintained directing that workload projections 
account for a Federal Arbitrator's decision regarding the agency's 
willful and illegal overtime practices, because unreasonably high 
investigator caseloads demonstrate EEOC has not hired enough staff.
---------------------------------------------------------------------------
    \4\ The Council understands that as of fiscal year 2011, agency 
budget projections are to concentrate on actual staffing, rather than 
ceilings. This makes oversight even more critical so that EEOC ends 
fiscal year 2011 with no less than the 2,577 FTE actual staffing 
reflected in the fiscal year 2011 justification.
---------------------------------------------------------------------------
    For the Current Fiscal Year 2010, Oversight Is Needed To Ensure 
Hiring Is Prioritized.--Historically, EEOC ends each year with ``hollow 
FTEs,'' i.e., about 200 positions below the authorized ceiling. 
Therefore, for the current fiscal year 2010, the Council urges this 
subcommittee to exercise its oversight, including monitoring the 
quarterly staffing submissions, to ensure that EEOC does in fact hire 
up to the 2,556 FTEs authorized. If this year's staffing is not 
achieved, then fiscal year 2011's projections for staffing, 
resolutions, and backlog will all be undermined. Most importantly, the 
public needs frontline EEOC employees immediately available to help 
them get jobs and keep jobs.
    Bill Language Should Retain Oversight of EEOC Restructuring.--On 
January 1, 2006, as part of a nationwide field restructuring, EEOC 
downsized a dozen offices. The restructuring added bureaucratic layers, 
but no frontline staff. EEOC should now revisit the restructuring to 
fix its worst inefficiencies, such as States that were split between 
two districts. The EEOC should also keep its promise to reduce top-
heavy offices to a 1:10 supervisor to employee ratio. Redeployed 
supervisors can help the frontline without added cost.
    The final phase of EEOC's repositioning is the delayed 
restructuring of headquarters. Also, recent internal plans to 
reorganize the EEOC's Office of Federal Operations (OFO) have proposed 
adding additional layers of high levels of management at the expense of 
frontline administrative judges. The Council urges the subcommittee to 
retain bill language regarding oversight of this restructuring. 
Additionally, Congress should assure a transparent process for public 
and internal stakeholders to have an opportunity to provide feedback of 
a draft plan.
    Direct EEOC To Implement the Full-Service Intake Plan To Provide 
the Public Real Help and Reduce the Backlog.--EEOC's current backlogs 
and poor customer service can be attributed to its stubborn insistence 
on continuing to use a failed call center model. Though the House and 
Senate CJS subcommittees in fiscal year 2008 defunded an outsourced 
call center, EEOC currently uses an in-house center mirroring that 
failed model.
    Council 216 submitted a comprehensive plan for a national Full-
Service Intake Plan 6 months ago, which EEOC's leadership is reviewing 
at a snail's pace. The plan calls for staffing each field office with a 
compliment of positions and grades able to advance the intake process 
from pre-charge counseling through charge filing, handling the flood of 
downloadable intake questionnaires and responding to over 5,000 
unanswered e-mails.\5\ The plan should help EEOC avoid the high rates 
of turnover. The plan satisfies the interest of Congress to ``provide 
more substantive assistance to callers and resolve a greater number of 
calls at the first point of contact.'' (H.R. 110-919). The plan also 
produces cost savings. It also implements part of EEOC's backlog 
reduction plan, which according to EEOC's OIG should include a renewed 
emphasis on pre-charge counseling. In turn, investigative staff, who 
would be relieved from many of these intake responsibilities, could 
focus on investigating cases to reduce the backlog.
---------------------------------------------------------------------------
    \5\ The units would be comprised of some new staff and current 
staff, including converting in-house call center operators to 
investigator supporter assistants.
---------------------------------------------------------------------------
    The Council supports maintaining report language directing EEOC 
``to develop and implement a multiyear plan to increase EEOC staffing 
to the levels necessary to achieve backlog reduction in a timely 
manner.'' The Council would respectfully request the language be 
expanded to include a direction that the Full Service Intake Plan be 
incorporated into the backlog reduction plan.
    ``Fast Track'' for Feds Requires Stakeholder Input and Oversight 
Before Implementation.--For several years, EEOC has been internally 
debating controversial changes to the hearing process, called ``fast 
track,'' which would direct administrative judges (AJs) to cut off 
discovery and deny hearings for many Federal employees. In these fast-
tracked cases, the EEOC AJ is forced to accept the investigative record 
submitted by the Federal agency alleged to have committed 
discrimination. A more straightforward way to reduce Federal backlog 
and processing times is to replenish AJs, down 13 percent since fiscal 
year 2005, and provide them support staff.
    The Council represents AJs, who oppose mandatory tracking, because 
it re-writes the regulations to remove judicial independence to manage 
cases and interferes with fair hearings. Outside stakeholders must also 
be given an opportunity to weigh in on the current plan. Therefore, the 
Council supports maintaining current report language requiring 
oversight before implementation.

                               CONCLUSION

    In closing, I want to again thank the chairwoman, ranking member 
and the subcommittee for allowing me to provide testimony. I hope my 
statement will give you insight into the difficult challenges facing 
EEOC.

                                                                          EEOC'S TROUBLING CUSTOMER SERVICE TRENDS \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                    2001         2002         2003         2004         2005         2006         2007         2008         2009         2010
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Full Time Employees...........................................        2,924        2,787        2,617        2,462        2,349        2,250        2,137        2,174        2,192        2,470
Backlog.......................................................       32,481       29,041       29,368       29,966       33,562       39,946       54,970       73,941       85,768       96,685
Charge Receipts Filed.........................................       80,840       84,442       81,293       79,432       75,428       75,768       82,792       95,402       93,277      101,653
Resolutions...................................................       90,106       95,222       87,755       85,259       77,352       74,308       72,442       81,081       85,980       93,284
Avg. Charge Processing........................................          182          171          160          165          171          193          199          229          294      ( \2\ )
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ National Academy of Public Administration report, 2/2/03; EEOC Budget Requests; www.eeoc.gov.
\2\ Not available.

                                 ______
                                 
  Prepared Statement of the Association of Science-Technology Centers

    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee--my name is Bud Rock and I am the chief executive officer 
of the Association of Science-Technology Centers (ASTC).
    ASTC is a nonprofit organization of science centers and museums 
dedicated to furthering public engagement with science among 
increasingly diverse audiences. Science centers are sites for informal 
learning and are places to discover, explore, and test ideas about 
science, technology, engineering, and mathematics. They feature 
interactive exhibits, hands-on science experiences for children, 
professional development opportunities for teachers, and educational 
programs for adults. In science centers, visitors of all ages become 
adventurous explorers who together discover answers to the myriad 
questions of how the world works--and why. ASTC has nearly 600 members, 
including 445 operating or developing science centers and museums in 44 
countries, who engage over 80 million people annually in intriguing 
educational science activities and explorations of scientific 
phenomena. The recently released Science and Engineering Indicators 
2010 says that 59 percent of our fellow citizens visited an informal 
science venue in the past year. Science centers vary widely in scale, 
from institutions like the Maryland Science Center in Baltimore's Inner 
Harbor and the McWane Center in Birmingham, Alabama, to the ECHO Lake 
Aquarium and Science Center in Burlington, Vermont and the SEE Science 
Center in Manchester, New Hampshire.
    ASTC works with science centers and museums like these to address 
critical societal issues, locally and globally, where understanding of 
and engagement with science are essential. As liaisons between the 
science community and the public, science centers are ideally 
positioned to heighten awareness of critical issues including energy 
and environmental issues; infectious diseases; the space program; 
increase understanding of important new technologies; and promote 
meaningful informed debate between citizens, scientists, policymakers, 
and the local community.

    THE IMPORTANT CONTRIBUTION OF SCIENCE CENTERS TO IMPROVING STEM 
                               EDUCATION

    Science centers offer places where science and citizens can meet. 
Many centers have scientists on staff and some feature research 
facilities on-site. Through exhibits and programming, such as lecture 
series and science cafes, science centers help to bring current 
research findings to the public and encourage discussion and debate of 
current science issues. Science centers also encourage the public to 
become involved in research projects themselves.
    Science centers reach a wide audience. Most have membership 
programs, including family memberships. Many offer programs designed 
for senior citizens. Some train students to serve as docents and 
``expert explainers''. In addition to the hands-on, experiential 
exhibits and programs that are the hallmark of science centers, many 
have large-format theaters, planetariums, and outdoor science parks. 
Through outreach programs, science centers also extend their work well 
beyond their buildings.
    School groups make up a significant percentage of science center 
and museum attendance--an estimated 17.7 million student visits 
worldwide in 2009 (12 million in the United States). But school field 
trips are just the beginning: most science centers offer demonstrations 
and workshops, school outreach programs, professional development for 
teachers, curriculum materials, science camps, overnight camp-in 
programs, and resources for home schoolers. Many also offer after-
school and youth employment programs.
    Last year the Congress--led by this subcommittee--appropriated 
about $1.4 billion for science, technology, engineering and mathematics 
(STEM) education through the National Science Foundation (NSF), the 
National Oceanic and Atmospheric Administration (NOAA), and the 
National Aeronautics and Space Administration (NASA).
    This subcommittee is singularly responsible for nearly 40 percent 
of all the Federal support for STEM education.
    There is a strong consensus that improving science, technology, 
engineering, and mathematics education is critical to the Nation's 
economic strength and global competitiveness in the 21st century. 
Reports have emphasized the need to attract and educate the next 
generation of American scientists and innovators. For example, the 
National Academies' 2005 report, Rising Above the Gathering Storm, 
recommends that the Nation increase its talent pool by vastly improving 
K-12 science and mathematics education. In order to improve STEM 
education, we must draw on a full range of learning opportunities and 
experiences, including those in informal, non-school settings. Informal 
science education can take place in a variety of places and through a 
wide variety of media such as science centers and museums, film and 
broadcast media, aquariums, zoos, nature centers, botanical gardens, 
and after-school programs. Informal learning can happen in everyday 
environments and through everyday activities as well.
    The Committee on Learning Science in Informal Environments was 
established by the National Research Council (NRC) of the National 
Academies to undertake a study of the status of, and potential for 
science learning in informal environments. In January 2009, the 
National Academies Committee released a report entitled Learning 
Science in Informal Environments: People Places, and Pursuits, which 
stated, ``Beyond the schoolhouse door, opportunities for science 
learning abound . . .'' The Academy found, among other things, that 
there is ample evidence to suggest that science learning takes place 
throughout the life span and across venues in non-school settings. 
Another key issue highlighted in the report is the role of informal 
STEM education in promoting diversity and broadening participation. The 
Academy found that informal environments can have a significant impact 
on STEM learning outcomes in historically underrepresented groups, and 
informal learning environments may be uniquely positioned to make STEM 
education accessible to all.

 VITAL FEDERAL SUPPORT FOR INFORMAL STEM EDUCATION IS PROVIDED BY NSF, 
                             NOAA AND NASA

    National Science Foundation.--Scientific discoveries and 
technological innovations have profound impact on individuals and 
societies. STEM education shapes our everyday lives and holds the 
potential to produce solutions to daunting problems facing the Nation. 
This prospect calls for unprecedented energy and innovative efforts to 
promote public understanding of--and engagement with--STEM, its 
processes, and implications. Informal learning settings offer learners 
of all ages enjoyable opportunities to become interested in STEM and 
more knowledgeable about the world around them. Such learning 
experiences foster a better informed citizenry and inspire young people 
to consider STEM careers in which they may help address societal 
challenges. NSF's Informal Science Education (ISE) program supports 
projects that promote lifelong learning of science, technology, 
engineering, and mathematics by the public through voluntary, self-
directed engagement in STEM-rich informal learning environments and 
experiences. The ISE program invests in projects that:
  --Advance knowledge through research and evaluation about STEM 
        learning in informal environments;
  --Design, implement, and study models, resources, and programs for 
        STEM learning in informal environments; and/or
  --Expand the capacity of professionals engaged in the work of 
        informal STEM education programs.
    The fiscal year 2011 budget for NSF's ISE program is $64.4 
million--2.4 percent below the fiscal year 2010 level. In fact, NSF 
support for ISE has been frozen in recent years at about $65 million 
since at least fiscal year 2007.
    National Oceanic and Atmospheric Administration.--Since 2005, 
NOAA's Office of Education has promoted the improvement of public 
environmental literacy through competitive education grants, also known 
as Environmental Literacy Grants. The recipients of Environmental 
Literacy Grants have consistently demonstrated: (1) alignment with 
NOAA's goals and NOAA's Education Strategic Plan; (2) a robust project 
evaluation plan; (3) partnership with NOAA offices and programs to 
leverage NOAA scientific, educational and human resources; and (4) the 
promotion of ocean and/or climate literacy--the components of 
environmental literacy closely tied to NOAA's mission. Additionally, 
NOAA strives to fund projects that complement other grant programs and 
educational efforts offered by other offices within NOAA, and by other 
Federal agencies, such as the U.S. Environmental Protection Agency, 
NASA and NSF.
    Successful NOAA projects catalyze change in K-12 and informal 
education through development of new partnerships, programs, and 
materials that not only increase knowledge of scientific phenomena, but 
also provide opportunities for the application of that knowledge to 
societal issues. To date 59 competitive awards have been made 
supporting a wide range of projects from teacher training, to 
experiential learning for youth and families, to the development of 
media products, and public opinion research.
    In the face of this progress, the administration's budget would 
reduce NOAA's education programs by over 28 percent.
    National Aeronautics and Space Administration.--NASA's Education 
program works to: foster a science, technology, engineering, and math 
workforce in fields that support NASA's strategic goals; attract 
students to the disciplines through a progression of education 
opportunities; and build strategic partnerships between formal and 
informal education providers. NASA's education programs have been 
evaluated as part of the administration's program assessment process 
with the following findings: NASA has taken several steps to improve 
the Education program's potential to strengthen and measure its 
performance. For instance, the agency developed a new education 
framework and implementation plan as well as new metrics by which to 
evaluate the program's achievement of intended outcomes; the program 
has made considerable progress in focusing the program's plans on 
achieving meaningful outcomes. The program has established baseline 
performance standards and has begun to collect and report some 
performance data against its new metrics; and the program has developed 
a solid plan and set aside resources to conduct independent evaluations 
of the portfolio's effectiveness and efficiency; now the program must 
implement that plan.
    Despite these improvements, the administration's budget for fiscal 
year 2011, NASA's education programs would decline by nearly 21 
percent.

                      ASTC AND EDUCATE TO INNOVATE

    As mentioned previously, the administration has recently released 
its latest edition of the biennial Science and Engineering Indicators 
report. This report says that the state of U.S. science and engineering 
is strong, but that U.S. dominance of world science and engineering has 
eroded significantly in recent years, primarily because of rapidly 
increasing capabilities among East Asian nations, particularly China. 
On the heels of that report, the administration announced a new set of 
public-private partnerships in the ``Educate to Innovate'' campaign 
committing more than $250 million in private resources to attract, 
develop, reward, and retain science, technology, engineering, and 
mathematics teachers. This initiative is responsive to data, presented 
in Indicators, showing that American 15-year-olds are losing ground in 
science and math achievement compared to their peers around the world.
    ASTC applauds the President's Educate to Innovate initiative and 
ASTC members are active participants in this campaign. ASTC also 
applauds the efforts of the private sector to commit more than $250 
million in resources to attract and retain K-12 STEM teachers. At the 
same time, we believe that any effective campaign to improve the 
quality and effectiveness of the STEM education provided to our 
students and teachers is grounded in a deeper appreciation by the 
public--and decisionmakers--in the importance of STEM education for the 
long term health and well-being of our Nation.
    It is for this very reason that on January 28, ASTC leadership met 
with officials of the Office of Science and Technology Policy to put 
forth a new ``Youth Inspired'' initiative that is comprised of two 
parts:
    ``Two Million Hours to the Future,'' capitalizes on the fact that 
science centers and science museums are key partners for supporting the 
Nation's youth in becoming the innovative and creative thinkers needed 
for the 21st century workforce. We propose that 300 science centers and 
science museums, representing each of the 50 States, could engage 
approximately 30 students per year through either afterschool or youth 
employment programs. With at least 1 hour of in-person contact per week 
per student, the initiative would cumulatively reach 2 million hours of 
science and personal development at the end of 3 years.
    ``Two Million Teachers to Inspire,'' is a national initiative that 
takes advantage of the important role that science centers play in 
developing and supporting STEM teachers in America's schools. Through 
the initiative--which will be supported in part by private and 
corporate funding and substantial in-kind institutional investment--
ASTC will collect, catalog, and share best practices in teacher 
professional development, providing a valuable resource for the 2 
million teachers our members impact every year.

                               CONCLUSION

    The reductions proposed by the administration for valuable informal 
STEM education programs at NSF, NOAA and NASA are counterproductive 
given all the concern expressed by public and private thought leaders 
regarding the importance of STEM education for the long term health and 
well being of the Nation. Informal STEM education programs reach over 
80 million people a year--children, parents, teachers, and even adult 
learners--with irreplaceable hands-on experiences that stimulate 
creativity and foster a valuable appreciation for the role of science 
and technology in the world around us--both today and tomorrow.
    To that end, ASTC urges the Congress--understanding the bounds of 
fiscal constraints--to continue to recognize the value of informal STEM 
education. ASTC respectfully requests the subcommittee to reverse the 
reductions proposed by the administration. In fact, to the maximum 
extent possible, ASTC suggests that given the fact these programs have 
remained relatively level since at least fiscal year 2008; they should 
be re-vitalized at a rate commensurate with the administration's intent 
to double the NSF over the next 10 years.
    Thank you for the opportunity to present these views. I would be 
happy to respond to any questions or provide additional information 
should it be needed by the subcommittee.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    On behalf of the American Society of Plant Biologists (ASPB) we 
submit this testimony for the official record to support the requested 
level of $7.424 billion for the National Science Foundation (NSF) for 
fiscal year 2011. The testimony also highlights the importance of 
biology, particularly plant biology, as the Nation seeks to address 
vital issues including climate change and energy security. ASPB would 
also like to thank the subcommittee for its consideration of this 
testimony and for its strong support for the basic research mission of 
the National Science Foundation.
    Our testimony will discuss:
  --Plant biology research as a foundation for addressing food, fuel, 
        climate change, and health concerns;
  --The rationale for robust funding for the National Science 
        Foundation while maintaining a well proportioned science 
        portfolio with support for all core science disciplines, 
        including biology; and
  --The rationale for continued support for NSF education and workforce 
        development programs that provide support for the future 
        science and technical expertise critical to America's 
        competitiveness.
    The American Society of Plant Biologists is an organization of more 
than 5,000 professional plant biologists, educators, graduate students, 
and postdoctoral scientists with members in all 50 States and 
throughout the world. A strong voice for the global plant science 
community, our mission--achieved through work in the realms of 
research, education, and public policy--is to promote the growth and 
development of plant biology, to encourage and communicate research in 
plant biology, and to promote the interests and growth of plant 
scientists in general.

  FOOD, FUEL, CLIMATE CHANGE, AND HEALTH--PLANT BIOLOGY RESEARCH AND 
                            AMERICA'S FUTURE

    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in ecosystems. Indeed, basic plant biology research is making 
many fundamental contributions in the areas of fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of basic biological principles that underpin improvements in the health 
and nutrition of all Americans. To go further, plant biology research 
can both help the Nation predict and prepare for the impacts of climate 
change on American agriculture, and make major contributions to our 
Nation's efforts to combat a warming climate.
    In particular, plant biology is at the interface of numerous 
scientific breakthroughs. For example, the interface between plant 
biology and engineering is a critical frontier in biofuels research. 
Similarly, the interface between plant biology and chemistry 
contributes to biofuel production, as well as the identification of 
novel, bioactive compounds for medical use. With the increase in plant 
genome sequencing and functional genomics, the interface of plant 
biology and computer science is essential to our understanding of 
complex biological systems ranging from single cells to entire 
ecosystems.
    Despite the fact that basic plant biology research--the kind of 
research funded by the NSF--underpins so many vital practical 
considerations, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact it has on multibillion dollar sectors like energy and 
agriculture.

           ROBUST FUNDING FOR THE NATIONAL SCIENCE FOUNDATION

    The American Society of Plant Biologists encourages the 
subcommittee to fund the National Science Foundation at robust levels 
that would keep the Foundation's budget on a doubling path over the 
next several years.
    The fiscal year 2011 NSF budget request would fund the NSF at 
$7.424 billion in fiscal year 2011, keeping the Foundation budget on a 
path for doubling. ASPB enthusiastically supports this request and 
encourages proportional funding increases across all of the science 
disciplines funded by the NSF.
    As scientific research becomes increasingly interdisciplinary with 
permeable boundaries, a diverse portfolio at the NSF is needed to 
maintain cutting-edge research and innovation. The most pressing 
problems of the 21st century will not be solved by one science or 
method, but by numerous innovations across the research spectrum. This 
funding enables the scientific community to address challenging and 
basic cross-cutting research questions regarding climate change, 
sustainable food supply, energy, and health, all of which are impacted 
by or involve basic research in plant biology supported by the NSF. 
This idea is reflected in the National Research Council's report ``A 
New Biology for the 21st Century: Ensuring the United States Leads the 
Coming Biology Revolution.''
    The NSF Directorate for Biological Sciences (BIO) is a critical 
source of funding for nonbiomedical research, supporting innovative 
research ranging from the molecular and cellular levels to the 
ecosystem and even biosphere levels. Much of this funding has been 
provided to individual investigators; however, the NSF has also 
supported major research programs over the longer term. These 
investments continue to have significant pay offs, both in terms of the 
knowledge directly generated and in deepening collaborations and 
fostering innovation among communities of scientists.
    The BIO Plant Genome Research Program (PGRP) is an excellent 
example of a high impact program, which has laid a strong basic 
research foundation for understanding plant genomics as it relates to 
energy (biofuels), health (nutrition and functional foods), agriculture 
(impact of climate change on agronomic ecosystems), and the environment 
(plants' roles as primary producers in ecosystems). The American 
Society of Plant Biologists asks that the PGRP continue to be a 
separate funding line within the NSF budget, as in years past, and that 
the PGRP continues sustained funding growth over multiple years to 
address 21st century biology issues. For fiscal year 2011 ASPB asks 
that PGRP be funded at the highest possible level.
    Without significant and increased support for BIO and the NSF as a 
whole, promising fundamental research discoveries will be delayed and 
vital collaborations around the edges of the disciplines will be 
postponed, thus limiting the ability to respond to the pressing 
scientific problems that exist today. Increased funding for the NSF 
with proportional increases throughout the Foundation will also serve 
as a catalyst to encourage young people to pursue a career in science. 
Low funding rates throughout the NSF can be discouraging to early 
career scientists and dissuade them from pursuing a career in 
scientific research.

 CONTINUED SUPPORT FOR NSF EDUCATION AND WORKFORCE DEVELOPMENT PROGRAMS

    The National Science Foundation is a major source of funding for 
the education and training of the American scientific workforce. The 
NSF's education portfolio impacts students at all levels, including K-
12, undergraduate, graduate, and postgraduate. Importantly, the 
Foundation also offers programs focused on outreach to and engagement 
of underrepresented groups.
    The Integrative Graduate Education and Research Traineeship (IGERT) 
program is just one example of NSF's commitment to education. IGERT is 
successful in fostering the development of novel programs that provide 
multidisciplinary graduate training. As discussed above, it is at the 
intersections of traditional disciplines that the greatest 
opportunities for scientific advancement can be found. The American 
Society of Plant Biologists encourages expansion of the IGERT program 
in order to foster the development of a greater number of innovative 
science leaders for the future.
    Furthermore, ASPB urges the subcommittee to revitalize and expand 
NSF's fellowship programs--such as the Postdoctoral Research 
Fellowships in Biology, the Graduate Research Fellowship (GRF) and the 
Faculty Early Career Development (CAREER) programs--and, thereby, to 
provide continuity in funding opportunities for the country's most 
promising early career scientists. Additionally, such continuity and 
the broader availability of prestigious and well-supported fellowships 
may help retain underrepresented groups in the science, technology, 
engineering, and mathematics (STEM) fields. ASPB further encourages the 
NSF to develop ``transition'' awards that will support the most 
promising scientists in their transition from postdoctoral research to 
full-time, independent, tenure-track positions in America's 
universities. The NSF might model such awards after those offered by 
the NIH and initially championed by private philanthropies, such as the 
Burroughs Wellcome Fund and the Howard Hughes Medical Institute.
    ASPB urges the NSF to further develop programs aimed at increasing 
the diversity of the scientific workforce by leveraging professional 
scientific societies' commitment to provide a professional home for 
scientists throughout their education and careers to help promote and 
sustain broad participation in the sciences. ASPB is also concerned 
over the proposed change to consolidate the Historically Black Colleges 
and Universities Undergraduate Program, the Louis Stokes Alliances for 
Minority Participation program, and the Tribal Colleges and 
Universities Program into the Comprehensive Broadening Participation of 
Undergraduates in STEM program. Discreet focused training and 
infrastructure support programs for Hispanic Serving Institutions, 
Historically Black Colleges and Universities, and Tribal Colleges and 
Universities remain vitally important. These institutions are key 
producers of members of the STEM workforce, therefore ASPB recommends 
that distinct funding amounts be specified for Hispanic Serving 
Institutions, Historically Black Colleges and Universities, and Tribal 
Colleges and Universities within the proposed Comprehensive Broadening 
Participation of Undergraduates in STEM program.
    Finally, as this subcommittee oversees the White House Office of 
Science and Technology Policy (OSTP) appropriations, ASPB asks that the 
subcommittee direct OSTP to coordinate interagency development and 
implementation of a strategy to address the recommendations made in the 
National Research Council's (NRC) report ``A New Biology for the 21st 
Century: Ensuring the United States Leads the Coming Biology 
Revolution.'' The report accurately lays out the current status, 
potential and challenges for ``New Biology'' and how increased efforts 
in these areas can address major societal and environmental challenges. 
The National Science Foundation has a critical role to play in an 
interagency strategy and initiative in this area, as do other agencies 
such as the Department of Energy, the U.S. Department of Agriculture, 
and the National Institutes of Health.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
the American Society of Plant Biologists if we can be of any assistance 
in the future.
                                 ______
                                 
                      Prepared Statement of Oceana

    Dear Chairwoman Mikulski, Ranking Member Shelby and members of the 
subcommittee, on behalf of more than 320,000 members of Oceana, the 
world's largest international organization focused solely on ocean 
conservation, I submit the following testimony on the fiscal year 2011 
budget for the National Oceanic and Atmospheric Administration (NOAA) 
within the Department of Commerce. I request that this testimony be 
submitted for the official record.
    NOAA's responsibilities are wide-ranging and essential to healthy 
oceans, public safety, and a vital economy. The agency provides 
fisheries management, coastal and marine conservation, weather 
forecasting, climate monitoring, and many other vital services. Despite 
the indispensable products and services that NOAA provides, the agency 
has been chronically underfunded. At first glance, the President's 
budget for fiscal year 2011 appears to buck this trend by increasing 
NOAA's funding to $5.5 billion, but the vast majority of that increase 
is directed toward Procurement, Acquisition, and Construction (PAC) 
account while Operations, Research, and Facilities (ORF) account 
remains relatively flat-funded.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As evidenced above, the seemingly sharp increase in NOAA funding is 
primarily directed toward the PAC account. The vast amount of the 
increase in the PAC account is directed to satellites. While the 
satellite program is important and in need of increased funding, this 
increase must not come at the expense of NOAA's programmatic work, 
which operates under the ORF account. Funding for ORF has essentially 
idled since 2004, which, when accounting for inflation, has resulted in 
less money for ocean conservation and management.
    Oceana strongly encourages the subcommittee to provide $8 billion 
for NOAA in the fiscal year 2011 Commerce, Justice, Science 
appropriations bill. NOAA provides crucial services which are 
fundamental to the health of our oceans, coastal communities, and 
economy. While we are pleased that the President's request calls for 
increased funding for NOAA, many programs in the ORF account remain 
severely underfunded, and we ask that resources are directed toward 
marine research, management, and conservation programs including the 
following:

                NATIONAL MARINE FISHERIES SERVICE (NMFS)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The President's fiscal year 2011 budget requests for the National 
Marine Fisheries Service, NMFS, is less than the previous year's 
enacted level. This decrease is disappointing, as many NMFS programs 
remain underfunded, while the President himself has cited challenges 
facing our oceans, including, ``habitat loss, fishing impacts, invasive 
species, [and] disease.'' Increased funding is needed to address these 
problems and to strengthen the following programs:
Fishery Observer Programs--$50.9 Million (Fiscal Year 2010 Enacted--
        $41.1 Million)
    Fishery observers are independent scientists who collect data 
aboard working fishing vessels, and record the entire composition of 
what is brought aboard the boat. This is a more complete record than 
landings data which only record what is brought to port, failing to 
account for bycatch, the incidental catch of non-target fish species or 
marine wildlife. This bycatch is thrown overboard, often dead or dying. 
According to NMFS, 85 fisheries require observer coverage and only 42 
of those have any amount of coverage. Of those 42, less than one-half 
have adequate levels of coverage. Observer coverage needs to increase 
to provide accurate and precise estimates of bycatch in commercial 
fisheries to allow for better fishery management.

Stock Assessments--$60.0 Million (Fiscal Year 2010 Enacted--$51.0 
        Million)
    Fishery management must be supported by adequate data and science. 
Quantitative stock assessments provide the scientific basis for setting 
catch limits that allow for the maximum fishing effort while preventing 
overfishing. Strong science leads to healthy fisheries and a healthy 
economy. According to NOAA, only 128 of 230 major U.S. fish stocks were 
considered to have inadequate stock assessments in 2007. Based on an 
estimated cost of approximately $1 million per stock assessment, NOAA 
would require an additional $100 million above last year's funding in 
order to develop adequate stock assessments for all 230 major stocks, 
so by comparison, the increase sought is modest.
Enforcement--$75.0 Million (Fiscal Year 2010 Enacted--$65.7 Million)
    Fisheries laws are ineffectual without adequate enforcement. 
Successful implementation of new legal requirements for annual catch 
limits (ACLs) and accountability measures in all U.S. fisheries will 
demand increased funding. Additional resources are needed to establish 
a program for enforcement and surveillance of Illegal, Unregulated and 
Unreported (IUU) fishing within the existing NMFS fisheries enforcement 
program. IUU fishing is a major threat to fisheries sustainability and 
value, marine habitat, and the livelihoods of fishermen and local 
communities. Increased funding would be used to identify and take 
action against vessels engaged in IUU fishing.

Deep Sea Coral Conservation--$7.0 Million (Fiscal Year 2010 Enacted--
        $2.5 Million)
    The Magnuson Stevens Fishery Conservation and Management 
Reauthorization Act of 2006 (MSRA) directed NOAA to establish a Deep 
Sea Coral Research and Technology Program, to map coral habitats and 
help scientists understand deep sea coral biology and ecology. These 
delicate, slow-growing corals often serve as nurseries for commercially 
and ecologically important fish and a variety of marine wildlife. These 
corals are extremely vulnerable to destructive fishing gear, and 
increased funding is necessary to map the location of, and minimize 
gear impacts on deep sea coral habitat.

Sea Turtle Research and Conservation--$26.4 Million (Fiscal Year 2010 
        Enacted--$14.6 Million)
    Oceana urges the subcommittee to reject the administration's 
funding cut to marine turtle programs, and instead, expand upon 
existing funding. Sea turtles have been swimming the oceans for more 
than 100 million years, yet today, all six species of sea turtles in 
U.S. waters are listed as either endangered or threatened under the 
Endangered Species Act (ESA). Commercial fisheries alone are authorized 
to kill 10,000 and injure an additional 334,000 turtles each year. This 
mortality is compounded by other challenges such as marine debris, 
pollution, coastal development, vessel strikes, and climate change. 
Additional funding is needed to research the cumulative impact of these 
threats, and to ensure the recovery of imperiled sea turtle 
populations.

Marine Mammal Protection--$82.0 Million (Fiscal Year 2010 Enacted--
        $49.7 Million)
    Oceana requests that funding be restored to fiscal year 2005 
enacted level of $82 million. There are 13 domestic species of marine 
mammal that are currently protected under the ESA, all marine mammals 
are protected under the Marine Mammal Protection Act, and NMFS is the 
agency primarily responsible for their management. Increased funding is 
needed for updated stock assessments and research cruises, bycatch 
monitoring and reporting, research on avoidance and bycatch reduction 
techniques, the formation of take reduction teams, and implementation 
and enforcement of conservation measures for marine mammals.

                         NATIONAL OCEAN SERVICE

Oil Spill Response and Restoration--$29.2 Million (Fiscal Year 2010 
        Enacted--$10.8 Million)
    NOAA's office of Response and Restoration (OR&R) is the lead 
trustee for the public's coastal natural resources and the scientific 
leader for oil spill response, assessment, and restoration. OR&R's 
mission is to respond to, protect and restore habitats, communities and 
economies injured by oil spills, hazardous waste sites, and vessel 
groundings. Renewed interest in oil drilling in the ocean threatens 
marine life and ocean ecosystems. Starting in fiscal year 2004 OR&R saw 
a steady decrease in its funding levels calling into question its 
ability to respond to two major events simultaneously. Increased 
funding levels are essential if OR&R is to return to its historic 
funding levels and for OR&R to complete its designated mandates.

Integrated Ocean Acidification Initiative--$15.0 Million (New Program 
        in Fiscal Year 2011)
    Our oceans absorb approximately 30 percent of anthropogenic carbon 
dioxide emissions, amounting to more than 460 billion tons since the 
Industrial Revolution. Once the carbon dioxide is absorbed, it reacts 
with seawater to form carbonic acid. Among other things, the increased 
acidity prevents marine organism, such as pterepods, mussels, oysters, 
lobsters, and corals, from forming their calcified shells or skeletons. 
The acidity of our oceans' surface water has already increased by 
approximately 30 percent, and while the chemistry of this process is 
well understood, the breadth of the impact that it will have on marine 
ecosystems remains unknown. In 2009, Congress passed the Federal Ocean 
Acidification Research and Monitoring Act which authorized 
appropriations for ocean acidification research divided amongst NOAA 
and NSF. This money will support new technologies, monitoring systems, 
improved modeling, and dedicated research programs.
    New Programs in NOAA this year include a new Climate Service and 
work on Coastal and Marine Spatial Planning, as well as participation 
in the Ocean Policy Task Force, as directed by President Obama. New 
funding will be required to fulfill these new directives:
    National Climate Service.--Will bring together all the agency's 
climate science and products and make them available in one location, 
which will allow for improved communication and coordination within the 
agency, and will enhance accessibility to decisionmakers and the 
general public. The Climate Service will build upon current climate 
research, observations, modeling, predictions and assessments, but 
aggregate the information in one place.
    National Ocean Policy.--An Interagency Ocean Policy Task Force was 
established on June 12, 2009 by President Obama. The Task Force was 
charged with developing recommendations for a comprehensive national 
policy for the protection, maintenance and restoration of our oceans, 
coasts and Great Lakes; a structure to coordinate and implement the 
policy throughout the Federal Government; and a framework for coastal 
and marine spatial planning (CMSP). At the onset of President Obama's 
administration, he said, ``We have a stewardship responsibility to 
maintain healthy, resilient, and sustainable oceans, coasts, and Great 
Lakes resources for the benefit of this and future generations.'' Now, 
NOAA must be provided the resources to follow through.
    Coastal and Marine Spatial Planning.--Is a tool to implement the 
National Ocean Policy throughout U.S. waters and address the ever-
growing demands on our oceans such as renewable energy development, 
commercial and recreational fisheries, protecting marine wildlife, 
habitat protection, marine shipping, aquaculture, recreation, and many 
other activities. An initial investment in MSP will allow the United 
States to take a comprehensive approach to managing our coasts and 
oceans, rather than relying on sector-by-sector management. MSP will 
allow for improved planning with an emphasis on science-based 
decisionmaking.
    Thank you for your consideration of these recommendations.
    Note.--Oceana received no funding from a Federal grant (or subgrant 
thereof) or contract (or subcontract thereof) in the current fiscal 
year or either of the two previous fiscal years.
                                 ______
                                 
  Prepared Statement of the National Association of State Alcohol and 
                       Drug Abuse Directors, Inc.

    Chairwoman Mikulski, Ranking Member Shelby, members of the 
subcommittee, thank you for your leadership on issues related to 
addiction. I serve as executive director of the National Association of 
State Alcohol and Drug Abuse Directors or NASADAD, which includes our 
component groups the National Prevention Network (NPN) and National 
Treatment Network (NTN). Our members are responsible and accountable 
for planning, managing and improving each State's substance abuse 
prevention, treatment and recovery system.
    State Substance Abuse Agency-supported Services to Criminal Justice 
Populations.--In a NASADAD inquiry of the membership released in 
February 2009, State substance abuse directors were asked to estimate 
the percentage of cases referred to them from the criminal justice 
system. NASADAD found that 13 States estimated between 31 and 40 
percent; 12 States estimated between 41 and 50 percent; 10 States 
estimated between 51 and 60 percent; and 3 States estimated between 61 
and 70 percent of referrals came from the criminal justice system.
    The principle source of funding for NASADAD members is SAMHSA's 
Substance Abuse Prevention and Treatment (SAPT) Block Grant, which 
represents 40 percent of State substance abuse agency expenditures. Yet 
funding for the SAPT Block Grant has been stagnant over the past few 
years. While we certainly appreciate the increase of $20 million for 
the program in fiscal year 2010, it is estimated that an additional 
$403.7 million was needed just to maintain services at fiscal year 2004 
levels.
    As a result, DOJ-supported programs represent an extremely critical 
resource for State substance abuse agencies as they provide services to 
such a large percentage of criminal justice populations. A critical 
component of this work is the promotion of policies that require strong 
and direct linkages between Federal programs pertaining to addiction 
and State substance abuse agency directors. This direct linkage helps 
promote clinically appropriate standards of care; accurate performance 
and outcome data; and effective, efficient and coordinated service 
delivery.
    Fiscal Year 2011 Recommendations.--We respectfully ask for your 
support of the following recommendations as you consider fiscal year 
2011 appropriations for DOJ programs:
  --Residential Substance Abuse Treatment (RSAT)--$45 million.--NASADAD 
        supports $45 million, an increase of $15 million compared to 
        fiscal year 2010, for the Residential Substance Abuse Treatment 
        (RSAT) program. RSAT benefits all 50 States by awarding grants 
        for the establishment of drug treatment programs within State 
        and local correctional facilities. These grants call for 
        collaboration between the criminal justice administrators and 
        State substance abuse agencies to help ensure that evidence-
        based practices and qualified personnel are available to assist 
        offenders address their substance abuse problems. With an 
        estimated 80 percent of all offenders in the criminal justice 
        system having some level of substance abuse problem, programs 
        like RSAT that offer treatment during incarceration, matched 
        with aftercare services, are vital to any successful reentry 
        strategy.
  --Enforcing Underage Drinking Laws (EUDL)--$25 million.--NASADAD is 
        extremely concerned with the administration's proposal to 
        consolidate all title V programs within the Office of Juvenile 
        Justice and Delinquency Prevention (OJJDP) into one funding 
        stream. This proposal would have the effect of eliminating the 
        EUDL program which is housed within title V.
    The EUDL program is allocated as a block grant to every State and 
the District of Columbia in order to help reduce underage drinking and 
improve public safety through the enforcement of laws, policies and 
sanctions. The EUDL program also includes discretionary grant portfolio 
to help local jurisdictions initiate and maintain underage drinking 
laws programs. Overall, EUDL encourages collaboration between State 
agencies, which is critical when establishing a comprehensive Statewide 
underage drinking strategy. In addition to alcohol compliance checks, 
States use the funds to help local coalitions, schools and communities 
expand their substance abuse prevention efforts and their work with law 
enforcement. EUDL is a critical tool that helps law enforcement and the 
prevention and treatment field work together to reduce the negative 
effects of underage drinking.
    The proposal to eliminate EUDL funding arrives during a time when 
substance abuse prevention resources are dwindling. In fiscal year 
2010, the Department of Education's Safe and Drug Free Schools and 
Communities (SDFSC)--State Grants program was eliminated--representing 
a loss of approximately $300 million. In fiscal year 2011, the 
administration is proposing a $9 million decrease in the Substance 
Abuse and Mental Health Services Administration's (SAMHSA) Drug Free 
Communities (DFC) grant program. The loss of EUDL funds would represent 
another devastating loss for State substance abuse prevention systems. 
NASADAD requests level funding, or $25 million, for the EUDL program.
    Second Chance Act Programs.--NASADAD is supportive of funding for 
Second Chance Act programs. The statute itself notes the importance of 
State substance abuse agencies, noting ``successful reentry programs 
require close interaction and collaboration with each State's Single 
State Authority for Substance Abuse as the program is planned, 
implemented and evaluated.'' While NASADAD supports finding for all 
Second Chance Act programs, we offer specific recommendations for the 
following:
  --Adult and Juvenile Offender State and Local Reentry Demonstration 
        Projects--$50 million.--The Adult and Juvenile Offender State 
        and Local Reentry Demonstration Projects provide grants to 
        State and local governments to coordinate reentry efforts and 
        establish best practices. Allowable uses of the funds include 
        substance abuse treatment, employment services, housing, mental 
        health treatment, mentoring, among other things. The 
        authorization also requires a strong linkage with the State 
        substance abuse agency. NASADAD believes that the projects are 
        vital in helping offenders successfully reenter society and 
        requests $50 million in fiscal year 2011, an increase of $13 
        million compared to fiscal year 2010.
  --State, Tribal and Local Reentry Courts--$15 million.--The State, 
        Tribal and Local Reentry Courts program authorizes the Attorney 
        General to make competitive grants to States, local 
        governments, and Indian tribes that improve drug treatment in 
        prisons, jails, juvenile facilities; develop and implement 
        programs for ``long-term substance abusers'' through 
        assessment, treatment and case management; provide recovery 
        support services; and establish pharmacological treatment 
        services as part of drug treatment programs. Each eligible 
        applicant must certify that the program has been developed in 
        consultation with the State substance abuse agency. NASADAD 
        requests $15 million for the reentry courts in fiscal year 
        2011, representing an increase of $5 million compared to fiscal 
        year 2010.
  --Grants for Family-Based Substance Abuse Treatment--$12.5 million.--
        The Second Chance Act authorized grants to States, local 
        governments and Indian tribes to develop and implement 
        comprehensive family-based substance abuse treatment programs. 
        The program must ensure coordination and consultation with the 
        State substance abuse agency. NASADAD requests $12.5 million 
        for this program in fiscal year 2011, representing an increase 
        of $5 million compared to fiscal year 2010.
  --Offender Reentry Substance Abuse and Criminal Justice Collaboration 
        Program--$15 million.--The Second Chance Act authorized 
        competitive grants to States, local governments, and Indian 
        tribes for the purpose of improving drug treatment programs in 
        prisons, jails, juvenile facilities and reducing drug and 
        alcohol use by ``long-term substance abusers.'' Grants may 
        support assessments, treatment, case management services, 
        recovery support, and pharmacological drug treatment services 
        as part of any drug treatment program. Each eligible applicant 
        must certify that the program has been developed in 
        consultation with the State substance abuse agency and certify 
        the program is clinically appropriate and provides 
        comprehensive treatment. NASADAD requests $15 million for this 
        program in fiscal year 2011, for an increase of $2 million 
        compared to fiscal year 2010.
    Drug Courts--$65 million.--DOJ's Bureau of Justice Assistance (BJA) 
reports that all 50 States and the District of Columbia, several Native 
American Tribal courts, two territories and two Federal courts operate 
drug courts. Drug courts work to address the high level of drug use and 
abuse found within the non-violent offender population by linking them 
to substance abuse treatment programs. Reports have shown drug courts 
to improve retention rates--a significant factor in recovery--and 
reduce recidivism. The Association also encourages strong linkages with 
State substance abuse agencies in the planning and implementation of 
the Drug Court Program. This partnership will ensure that drug courts 
use clinical treatment standards set by the State substance abuse 
agency, discourage system fragmentation, promote sustainability and 
encourage the use of common client level performance and outcomes data.
    NASADAD opposes the administration's fiscal year 2011 proposal to 
consolidate the Drug Court and Mentally Ill Offender Treatment and 
Crime Reduction Act (MIOTCRA) programs into a Problem Solving Court 
Program. The Association recommends stakeholder dialogue and consensus 
before any such changes are proposed. NASADAD recommends implementing 
$65 million for the Drug Court Program in fiscal year 2011, 
representing an increase of $20 million compared to fiscal year 2010.
    Mentally Ill Offender Act Program--$15 million.--The Mentally Ill 
Offender Treatment and Crime Reduction Act (MIOTCRA) is an authorized 
program aimed at preventing the mentally ill and those with co-
occurring mental health and substance use disorders from revolving in 
and out of the criminal justice system without appropriate treatment. 
Again, the Association remains concerned about the proposal to 
consolidate the MIOTCRA program with the Drug Court Program. While one 
aspect of the MIOTCRA program focuses on mental health courts, a large 
piece of the program seeks to foster collaboration between the criminal 
justice, mental health and substance abuse agencies to ensure that 
mentally ill offenders receive the appropriate treatment services they 
need. We hope that Congress will provide $15 million for the MIOTCRA 
program in fiscal year 2011, representing an increase of $3 million 
compared to fiscal year 2010.
    Byrne/Justice Assistance Grants (JAG)--$1.1 billion.--The Edward 
Byrne Memorial Justice Assistance Grant (JAG) program is the primary 
provider of Federal funding for criminal justice activities to State 
and local jurisdictions. This program supports a broad range of 
activities including education, prevention and treatment for substance 
use. Specifically, the 2007 application notes that a core purpose area 
is drug treatment programming. NASADAD encourages strong linkages with 
State substance abuse agencies in the planning and implementation of 
Byrne/JAG. NASADAD joins our criminal justice coalition partners in 
calling for the authorized funding level of $1.1 billion in fiscal year 
2011.
    Appreciation DOJ-SAMHSA Partnership.--NASADAD recognizes the work 
of DOJ and SAMHSA as they partner on issues pertaining to addiction and 
crime. This work has moved forward under the leadership of Ms. Laurie 
Robinson, Assistant Attorney General, Office of Justice Programs (OJP); 
Ms. Pam Hyde, SAMHSA Administrator; Dr. Eric Broderick, SAMHSA's Deputy 
Administrator; Dr. H. Westley Clark, Director of the Center for 
Substance Abuse Treatment (CSAT); and others.
    Thank you for the opportunity to provide input. We look forward to 
working with the subcommittee on these important issues.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance

    The Natural Science Collections Alliance (NSC Alliance) appreciates 
the opportunity to provide testimony about the President's fiscal year 
2011 budget request for the National Science Foundation (NSF). We 
encourage Congress to appropriate the President's requested $7.424 
billion for NSF.
    NSC Alliance is a nonprofit association that supports natural 
science collections, their human resources, the institutions that house 
them, and their research activities for the benefit of science and 
society. We are comprised of over 100 institutions who are part of an 
international community of museums, botanical gardens, herbariums, 
universities and other institutions that house natural science 
collections and utilize them in research, exhibitions, academic and 
informal science education, and outreach activities.
    The NSF drives scientific and general economic innovation and 
supports job creation through research grant awards to scientists and 
research institutions, supporting the acquisition of research 
instruments and investments in research infrastructure, and supporting 
the education and training of undergraduate and graduate students. 
These and other NSF programs underpin the Nation's research enterprise. 
Research funded by NSF generates knowledge and ideas that spur economic 
growth, stimulate innovation, and improve our understanding of the 
world in which we live.
    The President's budget request for fiscal year 2011 would invest 
$6.019 billion in the Research and Related Activities (R&RA) 
programmatic accounts. Through R&RA, the agency supports innovative 
research that advances the frontiers of our natural, physical and 
social science disciplines. Included within this request is $767.81 
million for the Biological Sciences Directorate (BIO), a 7.5 percent 
increase over the fiscal year 2010 enacted.
    The President's budget would provide the Geosciences Directorate 
(GEO) with $955.3 million in fiscal year 2011, a 7.4 percent increase.
    As the primary Federal funder of basic biological research, BIO 
serves a vital role in ensuring our Nation's global leadership in the 
biological sciences. BIO provides 68 percent of Federal grant support 
for fundamental biological research conducted at our Nation's 
universities and other nonprofit research centers, such as natural 
history museums. The Directorate supports transformative research that 
has improved our understanding of complex living systems and is helping 
to address major new challenges--mitigating and adapting to climate 
change, understanding and conserving biodiversity, and developing new 
bio-inspired technologies.
    NSF provides essential support for our Nation's natural science 
collections. These research centers enable scientists and students to 
study the data of life for the history of the planet, conduct modern 
biological, geological, cultural, and environmental research, and 
provide undergraduate and graduate students with the opportunity to 
learn directly from nature.
    The President's budget request for NSF includes important funding 
for natural science collections. Ten million dollars is allocated to 
continue efforts to digitize and network U.S. specimen-based research 
collections. This funding is desperately needed to increase access to 
the data and specimens in our Nation's scientific collections. 
Collections play a central role in many fields of biological research, 
including disease ecology and predicting outbreaks of disease, 
biodiversity, and climate change. They also provide critical 
information about existing gaps in our knowledge of life on Earth.
    The importance of scientific collections to our Nation's research 
infrastructure was recognized by the Federal Interagency Working Group 
on Scientific Collections, which reported that: ``. . . scientific 
collections are essential to supporting agency missions and are thus 
vital to supporting the global research enterprise.''
    The fiscal year 2011 budget request includes important funding to 
continue efforts to better understand biodiversity. Funding is included 
for cross-disciplinary research to define the impacts of biodiversity 
on ecosystem services and human well-being. Additionally, the Science, 
Engineering, and Education for Sustainability (SEES) program would 
continue to study the scope and role of biodiversity in climate 
adaptation and ecosystem sustainability.
    Within the R&RA program, GEO provides some support for research and 
student training opportunities at natural science collections. GEO 
supports cross disciplinary research on the interactions between 
Earth's living and non-living systems--research that has important 
implications for our understanding of climate change, water and natural 
resource management, and biodiversity.
    The President's budget provides important funding for the Informal 
Science Education program within the Education and Human Resources 
division. This program works to advance our understanding of informal 
science, technology, engineering, and mathematics (STEM) learning. This 
program supports projects that create tools and resources for STEM 
educators working in science museums and outside of traditional 
classrooms. The Informal Science Education program builds professional 
capacity for research, development, and practice in the field. The 
administration's fiscal year 2011 budget would decrease funding for the 
program by $1.6 million from fiscal year 2010 enacted. This program is 
too important to the future of our Nation to have its budget cut. We 
encourage Congress to restore the proposed cut and to provide important 
new funding for the Informal Science Education program.
    A sustained Federal investment in NSF is prudent. Public 
investments in biological sciences research have been shown to generate 
a $2 to $10 return on each dollar invested. The President's budget 
request for NSF will help spur economic growth and innovation and 
continue to build scientific capacity at a time when our Nation is at 
risk of being outpaced by our global competitors. Please support an 
investment of $7.424 billion in NSF for fiscal year 2011.
    Thank you for your consideration of this request.
                                 ______
                                 
       Prepared Statement of the Marine Fish Conservation Network

    On behalf of the nearly 200 environmental organizations, fishing 
associations, aquariums, and marine science groups dedicated to 
conserving marine fish and achieving sustainable fisheries, the Marine 
Fish Conservation Network submits the following testimony for the 
record on the fiscal year 2010 budget for National Marine Fisheries 
Service (NMFS) within the National Oceanic and Atmospheric 
Administration (NOAA). For fiscal year 2011, the Network is asking the 
subcommittee to increase funding for core fisheries conservation and 
management programs $69.2 million above the President's fiscal year 
2011 budget request, in the following program areas:

                               NMFS FISHERIES RESEARCH AND MANAGEMENT BUDGET LINES
                                          [In millions of dollars \1\]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal Year
                                                                    Fiscal Year        2011         Fisal Year
                                                                   2010 Enacted     President's      2011 MFCN
                                                                      Budget          Budget          Request
----------------------------------------------------------------------------------------------------------------
Expand annual stock assessments.................................            50.9            51.7            61.7
Survey and monitoring...........................................            23.7            24.1            30.0
Fisheries statistics............................................            21.0            21.4            32.4
Observer program................................................            41.0            38.8            60.0
Cooperative research............................................            17.5             7.1            17.1
Reducing bycatch................................................             3.4             3.4            10.0
Reduce fishery impacts to EFH...................................             0.5             0.5             5.0
----------------------------------------------------------------------------------------------------------------
\1\ Numbers rounded to nearest $100,000.

    NOAA and NMFS are responsible for the management and conservation 
of fisheries resources that are the economic lifeblood of many coastal 
communities, but NOAA Fisheries has long been underfunded and needs 
additional resources to meet its conservation mandates for 
fisheries.\1\
---------------------------------------------------------------------------
    \1\ See, for instance, USCOP (2004), pp. 274-304, and NOAA/NMFS, 
Requirements for Improved and Integrated Conservation of Fisheries, 
Protected Resources and Habitat, January 2003.
---------------------------------------------------------------------------
    Recent budget increases supported by this subcommittee have enabled 
NMFS to expand its data collection and stock assessment capabilities, 
but significantly more support is needed to address the needs of our 
Nation's fisheries. For instance, NOAA's own analysis indicates that 
current funding levels for expanded stock assessments provide the 
capability to assess less than 60 percent of the 230 major fish stocks 
that comprise the Fish Stock Sustainability Index (FSSI).\2\ Without 
increased funding for improved data collection and expanded stock 
assessments, many fishery annual catch limits (ACLs) will be determined 
without assessments or using assessments that are infrequently updated. 
In such cases, fishery managers are compelled to set ACLs lower to 
account for the higher uncertainty and risk of overfishing. Funding to 
improve stock assessments decreases uncertainty and therefore may allow 
increased fishing opportunities.
---------------------------------------------------------------------------
    \2\ See President's fiscal year 2010 budget request, Congressional 
Submission, Exhibit 13, pp. 215-217.
---------------------------------------------------------------------------
    Additional resources are also needed to support improved data 
collection and management of our recreational fisheries. Despite their 
often sizeable economic importance to coastal communities, much less 
data is collected from recreational fisheries than commercial 
fisheries.\3\ The lack of timely recreational fisheries data has 
created situations in which recreational fisheries must be managed 
using Marine Recreational Fisheries Statistics Survey (MRFSS) data that 
are not designed for the purpose of preventing fisheries from exceeding 
ACLs. We urge the subcommittee to address this shortcoming and provide 
funding for a recreational fishery data collection system that 
prioritizes the timely collection and analysis of recreational catch 
data.
---------------------------------------------------------------------------
    \3\ USCOP (2004), p. 281.
---------------------------------------------------------------------------
    Therefore, we request increases in the following NMFS Fisheries 
Management and Research programs for activities related to the 
collection of baseline data collection supporting the implementation of 
the new mandates and requirements of the MSRA aimed at ending 
overfishing and achieving sustainable, productive fisheries:
    Expand Stock Assessments: +$10 Million Over the President's Request 
for a Total of $61.7 Million.--The Omnibus Appropriations Act of 2010 
funds this program at NOAA's requested fiscal year 2010 level of $50.9 
million. While we welcome and support the increase in funding, it is 
not sufficient to achieve the agency's goal of developing stock 
assessments for all 230 major stocks in the Fish Stock Sustainability 
Index (FSSI). Fishery managers have substantially greater confidence 
that catch limits will prevent overfishing when the ACLs are based on 
an assessment. The requested funding level we request in fiscal year 
2011 is needed to ramp up the capability to provide stock assessments 
for all major fisheries. Timely, updated stock assessments will reduce 
the scientific uncertainty and may enable fishery managers to set 
higher ACLs while still preventing overfishing and rebuilding 
overfished stocks.
    Survey and Monitoring Projects: +$6 Million Over the President's 
Request for a Total of $30 Million.--The enacted fiscal year 2010 
budget restores funding for this program to the level sought by NOAA in 
the fiscal year 2009 budget request in recognition of the fact that 
this activity provides essential baseline data needed for developing 
and updating stock assessments. Nevertheless, many regions will 
continue to experience chronic underfunding of basic resource surveys 
and data collection (both fishery-independent resource surveys and 
fishery catch sampling and monitoring) required to support stock 
assessment development and scientific recommendations for catch limits. 
We request that fiscal year 2011 funding for this program be increased 
to at least $30 million in order to support expanded resource surveys 
and improved stock assessments in all regions, for both commercial and 
recreational fisheries. Additional funding will improve scientific 
estimates of stock size and reduce uncertainty, improving the ability 
of fishery managers to set ACLs that prevent overfishing while 
increasing fishing opportunities.
    Fisheries Statistics: +$11 Million Over the President's Request for 
a Total of $32.4 Million.--The 2006 amendments to the Magnuson Stevens 
Act required NMFS to improve the quality and accuracy of marine 
recreational fishery data with a goal of achieving acceptable accuracy 
and utility for each fishery within 2 years. The Omnibus Appropriations 
Act of 2010 includes $9 million in total funding for the Marine 
Recreational Information Program (MRIP), less than one-half of the $20 
million per year that is needed to fully implement the MRIP and expand 
the National Registry to State and Federal waters. We recommend a 
funding level of $32.4 million for fiscal year 2011, reflecting an 
increase of $11 million over the President's fiscal year 2011 request 
to the MRIP to provide more timely data needed to manage recreational 
fishery catch limits and avoid overages that can result in reduced 
fishing opportunities in future years.
    Fisheries Observers/Training: +$21.2 Million Over the President's 
Request for a Total of $60 Million.--The President's fiscal year 2011 
budget request would cut observer program funding from $41 million in 
fiscal year 2010 to $38.8 million. Current funding levels support at-
sea observer programs in about 40 fisheries nationwide, only 23 of 
which were considered by NMFS to have adequate levels of observer 
coverage in 2009.\4\ Nearly three-quarters of U.S. fisheries assessed 
for observer coverage have very little or no coverage, based on a 2004 
national bycatch assessment \5\ and updated information in 2009.\6\ 
Additional funding for observers will provide improved fisheries catch 
and bycatch data that is essential to produce stock assessments, reduce 
bycatch, monitor fishery compliance with catch limits, and increase 
industry confidence in scientific information used to set catch limits.
---------------------------------------------------------------------------
    \4\ See President's fiscal year 2010 budget request, Congressional 
Submission, Exhibit 13, p. 245. The full list of fisheries prioritized 
for observer coverage in 2004 can be found in: U.S. Dep. of Commerce/
NOAA/NMFS, Evaluating Bycatch: A National Approach to Standardized 
Bycatch Monitoring Programs, NOAA Technical Memorandum NMFS-F/SPO-66, 
October 2004. 108 p.
    \5\ The full list of fisheries assessed for observer coverage in 
2004 can be found in: U.S. Dep. of Commerce/NOAA/NMFS, Evaluating 
Bycatch: A National Approach to Standardized Bycatch Monitoring 
Programs, NOAA Technical Memorandum NMFS-F/SPO-66, October 2004. 108 p.
    \6\ See President's fiscal year 2010 budget request, Congressional 
Submission, Exhibit 13, p. 245.
---------------------------------------------------------------------------
    Cooperative Research: +$10 Million Over the President's Request for 
a Total of $17.1 Million.--The President's fiscal year 2011 budget 
proposes to cut $4.56 million from this budget line and transfer 
another $6 million to cooperative research under the Catch Shares 
budget line. Funding for this budget line supports research in 
partnership with fishermen to help improve the quality of fish 
assessments and assessment of non-target bycatch mortality, among other 
things. In addition to contributing to more assessment information, 
cooperative research funds partnerships between key stakeholders and 
NMFS, increasing stakeholder confidence in the data and creating a more 
transparent process. The amount requested for this budget line is 
intended to restore the funding that the President's budget proposes to 
remove, in order to provide additional opportunities for cooperative 
research in fisheries that are not part of catch share programs.
    Bycatch Monitoring and Reduction: +$6.6 Million Over the 
President's Request for a Total of $10 Million.--The President's fiscal 
year 2011 request $3.4 million maintains stable funding for this 
program, but current funding is woefully inadequate to address the 
scope of the problem. Greater funding is needed to develop and test 
bycatch reduction technologies, to support cooperative research 
opportunities with fishermen, and to collect and process reliable 
fisheries bycatch information for use in stock assessments and 
management decisionmaking. The Network recommends that Congress provide 
at least $10 million in fiscal year 2011 for the Bycatch Reduction 
Initiative as part of a plan to ramp up program funding toward the $30 
million per year level recommended by the U.S. Commission on Ocean 
Policy.\7\
---------------------------------------------------------------------------
    \7\ See USCOP 2004: Table 30.1; Appendix G.
---------------------------------------------------------------------------
    Reduce Fishing Impacts on Essential Fish Habitat (EFH): +$4.5 
Million Over the President's Request for a Total of $5.0 Million.--The 
President's fiscal year 2011 request of $0.53 million would keep this 
program on life support, and the low level of funding for this budget 
line item speaks to the low priority given to protection of vulnerable 
EFH. The Magnuson-Stevens Act of 1996 gave fishery managers a clear 
mandate to identify and protect EFH. Healthy fish habitat is an 
essential precondition for rebuilding overfished stocks and sustaining 
fisheries over the long-term. Program funding should reflect that 
importance. The Network recommends that Congress provide no less than 
$5 million in fiscal year 2011 for EFH conservation as part of a plan 
to ramp up program funding toward the $15 million per year level 
recommended by the U.S. Commission on Ocean Policy.\8\
---------------------------------------------------------------------------
    \8\ USCOP 2004: Table 30.1; Appendix G.
---------------------------------------------------------------------------
    Increased investments in these fisheries programs will improve 
efforts to set sustainable catch limits and monitor compliance, 
facilitate the rebuilding of fisheries to meet their full economic and 
biological potential, and increase fishing industry confidence in the 
science being used to make management decisions.
                                 ______
                                 
              Prepared Statement of National Public Radio

    Chairwoman Mikulski and Ranking Member Shelby, this statement 
asking for an increase in funding for the fiscal year 2011 Public 
Telecommunications Facilities Program (PTFP) is submitted on behalf of 
the public radio system including NPR and the roughly 800 public radio 
stations that serve communities large and small throughout the United 
States. While everyone recognizes that these are extraordinarily 
challenging times, PTFP has been significantly underfunded for the past 
several years. Each year of underfunding brings the consequence of 
reduced public radio service. Public broadcasting's request of $44 
million for PTFP will begin to address the long list of pressing needs 
within the public broadcasting station community. This level of funding 
will ensure that public radio stations can improve and expand their 
valued public service offerings to local communities nationwide. As the 
chairwoman and Senator Shelby well know, PTFP is the only Federal 
funding program that assists stations with replacement of equipment 
that has been damaged or simply worn out.
    NPR and its more than 850 public radio station partners operate as 
an independent, nonprofit media organizations nationally acclaimed for 
news, information, music and entertainment programming. Today, more 
Americans than ever--over 33 million people--are tuning into public 
radio programming and listening to NPR and public radio stations on a 
weekly basis. Our audience has grown 66 percent in the past 10 years, 
bucking a precipitous decline in other media and a general overall 
decline in radio listening. Public radio stations independently select 
and produce community appropriate programming that best serves their 
listening areas.
    Since 1962, public radio stations have utilized PTFP grants for 
replacement, maintenance and necessary upgrades of audio production and 
broadcast transmission equipment. PTFP is a competitive matching grant 
program to help public broadcasters, State and local governments, and 
Native American tribes construct facilities to bring educational and 
cultural programs to the public. Run by the National Telecommunications 
and Information Administration (NTIA) under the Department of Commerce, 
this program provides financial assistance to stations for capital 
projects such as replacing outdated hardware, purchasing new equipment 
to expand service to underserved and un-served areas, and converting to 
digital technology.
    This essential capital grant program is available to public 
broadcasters, many of whom are constrained in their ability to finance 
capital expenditures. Stations cannot pass their costs on to their 
listeners, and most cannot take out loans for such projects, especially 
in this challenging economic climate and those in rural areas. The 
matching-grant structure of PTFP allows public radio stations to 
leverage funding from local government and private entities while 
providing the money needed to help defray the high costs of capital 
projects.
    Fiscal year 2011 brings an important opportunity for public radio 
broadcasters. In 2007, the Federal Communications Commission (FCC) 
opened a filing window for non-commercial educational radio stations, 
the first such frequency filing opportunity in more than 7 years. The 
response from public radio stations has been enormous, with several 
hundred applications filed for new frequencies to improve or provide 
first service for communities across America. Each of these new 
frequencies, once approved by the FCC, will require a station build-
out, adding to the vitally important matching grant financing provided 
by PTFP.
    The subcommittee should also be made aware that 35 new stations 
serving tribal communities are waiting to be built. The tribal 
participation in the FCC's 2007 new frequency window indicates that 
Native Americans are highly interested in securing terrestrial radio 
stations for their communities. Radio still works in Indian Country 
where broadband penetration is less than 10 percent, where 911 services 
are sparse and where roads remain to be paved. These stations are 
anchor institutions, engaging tribal members in the information stream 
about health, public safety, education, and electoral processes.
    The demand for PTFP funding far exceeds the amount of funds 
available. In fiscal year 2009, there were over 220 applications 
requesting more than $48 million in funding through PTFP, yet only $20 
million was made available. Unfortunately, budget constraints have 
limited the amount of funds available for PTFP grants. Annual 
appropriations for the program in fiscal year 2004 were cut by 50 
percent (from $43.2 million in fiscal year 2003 to $21.8 million). 
Funding levels for the past 7 years have remained at that level or 
lower. Increasing PTFP this year to its pre-2004 level of $44 million 
will help to meet the demand for this small, but important program, to 
help them to expand coverage to underserved and un-served areas.
    In this era of local public radio stations utilizing digital 
technology to expand their public service reach, computer systems rely 
on software which needs constant updating and replacement. PTFP funding 
will be essential to stations that need to maintain reliable digital 
equipment and service that meets the needs of their communities. PTFP 
funding is the primary funding source for station equipment and 
technology needs.
    In fiscal year 2009, PTFP approved 63 radio awards totaling $6.422 
million. The largest radio grant went to construct a new public radio 
station on 90.5 MHz in Shiprock, New Mexico, that will provide first 
and local origination service to 31,883 people and additional service 
to 11,166 people on the Navajo Indian Reservation and the Four Corners 
area of Colorado, New Mexico, Arizona, and Utah.
    Thirty-five radio grants were awarded to extend new public radio 
service to over 400,000 people and provide additional service to almost 
2 million people. Two of the projects will fund booster stations to 
improve service to portions of New York City where coverage is shadowed 
by Manhattan skyscrapers. Communities that will receive first or 
expanded public radio service are: Bella Vista, Burney and Susanville, 
CA; Boulder, Dove Creek, Montrose, Salida and Wiley CO; Milledgeville 
and Young Harris, GA; Caldwell, ID; Manhattan, KS; Frederick, MD; 
Cloquet, Hinkley, Nett Lake and Redwood Falls, MN; Greenville, MS; Box 
Elder (Rocky Boy Indian Reservation), MT; Okracoke, NC; Fort Totten, 
ND; Des Moines, Shiprock (Navajo Indian Reservation) and Tucumcari, NM; 
Acra, Mt. Beacon and New York City, NY; Bend and Brightwood, OR; 
Spearfish/Belle Fourche, SD; Gloucester Point, Gloucester Courthouse 
and Lexington, VA; Medical Lake, Mount Vernon and Port Townsend, WA; 
and Fort Washakie (Wind River Indian Reservation), WY.
    A grant will permit KPBX-FM, Spokane, WA, to distribute additional 
program streams for broadcast on five digital repeater stations in 
Omak, Oroville, Twisp, and Brewster, WA; and Kellogg, ID. Also, NPR was 
awarded a planning grant to determine the feasibility of digital 
conversion of radio reading services for the blind and low vision 
community.
    Maintaining service is also one of PTFP's main priorities. PTFP is 
the only source of funds for local public radio stations to replace 
equipment damaged or destroyed by disasters such as hurricanes, 
tornados, floods, wildfires, earthquakes and ice storms. In fiscal year 
2009, the program awarded 26 projects to replace urgently needed 
equipment at public radio stations. PTFP priorities when issuing grants 
include expansion of public broadcasting to underserved and un-served 
areas of the country. For more than 46 years, the program has played a 
major role in the development and expansion of public radio throughout 
the country. Today, more than 93 percent of the American public can 
listen to a public radio station in their community.
    On behalf of public radio stations all across America, NPR urges 
the subcommittee to approve $44 million for PTFP.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    To the chairwoman and members of the subcommittee: The American 
Geological Institute (AGI) supports fundamental Earth science research 
sustained by the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), the National Institute 
of Standards and Technology (NIST) and the National Aeronautics and 
Space Administration (NASA). Frontier research on Earth, energy and the 
environment has fueled economic growth, mitigated losses and sustained 
our quality of life. The subcommittee's leadership in expanding the 
Federal investment in basic research is even more critical as our 
Nation competes with rapidly developing countries, such as China and 
India, for energy, mineral, air and water resources. Our Nation needs 
skilled geoscientists to help explore, assess and develop Earth's 
resources in a strategic, sustainable and environmentally-sound manner 
and to help understand, evaluate and reduce our risks to hazards. AGI 
supports a total budget of $7.424 billion for NSF; $919 million for 
NIST, $5.554 billion for NOAA, and $1.802 billion for Earth Science at 
NASA.
    AGI is a nonprofit federation of 46 geoscientific and professional 
societies representing more than 120,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.
    NSF.--AGI applauds the President's request for an overall budget of 
$7.424 billion for NSF and the administration's commitment to science. 
AGI greatly appreciates Congress's support for science and technology 
in recent appropriations and through the America COMPETES Act of 2007 
as well as the American Recovery and Reinvestment Act of 2009. The 
forward-looking investments in NSF are fiscally responsible and will 
pay important dividends in future development and innovation that 
drives economic growth, especially in critical areas of sustainable and 
economic natural resources and reduced risks from natural hazards. The 
investments will save jobs, create new jobs, support students and 
provide training for a 21st century workforce.
    NSF Geosciences Directorate.--The Geosciences Directorate (GEO) is 
the principal source of Federal support for academic Earth scientists 
and their students who are seeking to understand the processes that 
ultimately sustain and transform life on this planet. About 63 percent 
of support for university-based geosciences research comes from this 
directorate.
    The President's request for fiscal year 2011 asks for $281 million 
for Atmospheric Sciences, $199 million for Earth Sciences, $378 million 
for Ocean Sciences and $98 million for Innovative and Collaborative 
Education and Research (ICER) within GEO. Much of the geosciences 
research budget is for understanding that which is critical for current 
national needs, such as climate change, water and mineral resources, 
energy resources, environmental issues and mitigation of natural 
hazards. AGI asks the subcommittee to strongly support these essential 
investments.
    GEO supports infrastructure and operation and maintenance costs for 
cutting edge facilities that are essential for basic and applied 
research. Ultimately the observations and data provide information and 
understanding that is used by researchers and managers in the public, 
government and private sector. Among the major facilities, the Academic 
Research Fleet would receive $77 million, EarthScope Operation would 
receive $26 million, Incorporated Research Institutions for Seismology 
(IRIS) would receive $12.73 million, Ocean Drilling Activities would 
receive $46 million, and the National Center for Atmospheric Research 
would receive $108 million. AGI strongly supports robust and steady 
funding for infrastructure and operation and maintenance of these major 
facilities.
    Now is the time to boost geosciences research and education to fill 
the draining pipeline of skilled geoscientists and geo-engineers 
working in the energy and mining industries; the construction industry; 
the environmental industry; the academic community; K-12 education; and 
in Government, such as the United States Geological Survey as well as 
State and local government natural resource and emergency management 
agencies.
    NSF Support for Earth Science Education.--Congress can improve the 
Nation's scientific literacy by supporting the full integration of 
Earth science information into mainstream science education at the K-12 
and college levels. AGI supports the Math and Science Partnership (MSP) 
program, a competitive peer-reviewed grant program that funds only the 
highest quality proposals at NSF. The NSF's MSP program focuses on 
modeling, testing and identification of high-quality math and science 
activities whereas the Department of Education MSP program does not. 
The NSF and Department of Education MSP programs are complementary and 
are both necessary to continue to reach the common goal of providing 
world-class science and mathematics education to elementary and 
secondary school students.
    Improving geoscience education to levels of recognition similar to 
other scientific disciplines is important because:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, water and environmental stewardship. All 
        students should be required to take a geoscience course.
  --Geoscience exposes students to a range of interrelated scientific 
        disciplines. It is an excellent vehicle for integrating the 
        theories and methods of chemistry, physics, biology, and 
        mathematics. A robust geoscience course would make an excellent 
        capstone for applying lessons learned from earlier class work.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. Informal 
        geoscience education that leads to reducing risks and preparing 
        for natural events should be a life-long goal.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization and policy making for Earth's 
        resources and our Nation's strategic, economic, sustainable and 
        environmentally-sound natural resources development. There are 
        not enough U.S.-trained geoscientists to meet current demand 
        and the gap is growing. Support for geoscience research and 
        education is necessary to stay competitive and to wisely manage 
        our natural resources.
    NOAA.--AGI supports the President's request for increased funding 
for NOAA for a total budget of $5.554 billion. AGI supports the 
requested increases for the National Weather Service for analysis, 
modeling and upgrading of observing systems; for the Oceanic and 
Atmospheric Research program; and for the National Environment 
Satellite, Data and Information Service. All three programs are 
critical for understanding and mitigating natural and human-induced 
hazards in the Earth system while sustaining our natural resources. AGI 
continues to support the implementation of the U.S. Ocean Action Plan 
of 2004 and believes the funding requests are consistent with the 
recommendations of the plan.
    NIST.--We applaud the President's request for an increase in 
research and related funding for NIST in fiscal 2011 for a total budget 
of $919 million. Basic research at NIST is conducted by Earth 
scientists and geotechnical engineers and used by Earth scientists, 
geotechnical engineers and many others on a daily basis. The research 
conducted and the information gained is essential for understanding 
climate change and natural hazards in order to build resilient 
communities and stimulate economic growth with reduced impact from 
risk.
    In particular, we strongly support increases for Measurements and 
Standards for the Climate Change Science Program, Disaster Resilient 
Structures and Communities and the National Earthquake Hazards 
Reduction Program (NEHRP). The climate change research will improve the 
accuracy of climate change measurements, may reduce satellite costs and 
may help to guide climate change policy. The hazards research will help 
to reduce the estimated average of $52 billion in annual losses caused 
by floods, fires and earthquakes. NIST is the lead agency for NEHRP, 
but has received only a small portion of authorized and essential 
funding in the past. AGI strongly supports a doubling of the NIST 
budget over 5 to 7 years as authorized in the America COMPETES Act of 
2007, so that core research functions at NIST are maintained, while 
needed funding for climate change and hazards are provided.
    NASA.--AGI supports the vital Earth observing programs within NASA. 
AGI strongly supports the requested budget of $1.8002 billion for Earth 
Science programs within the Science Mission Directorate at NASA. The 
investments are needed to implement the priorities of the National 
Academies Earth Science and Applications from Space Decadal Survey. 
NASA needs to maintain its current fleet of Earth-observing satellites, 
launch the next tier and accelerate development of the subsequent tier 
of missions. The observations and understanding about our dynamic Earth 
gained from these missions is critical and needed as soon as possible. 
In addition some satellites need to be launched at a particular time 
and in a particular sequence to meet mission objectives. The requested 
increase for fiscal 2011 and proposed increases for future years are 
wise and well-planned investments and AGI requests the support of the 
subcommittee for this budget outline.
    I appreciate this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record.
                                 ______
                                 
   Prepared Statement of SEARCH, The National Consortium for Justice 
                       Information and Statistics

                              INTRODUCTION

    I am Ron Hawley, executive director of SEARCH. Thank you, 
chairwomen and members of the subcommittee for the opportunity to speak 
to you today and for your past support. The efforts of your outstanding 
subcommittee staff are also greatly appreciated. SEARCH has requested a 
$500,000 earmark from the Department of Justice, Byrne Discretionary 
Grant Program in the Commerce, Justice, Science, and Related Agencies 
appropriation bill for the SEARCH Justice Information Sharing Technical 
Assistance Program.
    SEARCH is a State criminal justice support organization comprised 
of Governors' appointees from each State. Each State pays dues 
annually. SEARCH's mission is to promote the effective use of 
information and identification technology by criminal justice agencies 
nationwide.

                          PAST SEARCH PROGRAMS

    SEARCH has a well-earned record for providing on-site technical 
assistance and training to State and local criminal justice agencies in 
the planning, development, implementation and management of information 
sharing activities for over 40 years. This record and our 
qualifications were recognized by the U.S. House of Representatives in 
Resolution 851 passed on November 17, 2009. Because of these 
qualifications, SEARCH has been a key partner with the U.S. Department 
of Justice and member of the Global Information Sharing Initiative 
(Global) working to develop the tools and resources needed by these 
agencies. This participation uniquely positions SEARCH with expert 
knowledge of the design, use and implementation of these resources.
    For more than 20 years, SEARCH operated the highly regarded 
National Technical Assistance and Training Program, the only no-cost 
service for small- and medium-sized criminal justice agencies to assist 
them in: (1) enhancing and upgrading their information systems; (2) 
building integrated information systems that all criminal justice 
agencies need; (3) promoting compatibility between local systems and 
State, regional and national systems; (4) developing and delivering 
high-tech anti-crime training; and (5) providing computer forensic 
technical assistance support.
    However, in recognition of the rapid advancements in information 
sharing technology, SEARCH has updated and improved our program 
offerings and proposes to implement a new program, the SEARCH Justice 
Information Sharing Technical Assistance Program.

  THE SEARCH JUSTICE INFORMATION SHARING TECHNICAL ASSISTANCE PROGRAM

    The SEARCH Justice Information Sharing Technical Assistance Program 
would support Congress and the administration's goals in reducing crime 
and recidivism. SEARCH proposes to use the funding to provide direct 
assistance to State and local criminal justice agencies in the 
Sacramento area and throughout California where those activities can 
influence and assist in the effective implementation of information 
sharing systems by law enforcement, courts, correctional agencies and 
other State and local criminal justice agencies throughout the Nation. 
The technical assistance will help agencies plan for and implement the 
standards, tools and resources developed by the U.S. Department of 
Justice in partnership with Global to support standardized information 
sharing across the country. The program will contribute to the overall 
safety of our communities by making sure decisions made by our law 
enforcement, courts, correctional agencies and others are based on 
access to timely, secure and accurate information. Through the program, 
SEARCH will provide needed expertise to allow these agencies to 
leverage scarce resources in these economically challenging times. All 
of this will be done with a fundamental focus on safeguarding privacy 
and civil liberties.
    Over the past several years, the U.S. Department of Justice has 
effectively developed numerous standards, templates, policies and tools 
to facilitate information sharing. While these tools represent great 
strides in facilitating consistent information systems and practices 
across agencies nationwide, they are complicated to understand and 
implement. Thus, many State and local agencies require expert 
assistance to adopt them, and they typically do not have the staff 
expertise or funding to support such assistance.
    Congress and the administration have focused renewed attention on 
solving prevailing problems in the justice arena: youth and gang 
violence; jail and prison crowding; successful reentry and second 
chance act programs; evidence-based policing; and tracking potential 
terrorists, arsonists and bombers, to name a few. While there are many 
policy and operational considerations in dealing with these issues, one 
that cannot be overlooked is the information sharing that is critical 
to the effectiveness of these programs. Without State and local 
automated information sharing capabilities, these programs will be 
greatly hampered in meeting their goals and objectives. If information 
sharing is improved effectively, it often creates opportunities to hire 
or deploy more line officers through resource efficiencies.
    Because SEARCH works nationally, we will be able to replicate 
successful implementation strategies in California and from one State 
or locality and disseminate and transfer those strategies to other 
States and localities. This unique program not only helps State and 
local agencies work more efficiently and effectively through the 
deployment of advanced information sharing techniques, but it also 
creates a foundation for a national information infrastructure for 
interoperable justice systems.

                  SEARCH TECHNICAL ASSISTANCE EXAMPLES

    During the past year, SEARCH has provided on-site and in-house 
technical assistance to California agencies that has helped improve 
information sharing, reduce administrative costs, enhance operational 
efficiencies and better protect data that is shared.
    SEARCH is helping Marin County, California, develop a secure 
solution for law enforcement and fire safety personnel to share 
critical event information instantly and accurately. SEARCH is 
examining the network security in a multi-disciplinary public safety 
environment to ensure law enforcement has access to criminal justice 
information while protecting the information from unauthorized users.
    SEARCH is helping the California Department of Justice meet 
national standards for information sharing. The Department requested 
SEARCH help assure the system--as designed--complied with the National 
Information Exchange Model (NIEM) developed by the U.S. Department of 
Justice (DOJ) and the Global Justice Information Sharing Initiative. 
Compliance with NIEM is a requirement under several DOJ grant programs 
and is designed so that systems developed around the country will 
adhere to standards that will enable them to share information.
    SEARCH is helping Napa County, California, replace several major 
justice agency systems with a new system. The goals of the effort are 
to improve public safety decisionmaking effectiveness, county 
administrative efficiency, and reduce overall costs in implementing new 
information sharing systems. SEARCH is assisting Napa with all phases 
of its process, including planning, comprehensive definition of needs, 
development of technical architecture and adherence to procurement best 
practices.
    SEARCH develops resources for the rest of the country through the 
work it does in California. For example, SEARCH visited Los Angeles 
County, California, to do a thorough assessment and case study of its 
intelligence sharing processes. In a detailed publication that was 
developed as a result of this analysis, other States, large counties 
and regional consortia will be able to understand how Los Angeles has 
set up its intelligence sharing solution and what lessons learned can 
be transferred to their own environment.

              INTENDED USE OF FUNDING FOR FISCAL YEAR 2011

    For fiscal year 2011, SEARCH is requesting $500,000 for the SEARCH 
Justice Information Sharing Technical Assistance Program. This request 
reflects continuing high demand for technical assistance from State and 
local criminal justice agencies in California and throughout the 
Nation.
    If SEARCH is provided with the requested funding, SEARCH intends to 
utilize the funds to address goals in its information sharing work. 
Specifically, SEARCH intends to: (1) support through technical 
assistance the adoption of national law enforcement and public safety 
information technology standards; (3) contribute to the development of 
new and emerging law enforcement and public safety standards; (4) 
develop specific information sharing requirements for the re-entry of 
prisoners into society following incarceration; and (5) improve 
agencies' ability to measure and manage their information sharing 
initiatives.

    THE PRESIDENT'S FISCAL YEAR 2011 BUDGET AND BYRNE GRANT PROGRAMS

    I would also like to take this opportunity to address the 
President's fiscal year 2011 budget. The budget provides no funds for 
the Byrne Discretionary Grant Program. This approach has been used by 
the President in the budget proposals for many years, but fortunately 
Congress has recognized the inappropriateness of the approach and 
restored it to acceptable levels. Hopefully Congress will again 
recognize that the needs met in the past by this funding continue today 
and will again restore it to an adequate level.
    I would also ask for enhanced funding for the Byrne Competitive 
Grant Program. The fiscal year 2008 Omnibus Appropriations Act 
established the competitive grant process for programs of national 
significance to prevent crime, improve the administration of justice, 
and assist victims of crime. The process is administered by the Office 
of Justice Programs (OJP) and national program organizations have been 
selected according to congressional objectives. However, the total 
amount of grant funding provided to all of the competing national 
programs has never exceeded $40 million nor been able to fund even one-
half of the worthy proposals received in response to the grant 
solicitation. The President's fiscal year 2011 budget provides $30 
million for this program. However, we believe that funding in the range 
of at least $65 million is the minimum necessary to permit a workable 
and effective competitive grant program on a national scale. Otherwise, 
the under-funded program greatly reduces its chance for success.
    Finally, I want to call your attention to a new program for State 
and local law enforcement assistance. This program, ``Justice 
Information Sharing and Technology,'' is intended to support critical 
information sharing activities of the Department of Justice and its 
Global partners. SEARCH is encouraged to see the recognition for this 
program need and encourages its funding at the proposed level of $15 
million. SEARCH believes the program will be extremely valuable to 
justice information sharing nationwide.

                               CONCLUSION

    Congressional support for the SEARCH Justice Information Sharing 
Technical Assistance Program is vital. The Federal investment of 
$500,000 can be leveraged many times over by contributing to the 
ability of State and local criminal justice agencies to provide timely, 
accurate and compatible information throughout the Nation. On behalf of 
SEARCH, its Governors' appointees, and the thousands of criminal 
justice officials who participate in the SEARCH network and who benefit 
from SEARCH's efforts, I thank you for your consideration.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute

    The Animal Welfare Institute welcomes this opportunity to submit 
testimony as you consider fiscal year 2011 funding priorities under the 
Commerce, Justice, Science and Related Agencies Appropriations bill. 
Our testimony will address activities under the Department of Justice 
(DOJ), including the FBI, and the International Whaling Commission, and 
requests $720,000 for the National Animal Cruelty and Fighting 
Initiative under DOJ's Office of Justice Programs' (OJP) competitive 
Byrne Grant program.

                         DEPARTMENT OF JUSTICE

    We wish to commend the DOJ's OJP for awarding, through its Bureau 
of Justice Assistance, a grant to the Association of Prosecuting 
Attorneys (APA) for its new program of training, technical support, and 
other assistance for prosecutors, members of the law enforcement 
community, and other involved parties to enhance the prosecution of 
animal abuse and animal fighting crimes. This is a very exciting 
development and we are proud to support APA in this new effort and to 
have been their partner for the first national training conference upon 
which the new program is built. We respectfully urge the subcommittee 
to provide $720,000 to the BJA's National Animal Cruelty and Fighting 
Initiative and to encourage its continued interest in addressing 
animal-related crimes.
    The connection between animal abuse and other forms of violence has 
been firmly established through experience and through scientific 
studies. For example, dog fighting is prevalent among gang members. 
Also--as evidence of one of the most well-documented relationships--up 
to 71 percent of victims entering domestic violence shelters have 
reported that their abusers threatened, injured, or killed the family 
pet; batterers do this to control, intimidate, and retaliate against 
their victims. In 1997, the Massachusetts Society for the Prevention of 
Cruelty to Animals (MSPCA) released the results of a review of animal 
cruelty cases it had prosecuted between 1975 and 1996. Seventy percent 
of the individuals involved in those cases had been involved in other 
crimes, and animal abusers were five times more likely to commit a 
violent offense against other people.
    Animal abuse is, however, more than a ``gateway'' behavior. It is 
also a crime in its own right. It is a crime everywhere in the United 
States, and certain egregious acts are felonies in 46 States and the 
District of Columbia. But not all laws are created equal; a felony in 
one State may still be a misdemeanor in another. In some States, 
cruelty rises to a felony only upon a second or third offense, or only 
if the animal dies; if he survives, no matter how severe his injuries, 
it is still a misdemeanor.
    The key to offering animals the most protection possible, however 
weak or strong the statute, lies in vigorous enforcement of the law and 
prosecution of violators. While there are many in law enforcement and 
the courts who recognize animal abuse for the violent crime that it is 
and act accordingly, there are those who do not take it seriously, 
treating it as no more urgent than a parking infraction. Others 
genuinely want to act decisively but may lack the necessary resources, 
support, or expertise. Moreover, enforcement can be complicated by the 
laws themselves--weak laws are bad enough, but additional problems may 
arise from confusion over jurisdiction or limitations in coverage--or 
by pressure to dispose of cases quickly.
    This is where the Association of Prosecuting Attorneys' animal 
cruelty/animal fighting program comes in. APA recognizes that animal 
cruelty and animal fighting crimes not only victimize some of the most 
innocent and vulnerable members of society, but they also create a 
culture of violence--and a cadre of violent offenders--that affects 
children, families in general, and society at large. Therefore, 
preventing and prosecuting these crimes will benefit not only the 
animals, but the entire community by reducing the overall level of 
violence.
    In order to support and enhance the effectiveness of prosecutors in 
their efforts to achieve this goal, APA, thanks to BJA's support, is 
implementing a program to provide the following: training conferences 
and webinars; publications; technical assistance; and online resources, 
including a library of briefs, motions, search warrants, legal memos, 
and state-by-state case law. It has assembled an advisory council 
composed of prosecutors, investigators, law enforcement, veterinarians, 
psychologists, members of the animal protection and domestic violence 
communities, and others, to identify issues, resource needs, and 
strategies. It brings these same professionals together to provide its 
multidisciplinary training, and also calls on them individually for 
topic-specific web-based training and materials.
    All of this is directed toward two audiences: those who still need 
to be convinced of the importance of preventing and punishing animal-
related crimes, for the sake both of the animals and of the larger 
community; and those who are dedicated to bringing strong and effective 
cases against animal abusers but may need assistance to do so.
    OJP/BJA showed great vision in recognizing that by identifying 
precursor crimes, such as animal cruelty and animal fighting, and 
ensuring adequate adjudication of such cases, our criminal justice 
system can reduce the incidence of family and community violence and 
change the path of potential future violent offenders. Its support of 
the APA program sends a very strong message to prosecutors and law 
enforcement that crimes involving animals are to be taken seriously and 
pursued vigorously.

                    FEDERAL BUREAU OF INVESTIGATION

    BJA's recognition not only of the relationship between animal 
cruelty and other forms of violence, but also of the value of 
addressing animal cruelty crimes as part of an overall strategy for 
creating safer communities, raises the issue of tracking such crimes. 
Specifically, for many years the animal protection community has urged 
the FBI to include animal cruelty in its Uniform Crime Reporting/
National Incident-Based Reporting System (UCR) program. As noted above, 
animal abuse is a crime, and in some cases a felony. It is part of the 
cycle of violence in communities, including domestic abuse and gang 
activity. Having data about animal-related crimes would enable law 
enforcement agencies and researchers to track these offenses; to 
understand better the factors associated with animal abuse and the 
characteristics of the perpetrators; and to identify when and where 
such crimes occur, thus facilitating more effective interventions.
    Yet, for purposes of the UCR, statistics related to animal abuse 
are recorded under the category of ``other,'' making them inaccessible 
for retrieval and analysis. In a report compiled in response to a 
Congressional request, even the FBI acknowledged substantial benefits 
to be achieved through the inclusion of animal cruelty data in its UCR: 
It would ``enrich the NIBRS database'' and ``be advantageous to law 
enforcement, social scientists, and others studying the topic to have 
comprehensive data about these offenses.'' Most tellingly, the report 
noted that ``because felony convictions for cruelty to animals are a 
disqualifier for prospective volunteers under the Prosecutorial 
Remedies and Other Tools to End the Exploitation of Children Today Act 
of 2003 (PROTECT Act), Public law 108-21, data about these offenses are 
vital to law enforcement.''
    Despite the recognized value of this information, however, the FBI 
has not made any move to capture and report it in a usable form in its 
crime database. The FBI's failure in this regard is especially ironic 
since it was among the first to identify the link between animal 
cruelty and other crimes, identifying it as a behavior common among 
serial killers.
    A new proposal is being prepared for presentation to the FBI that 
is simpler than previous proposals and would meet the dual need of 
gaining important information about animal cruelty crimes while 
minimizing cost and disruption for the FBI. This proposal would not 
involve creating a separate reporting category for animal cruelty 
crimes; rather it suggests adding ``animal'' to the victim segment of 
the 52 existing data elements. (Currently, the victim segment includes 
such victim details as age, gender, race, relationship to offender, and 
type of injury.) No new data elements would be created and no segments 
of the data elements would be expanded.
    We respectfully ask the subcommittee to direct the FBI to give 
serious consideration to this proposal and to work with interested 
Members of Congress and representatives of the animal protection 
community to include animal cruelty crimes in the Nation's crime report 
in order to achieve the benefits of such inclusion as outlined above 
and recognized by the FBI.

                         DEPARTMENT OF COMMERCE

    While we enthusiastically support funding worthwhile programs such 
as those of the BJA, we cannot support funding for programs whose 
outputs conflict with the interests of the American public. Sadly, that 
is the case with the current situation with respect to commercial 
whaling, which the National Oceanic and Atmospheric Administration 
seems intent on helping to revive. Indeed, the United States stands on 
the brink of dismantling one of the cornerstone measures of American 
conservation leadership--the moratorium on commercial whaling--and with 
it, sealing the fate of many of the world's whales whom we once thought 
we had saved.
    Years of bipartisan leadership saw the commercial whaling 
moratorium adopted during the Reagan administration, while the Clinton 
administration saw the establishment of the Southern Ocean Whale 
Sanctuary. Despite these massive initiatives and assurances by the 
current administration for sound science, transparency, and that ``the 
commercial whaling moratorium is a necessary conservation measure,'' it 
now appears that U.S. influence is being used to broker an ad-hoc 
``deal'' at the International Whaling Commission (IWC). This so-called 
deal would: (1) overturn the intent behind the moratorium, allowing for 
a resumption of commercial whaling at a time when whales are still 
recovering from years of overexploitation and are facing ever 
increasing anthropogenic threats, and (2) legitimize the commercial 
whaling undertaken by Japan as a way of flouting the moratorium by 
conducting it under the guise of scientific research. Further, the deal 
will permit the continuation and potential expansion of the 
international trade in whale products and discontinue annual meetings 
of the IWC--the very body established to conserve and manage the 
world's great whales.
    The justification for this remarkable deal is to placate three 
nations--Japan, Norway and Iceland--that persist in whaling for 
commercial gain despite the rest of the world having agreed decades ago 
that the great whales are worth more alive than dead--as key components 
of our oceans' ecosystems and as global species enjoyed by millions of 
people through whale-watching. Moreover, despite repeated international 
efforts, supported by the majority of IWC member nations, asking these 
three countries to cease their whaling practices, they have ignored 
such requests and have actually expanded their whaling operations.
    Not only will the deal undermine decades of conservation gains for 
whales, but the process used to produce it also lacked any of the 
transparency that the Obama administration purports to promote. Not 
only were the negotiations that led to the deal held behind closed 
doors, but the U.S. delegation to the IWC, led by Ms. Monica Medina, 
NOAA's Principal Deputy Under Secretary for Oceans and Atmosphere and 
U.S. Commissioner to the IWC, also failed to engage U.S. non-
governmental organizations in a meaningful or substantive dialogue 
about U.S. negotiating positions at the meetings. Furthermore, AWI 
believes it is entirely disingenuous to claim that the U.S. position on 
the deal has yet to be determined, considering that the United States 
both initiated the process to develop a deal and was the leading 
proponent of finding a compromise that would ostensibly satisfy all. 
This deal is not acceptable to AWI or, we suspect, to the vast majority 
of American citizens, your constituents, who strongly oppose killing 
whales for commercial gain.
    Unfortunately, time is short--the principles of the deal were 
already presented at an IWC meeting held in early March, and it is now 
being finalized for discussion and a vote at the full Commission in 
June. We urge the subcommittee to demand that the United States' 
position on whales, whaling, the IWC, and most importantly, on the 
current ``deal,'' be provided forthwith and that any future funding of 
NOAA's IWC program be contingent on its providing complete and 
satisfactory answers as well as maintaining the historic U.S. 
leadership role in protecting whales and opposing commercial whaling.
                                 ______
                                 
      Prepared Statement of The Council on Undergraduate Research

    The Council on Undergraduate Research (CUR) is an organization 
dedicated to the promotion of undergraduate research as a means by 
which students of mathematics, technology, the natural, physical and 
social sciences, as well the arts and humanities may participate in the 
intellectual life of our society. To this end, CUR encourages faculty 
and their students to collaborate as partners in their explorations of 
uncharted intellectual terrain.
    The symbiosis established between the faculty member and the 
undergraduate collaborator energizes and informs the faculty member's 
teaching and research while simultaneously introducing the student to 
the joys of discovery, as well as to lessons in persistence, problem-
solving, and critical thinking. Faculty conducting research with 
undergraduates benefit enormously by having undergraduate collaborators 
invested in the research enterprise help to advance the faculty 
research program. Undergraduate students benefit from the opportunity 
both to learn the breadth and depth of their chosen fields of inquiry 
as well as to contribute meaningfully to the expansion of knowledge.
    Presently, individual and institutional members representing nearly 
600 colleges and universities from across the United States support the 
educational and research initiatives established by CUR to ensure that 
research partnerships between faculty and their students are encouraged 
and nurtured. A primary concern for CUR is that these partnerships 
facilitate the attainment of professional productivity and intellectual 
integrity at the standards of excellence consonant with those 
recognized by professional scholarly and research societies.
    Research and research infrastructure funding provided by the 
National Science Foundation has been critical for the support of 
original, significant research that involves undergraduates, not only 
personally, but for the entire membership represented by CUR. 
Additionally, funding and legislative acknowledgment of the benefits of 
undergraduate research can help to reduce or minimize the barriers to 
undergraduate research, while promoting innovation in postsecondary 
education.
    Accordingly, CUR strongly urges the subcommittee to increase 
funding for dedicated funding streams that support undergraduate 
research at the National Science Foundation and requests that the 
subcommittee include the below report language in the fiscal year 2011 
Commerce, Justice, Science and Related Agencies bill:

    ``Undergraduate research programs are flourishing at various types 
of institutions of higher education around the country and funding 
should be used to expand or improve these programs or help develop new 
programs at emerging research institutions. The subcommittee 
acknowledges that studies show that participation in undergraduate 
academic research programs improves college persistence rates among 
students, particularly among minority, low income, and first generation 
college students. Reviews of existing undergraduate research programs 
have also shown that these programs can boost undergraduate students' 
interest in entering STEM fields and other high-demand career paths.''

    To provide a clear understanding of the importance of support for 
undergraduate research and the value of funding research on the Federal 
level, below are examples from CUR members on the impact of 
undergraduate programs funded by the National Aeronautics Science 
Administration, National Institute of Standards and Technology, and the 
National Science Foundation.

  ROGER S. ROWLETT, PROFESSOR OF CHEMISTRY AT COLGATE UNIVERSITY (NY)

    The NSF-MRI (Major Research Instrumentation) program and its 
predecessors provided essential research instrumentation at Colgate, 
which is a predominantly undergraduate institution, and has allowed 
faculty to learn state-of-the-art research techniques. NSF funds have 
allowed Colgate to have access to modern high-field NMR and protein and 
small-molecule X-ray crystallography. Colgate is the only undergraduate 
institution in the Nation to have a dual-beam X-ray diffractometer, and 
our students use the NSF-funded equipment in their research routinely.
    Undergraduate access to modern research instrumentation is critical 
to training the next generation of scientists, and is a powerful 
enticement for recruiting a highly motivated and diverse pool of 
students into science careers. Over 90 percent of research students who 
have conducted research in my laboratory in the last decade have 
pursued postgraduate studies or careers in the sciences. The NSF-RUI 
(Research in Undergraduate Institutions) program has been a stalwart at 
providing the necessary support for individual faculty to conduct high-
quality, publishable research with undergraduates at predominantly 
undergraduate institutions.
    Historically, the NSF-REU (Research Experiences for Undergraduates) 
program has also helped establish our well-recognized summer 
undergraduate research program. The Department of Chemistry at Colgate 
held several consecutive REU grants in the 1990s which allowed Colgate 
to offer full-time summer research opportunities to not only our own 
students but also students from other institutions, some of which do 
not offer research opportunities to their undergraduates. The legacy of 
NSF-REU funding at Colgate is a self-sustaining and well-organized 
summer research program that supports 80 or more students in the 
natural sciences each year.
    Support of high-quality research at undergraduate institutions is 
critical to the national science enterprise, and is a wise investment. 
Not only does research at predominantly undergraduate institutions 
result in original discoveries that are published in the scientific 
literature, it also sustains excellent teaching by keeping faculty at 
these institutions intimately embedded in their scholarly communities 
and current in their fields of study. Undergraduates who have research 
experiences are more likely to consider post-graduate studies in the 
sciences or pursue science careers, if my personal experience is any 
guide.
    In addition to re-affirming its commitment to undergraduate 
research embodied in current programs which have been highly successful 
in improving undergraduate research and education, perhaps NSF should 
consider establishing new (``starter'') faculty research grant 
opportunities.

CHRIS HUGHES, ASSOCIATE PROFESSOR OF PHYSICS, JAMES MADISON UNIVERSITY 
                                  (VA)

    The Physics and Astronomy Division of CUR (CUR-P&A) has recently 
worked with all of the major national physics organizations to develop 
a statement which says ``We call upon this Nation's physics and 
astronomy departments to provide, as an element of best practice, all 
undergraduate physics and astronomy majors a significant research 
experience.'' Additionally, the American Astronomical Society (AAS), 
Society of Physics Students (SPS), American Physical Society Committee 
on Education (APS-CoE), and the American Association of Physics 
Teachers (AAPT) have adopted this or similar statements in agreement 
with CUR-P&A
    These statements are a significant signal that the academic 
physicists in the United States believe that an undergraduate education 
in physics or astronomy is incomplete without the experiential learning 
that comes from a research experience. Research is the utmost form of 
inquiry in the sciences and data shows that physics and astronomy 
majors who participate in research programs see improvement in their 
classroom performance and increased retention to graduation. Already, 
surveys of the approximately 6,000 graduates in P&A each year show that 
around 70 percent participate in some form of undergraduate research. 
This is an impressive figure, but it also means that there is an 
immediate need for opportunities for around 1,800 students each year.
    One of the primary programs for funding undergraduate research has 
traditionally been NSF's REU. We would like to see these programs 
augmented to support even more students. Another program that will be 
critical to meeting this need is the NSF CCLI (Course, Curriculum and 
Laboratory Improvement) since this addresses the issue of building the 
infrastructure needed to support experiential learning at many 
institutions where this is not currently available.

  DIANE HUSIC, PROFESSOR OF BIOLOGICAL SCIENCES, MORAVIAN COLLEGE (PA)

    In 2004, I had just moved to Moravian College to chair and help 
revitalize the biology department. The college didn't have a strong 
track record of grant writing, but had hired several new faculty who 
were interested in both teaching and scholarship. As I took the new 
position, I also had just become a co-PI on an NSF Undergraduate 
Research Center pilot grant. The goal of our proposed project was to 
develop a consortium of faculty and students at seven institutions to 
promote greater interest amongst students in plant science. Living near 
the Palmerton Superfund site, we tapped into contacts at the Lehigh Gap 
Nature Center and Wildlife Refuge (LGNC) that had purchased 750 acres 
of the site and was beginning a restoration project using warm season 
native grasses. Our initial visit and subsequent summer research 
``field trip'' prompted by the NSF-URC grant has subsequently led to 
wonderful partnerships and collaborative research that has transformed 
not only a mountainside, but also an academic department. Over the past 
few years, we have had 10 students and 2 faculty engaged in research 
there, the results of which have been presented at regional and 
national meetings. We are in the process of writing an ecological 
assessment report to be used by the LGNC, the EPA and other State and 
Federal agencies in developing the adaptive management plan for the 
site. Our department has taken the lead in organizing a consortium of 
researchers at 12 other partner colleges and universities and a number 
of State and Federal agencies who are involved in some aspect of the 
revitalization of the Lehigh Gap. State and Federal funds are 
supporting much of these efforts, and the site recently received 
funding from the Audubon/Toyota Together Green program--a project that 
brings together the local Audubon chapter and community and college 
volunteers.
    The Department of Biological Sciences at Moravian College now 
routinely brings classes to the refuge/Superfund site for field trips 
and class-based research projects. Not only are biology and 
environmental studies majors benefitting from this unique outdoor 
laboratory, but also students in science courses that are required as 
part of the liberal studies curriculum. We have developed a new 
Conservation Biology and Ecological Restoration course in partnership 
with the Lehigh Gap Nature Center, and students in the premiere 
offering of course participated in the experimental design for the 
Together Green projects of habitat enhancement and deer exclosure 
studies which are now being implemented. Faculty are involved with K-12 
teacher workshops in conjunction with the Lehigh Gap Nature Center and, 
along with some of the research students, serve as mentors to a youth 
naturalists group, the members of which are also involved in authentic 
research at the site. These youth were recently recognized by the 
National Audubon Society. This exhilarating partnership between citizen 
scientists, an academic department, other campuses, State and Federal 
agencies and the local community was prompted by a mere $50,000 NSF 
grant!
    Despite the examples of success stories noted above, there are many 
campuses where the teaching and research facilities and other 
infrastructure lag sorely behind and can't provide up-to-date inquiry-
based learning opportunities for students, much less support faculty-
student research. Economic difficulties threaten many, if not all, of 
our campuses and our collective efforts to enhance undergraduate 
scholarship and to be innovative in our research and curriculum. These 
threats come at a time when there is unprecedented evidence of the 
value of undergraduate scholarship for students in terms of engagement, 
learning, and retention. They also come at a time when President Obama 
and Congress have expressed deep concerns about the slipping status of 
U.S. competitiveness internationally.
    Essential to the innovation that will be needed to meet these 
challenges is the development of a research-rich curriculum, high-
quality undergraduate research experiences, first-rate faculty scholars 
and research mentors, modern outfitted facilities for teaching, 
learning and research and funds to support the actual research 
projects. Federal support, including grant funding from the National 
Science Foundation, is essential to enabling this innovation which can 
and does happen at undergraduate institutions and as a result of 
collaborative research between faculty and undergraduates.
                                 ______
                                 
               Prepared Statement of The Wildlife Society

    The Wildlife Society (TWS) appreciates the opportunity to submit 
testimony concerning the fiscal year 2011 budget for the National 
Science Foundation (NSF). TWS requests that the subcommittee work to 
provide the National Science Foundation (NSF) with the $7.424 billion 
requested by the President for fiscal year 2011, allowing NSF to fund 
its many important programs, including the Biological Sciences 
directorate (BIO) at $767.81 million.
    The Wildlife Society was founded in 1937 and is a non-profit 
scientific and educational association representing over 9,100 
professional wildlife biologists and managers, dedicated to excellence 
in wildlife stewardship through science and education. Our mission is 
to represent and serve wildlife professionals--the scientists, 
technicians, and practitioners actively working to study, manage, and 
conserve native and desired non-native wildlife and their habitats 
worldwide.
    As stated in its mission, NSF exists to promote the progress of 
science; to advance the national health, prosperity, and welfare; and 
to secure the national defense. The budget for fiscal year 2010, along 
with the much-needed funding provided by the American Recovery and 
Reinvestment Act, were essential in enabling NSF to carry out its 
mission. However, this budget needs to be sustained in coming years if 
we are to benefit from the true potential of our Nation's scientific 
enterprise. Because of the issues posed to our national safety, 
infrastructure, and environment by a changing climate and a high 
jobless rate, TWS urges strong support for NSF in fiscal year 2011 to 
tackle these issues.
    The basic, fundamental research performed with funding from NSF at 
our universities and research centers fuels innovation and drives 
economies around the Nation. NSF was the second largest provider of 
Federal R&D funding in 2008 (the latest year in which data is 
available), providing an excess of $3.8 billion across numerous 
academic fields. These funds employ the scientists and personnel that 
conduct research and maintain equipment, they support graduate student 
salaries and undergraduate training opportunities, and they provide 
early career scientists with the support that enables them to develop 
successful lifelong research programs. In short, NSF provides the 
sturdy foundation upon which our Nation's impressive scientific legacy 
has been built.
    This scientific legacy has not only allowed the United States to 
lead the world in scientific, engineering, and medical breakthroughs, 
but it also provides us with a means for continuing to lead the world 
through the pressing social issues of today. Our world needs science 
more than ever to research and develop practices that will enable us to 
adapt to climate change, conserve natural resources, and mitigate 
environmental degradation. NSF will play a major role in this as the 
largest single-agency funder of academic R&D in the environmental and 
basic non-medical biological sciences, having spent over $1.057 billion 
in these two areas in 2008 alone.
    The mission of the BIO directorate is to enable discoveries for the 
understanding of life, and its mission is particularly critical to the 
wildlife scientists represented by TWS. The basic biological and 
environmental science being performed by NSF scientists within the BIO 
directorate helps us determine the best strategies for fire prevention, 
illuminates effects of nitrogen on wildlife habitats, and helps us 
predict how air pollution affects organisms in glacial lakes. This sort 
of research provides us with resources for monitoring ecosystems and 
adapting to change. For example, a recent NSF-funded modeling study 
showed that diverting sediment-rich water from the Mississippi River 
through cuts in the levees below New Orleans could generate new land in 
the river's delta in the next century, equaling almost one-half the 
land that is expected to disappear in the same amount of time due to 
sea-level rise, storms, and erosion. Studies such as this will be 
invaluable for adapting New Orleans and other large centers of human 
population for the inevitable environmental changes of the coming 
centuries.
    NSF also plays a major role in understanding how human, wildlife, 
and environmental health are closely intertwined. An example of this is 
a joint NSF and National Institutes of Health program on the ecology of 
infectious diseases that supports research into the underlying 
ecological and biological mechanisms behind environmental changes and 
the emergence of these diseases. Projects funded through programs such 
as this allow scientists to study how large-scale environmental 
changes, such as habitat destruction, invasive species, and pollution 
enable emergence of viral, parasitic and bacterial diseases in humans, 
domestic animals, and wildlife. This sort of research not only allows 
us to understand how disease is transmitted, but also helps scientists 
determine the unintended consequences of development projects and gives 
them the capacity to forecast disease outbreaks.
    Moreover, NSF adds value to the lives of Americans by playing a 
role in conserving of our valuable natural resources, such as iconic 
species like the American Bison, and treasured landscapes like the 
Sonoran desert. These natural resources are managed and monitored by 
legions of natural resource professionals, including wildlife and 
fisheries biologists, conservation scientists, foresters, ecologists, 
range managers, wildlife veterinarians, and marine biologists, among 
others. In 2008, the Bureau of Labor Statistics estimated that there 
were approximately 30,000 conservation scientists employed in the 
United States; add to this number all of the other professionals who 
work on ecological and natural resource issues, and many hundreds of 
thousands of individuals are employed in jobs that support our 
environment. NSF plays a key role in training these professionals to 
safeguard America's environment: during the course of their educational 
and research careers, most wildlife and ecological scientists receive 
training or mentoring made possible by NSF.
    We ask you to keep NSF's vital role in mind as you continue through 
the fiscal year 2011 appropriations process, and fully fund NSF with 
the $7.424 billion as requested by the President. This will allow NSF 
to provide $767.81 million to the BIO directorate to continue to 
support the biological and environmental sciences that play an integral 
role in our national health, environment, and security.
    We thank you for considering the views of wildlife professionals.
                                 ______
                                 
           Prepared Statement of The Florida State University

    Summary of Request.--Florida State University is requesting $3.5 
million from the National Oceanic and Atmospheric Administration (NOAA) 
Air Research Laboratory (ARL) Account to fund the Consortium for the 
Study of Mercury in the Atmosphere.
    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
subcommittee. I would like to take a moment to briefly acquaint you 
with Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $200 
million this past year in sponsored research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, Rhodes and Goldwater Scholars, as well as students with 
superior creative talent. Since 2005, FSU students have won more than 
30 nationally competitive scholarships and fellowships including 3 
Rhodes Scholarships, 2 Truman Scholarships, Goldwater, and 18 Fulbright 
Fellowships.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities. Our new President, Dr. Eric Barron, will lead 
FSU to new heights during his tenure.
    Mr. Chairman, let me summarize our primary interest today. It is 
known that the atmosphere dominates mercury transport pathways, yet the 
fraction of mercury entering lakes and rivers that is natural vs. man-
made, or global vs. local, is unknown. Most U.S. mercury emissions 
occur in the Northeast yet most mercury falls on Florida and the 
northern gulf coast. The sources of mercury falling on Florida are 
increasingly thought to be global rather than regional. Regional and 
global distributions of gaseous elemental mercury are unknown even 
though vapor mercury is the largest source of mercury to the 
atmosphere. These gaps in scientific knowledge undermine public policy 
initiatives to protect human health and natural environments and to 
find safe energy solutions to our power and transportation needs. 
Because of the critical impacts of mercury emissions on ecosystem and 
human health and the reliance of America's electric power grid on coal, 
a focused effort on the atmospheric mercury cycle is required to 
predict and regulate the dominant man-made sources.
    The Southeastern Mercury Consortium, a partnership between NOAA's 
Air Resources Lab (ARL), Florida State University, Georgia Tech, the 
University of Miami, and the University of Tennessee Space Institute 
(UTSI) will study the large-scale sources and fates of atmospheric 
mercury. ARL's mercury research group pioneered ground and airborne 
measurements and models of atmospheric mercury. FSU's Oceanography and 
Isotope Geochemistry Programs in the National High Magnetic Field Lab 
excel in ultra-trace element chemistry and isotopes of mercury in 
global atmospheric and aquatic environments. GaTech's Schools of Earth 
and Atmospheric Sciences and Civil and Environmental Engineering have 
extensive regional and global programs in urban photochemistry, 
``tailpipe'' and ``smoke stack'' gases, and global mapping of reactive 
trace gases and aerosols from research airplanes and satellites. UM's 
Rosenstiel School has advanced new technologies to detect atmospheric 
mercury speciation. UTSI is pioneering sampling capabilities needed for 
next generation atmospheric mercury analyses with their existing 
research airplanes. Our efforts to map gaseous elemental mercury and 
reactive gaseous mercury in the air over the southeastern United States 
will fill the gap between ground-based time series observations in the 
coastal zones by adding synoptic flight level measurements. We are 
requesting $3.5 million for this initiative.
    Additionally, Mr. Chairman, I want to briefly address a 
reprogramming request that you have pending from the National 
Oceanographic and Atmospheric Administration (NOAA) related to the 
creation of NOAA Climate Service line office. The reorganization is an 
extremely important addition to NOAA and our Nation to bring together 
the agency's strong climate science and service delivery capabilities. 
This approach has been in discussion within the scientific community 
for some time, and the time has come for such an important action to be 
implemented. I join with many others representing that community in 
respectfully requesting this subcommittee approve NOAA's reprogramming 
request to create a Climate Service office.
    With respect to the National Science Foundation (NSF), the 
President's request for fiscal year 2011 has requested $6,018,830 for 
the Research and Related Activities appropriations account. Florida 
State University strongly supports that request and encourages the 
subcommittee to make every effort to find funds to reach that requested 
level. The NSF provides over one-third of all Federal funding received 
by FSU, the largest amount provided by any Federal agency to FSU. With 
NSF's traditional support for peer-reviewed competitive research 
projects, their strong support for the scientists and engineers at FSU 
is indispensable for our students, faculty, and for our Nation as well. 
Yet with all the fine work and programs at NSF, there is a glaring 
programmatic gap in the way NSF funds some research instrumentation. 
They have programs for smaller instrumentation (<$5 million with MRI) 
and for large instruments and facilities (>$100 million with MREFC), 
but no program for those instruments in the ``mid-range'' between these 
two programs. We encourage the subcommittee to review this programmatic 
gap at NSF and consider appropriate actions to redress this issue.
    Mr. Chairman, this project and these issues are very important and 
I appreciate your consideration.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2011 appropriation for the 
National Science Foundation (NSF). The ASM is the largest single life 
science organization in the world with approximately 40,000 members. 
The ASM mission is to enhance the science of microbiology, to gain a 
better understanding of life processes, and to promote the application 
of this knowledge for improved health and environmental well being.
    The ASM strongly supports the administration's fiscal year 2011 
budget proposal for the NSF of $7.4 billion, an 8 percent increase over 
the fiscal year 2010 appropriation.
    The NSF is the only Federal agency dedicated to the support of 
basic research and education across all fields of science and 
engineering. Since 1950, the NSF has stimulated advances in multiple 
disciplines, through competitive grant awards. Seventy-four percent of 
the NSF's annual budget funds academic institutions, in support of 
approximately 241,000 scientists, students and teachers in all 50 
States, the District of Columbia and Puerto Rico. NSF funding has 
supported 187 Nobel laureates, including 21 in the last 5 years alone. 
The ASM commends Congress for increasing NSF funding over the past 2 
years, helping to reverse the erosion of Federal support for basic and 
applied research which declined from 64 percent to 60 percent between 
2005 and 2008.
    The American Recovery and Reinvestment Act (ARRA) provided 
additional funding that has helped NSF build on the Nation's past 
investment in research. In fiscal year 2009, the NSF evaluated over 
45,000 grant proposals and made roughly 14,700 new awards, of which 
about 4,700 were ARRA funded. The ARRA grants are supporting more than 
6,700 investigators, including 2,350 who had not previously received 
NSF funding.
    Increased funding for the NSF in fiscal year 2011 will stimulate 
future discoveries by NSF supported researchers at nearly 2,000 U.S. 
institutions. The latest NSF report on science and engineering 
indicators, indicates that U.S. global R&D competitiveness is at risk. 
The United States accounts for about one-third of the $1.1 trillion in 
annual global R&D expenditures. However, U.S. growth in R&D funding 
averaged 5 to 6 percent annually between 1996 and 2007, while 
comparable growth rates in Asia were 10 to 20 percent. In the same 
period, U.S. technology export shares fell by about one-third, while 
China's share more than tripled. The NSF is critical to increasing 
public and private investment in R&D and encouraging technology and 
business innovation in the United States.

               DIRECTORATE FOR BIOLOGICAL SCIENCES (BIO)

    The ASM urges congress to fund BIO with $767 million in fiscal year 
2011, a 7.5 percent increase. BIO provides about 68 percent of Federal 
funding for nonmedical, academic basic research in the life sciences, 
including the environmental biology research needed to answer questions 
related to climate change. In addition, BIO researchers work to find 
solutions to create national energy independence, as well as the 
development of new biologically based materials for diverse 
applications and better management of the environment.
    Researchers supported by NSF grants regularly make compelling 
discoveries that impact human health and well-being. Recent discoveries 
supported by the NSF include: (1) the isolation of one of the smallest 
known microbes found more than 3 km deep in an ice core and estimated 
to be more than 120,000 years old. This organism will help scientists 
to understand and study the limits of life and will also provide 
important information on the functionality of biomolecules in cold 
temperatures. (2) Research involving a representative legume, a group 
of plants that collectively feed one-third of the world's population. 
This has revealed a crucial control of the symbiosis through which a 
certain bacteria fixes nitrogen from the atmosphere in a form useful 
for plants. This research may lead to significant improvements in 
agricultural production and reduced dependence on fertilizers that 
require fossil fuels for production. (3) Researchers have used the 
growth responses of a common bacterium in stressful conditions as the 
basis for developing mathematical models to illuminate the complex 
decisionmaking behavior of humans. The responses of some microbes 
provide valuable insights about the kinds of processes that humans use 
in a range of activities from politics to economics.
    The BIO funding portfolio reflects the ongoing evolution of biology 
from once distinct disciplines into multi faceted interdisciplinary 
programs comprising diverse institutions, research specialties, and 
mission priorities. For example, BIO is a key contributor to the U.S. 
Global Change Research Program involving 13 U.S. agencies, and a 
partner in the NSF Centers program supporting over 100 centers in 7 
interdisciplinary program areas. These large collaborative programs 
tackle complex problems requiring significant investments in equipment, 
facilities, personnel and other crucial resources.
    BIO also leverages multidisciplinary expertise in its own focus 
areas, including its Emerging Frontiers (EF) Division, which is 
designed as an incubator for 21st century biology. Programs include 
``Assembling the Tree of Life'' (ATOL), an effort to assemble 
phylogenetic data for all major lineages of life, and ``Ecology of 
Infectious Diseases'' (EID), which includes goals to develop better 
predictive models of disease transmission. Recently awarded EID grants 
include spatial modeling of onchocerciasis in Africa by remote sensing, 
epidemiology of leptospirosis in Latin America, the role of environment 
and direct transmission in chronic wasting disease, and incidence 
gradients in Lyme disease in the eastern United States.
    BIO has also developed a major new multidisciplinary initiative, 
``Dimensions in Biodiversity'' that is intended to dramatically 
transform what we know and how we perceive Earth's living systems.
    The ASM supports the administration's funding level of $20 million 
for the National Ecological Observatory Network (NEON) in fiscal year 
2011. NEON is an EF initiative and the first observatory of its kind. 
Designed to detect and enable forecasting of ecological changes, NEON 
will use cutting edge technology to collect data on climate change at 
62 sites across the United States. It also will incorporate data from 
airborne observations, land use studies, invasive species studies and 
on-site experiments. The proposed $20 million for NEON represents the 
1st year of a 5 year project, with construction scheduled to begin this 
fiscal year and completion expected in fiscal year 2016. The data 
collected will be available to all users, serving a diverse 
constituency, and will help scientists forecast change at continental 
scales over multiple decades.

  DIRECTORATES OF GEOSCIENCES, ENGINEERING, MATHEMATICAL AND PHYSICAL 
                                SCIENCES

    The ASM urges congress to fund the Geosciences Directorate (GEO) 
the Engineering Directorate (ENG), and the Mathematical and Physical 
Sciences Directorate (MPS), with the administration's proposed 
increases of 7.4 percent, 11 percent, and 4.3 percent, respectively.
    The Geosciences Directorate encompasses wide ranging research 
activities that study living systems within the changing physical 
environment. For example, GEO supports the new Water Sustainability and 
Climate initiative that will understand and predict interactions among 
water quality and climate change, land use, present day water systems 
and services, and ecosystem characteristics. Within GEO, the Division 
of Earth Sciences (EAR) supports research that examines the shifting 
relationships between living and non living systems. The ongoing 
Continental Dynamics Program, for example, is identifying links between 
the geosphere, hydrosphere, atmosphere, and biosphere, funding large 
projects drawing from multiple disciplines. EAR funded research 
recently resulted in a discovery by geomicrobiologists that microbes 
living as biofilms in dark, oxygen free caves produce energy through 
previously unknown mechanisms that are still being studied. In an 
exploration of deep-sea venting systems, other researchers have shown 
that rare members of microbial communities can become dominant members; 
this result has broad implications for understanding the importance of 
microbial biodiversity in terrestrial and aquatic ecosystems.
    NSF funding accounts for 39 percent of academic basic research in 
all engineering fields and is a significant contributor to the 
knowledge base and workforce development essential for U.S. economic 
vitality. Through advances in innovative biosensors, biomaterials, 
bioimaging, waste and water treatment, food engineering and more, the 
Engineering Directorate's Chemical, Bioengineering, Environmental and 
Transport Systems Division (CBET) funds research that affects industry, 
including those producing pharmaceuticals, food, and medical devices. 
This year, CBET is soliciting new grant proposals for its Biosensing 
Program, targeting identification and detection of existing or emerging 
pathogenic microorganisms and toxins, as well as smart field deployable 
molecular sentinels for monitoring food, water, and air quality.
    Support of the Mathematical and Physical Sciences Directorate is 
critical to all scientific disciplines, as innovation increasingly 
depends on state of the art cybertools and computational techniques. 
NSF underwrites 65 percent of basic academic research in mathematics, 
47 percent in physical sciences and 82 percent in computer sciences. 
Efforts in molecular biology, genomics and metagenomics, predictive 
infectious disease modeling, high volume drug discovery, and other 
fields now require collection and evaluation of massive amounts of 
data. MPS supports the development of new and innovative mathematical 
and statistical methods to better evaluate DNA sequence data. For 
example, MPS recently requested that researchers work to find new and 
improved mathematical and statistical methods to better evaluate an 
exponential increase in DNA sequence information for biological 
threats.
    In addition, MPS funding for fiscal year 2011 will boost the 
directorate's broad impact programs. Including the Science and 
Engineering Beyond Moore's Law (SEBML) initiative to overcome current 
limits in communications and computation capability. MPS will also 
contribute to a new NSF wide priority investment, Science and 
Engineering Education for Sustainable Well Being (SEES), designed to 
integrate NSF's existing efforts in climate and energy research with 
new education and cyber based activities.

                   WORKFORCE DEVELOPMENT AND TRAINING

    The ASM supports increased funding allocated to strengthen the 
NSF's own workforce, which is responsible for administering programs of 
impressive scope and complexity. For example, NSF staff facilitated 
nearly 239,000 proposal reviews in fiscal year 2009, involving almost 
46,000 external reviewers.
    NSF supports the Nation's goal of advanced training and education 
in science and engineering through its extensive system of fellowships, 
training grants, and investigator grants that benefit both graduate and 
undergraduate students. Training tomorrow's technical workforce is 
vital to sustaining and enhancing the Nation's scientific and economic 
competitiveness. To promote greater STEM training, NSF's fiscal year 
2011 funding opportunities include: Interdisciplinary Training for 
Undergraduates in Biological and Mathematical Sciences (a joint BIO/MPS 
program); Cyberinfrastructure Training, Education, Advancement, and 
Mentoring for Our 21st Century Workforce (CI-TEAM); and a new program, 
Comprehensive Broadening Participation of Undergraduates in STEM. The 
success of these programs relies on adequate, consistent and long term 
funding in fiscal year 2011 and beyond.

                               CONCLUSION

    The National Science Foundation supports multiple research 
disciplines and its far-sighted approaches to research at the frontiers 
of discovery have pushed the Nation toward ever greater scientific 
achievements. The ASM urges Congress to provide an 8 percent increase 
for the NSF to ensure that basic and applied research in the United 
States is sustained in fiscal year 2011 and beyond.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2011 appropriation for the National Science Foundation.

</pre></body></html>
